<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, THE DEPARTMENT OF COMMERCE, THE FEDERAL TRADE COMMISSION, AND THE FEDERAL MARITIME COMMISSION</title>
<body><pre>[Senate Hearing 111-519]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-519
 
                           NOMINATIONS TO THE 
                     DEPARTMENT OF TRANSPORTATION, 
                      THE DEPARTMENT OF COMMERCE, 
                   THE FEDERAL TRADE COMMISSION, AND 
                    THE FEDERAL MARITIME COMMISSION 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-414 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 15, 2009................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     1
    Prepared statement of Hon. Barbara Boxer, U.S. Senator from 
      California, submitted by Hon. John D. Rockefeller IV.......    72
Statement of Senator Hutchison...................................     2
    Prepared statement...........................................     8
Statement of Senator Inouye......................................     5
    Prepared statement...........................................     7
Statement of Senator Pryor.......................................    63
Statement of Senator Begich......................................    64
Statement of Senator LeMieux.....................................    66
Statement of Senator Thune.......................................    68
    Prepared statement...........................................    69

                               Witnesses

Hon. Patrick Leahy, U.S. Senator from Vermont....................     2
    Prepared statement...........................................     3
    Prepared statement of Hon. Debbie Stabenow, U.S. Senator from 
      Michigan, submitted by Hon. Patrick Leahy..................     5
Julie Brill, Commissioner-Designate, Federal Trade Commission....     9
    Prepared statement...........................................    10
    Biographical information.....................................    11
Edith Ramirez, Commissioner-Designate, Federal Trade Commission..    25
    Prepared statement...........................................    26
    Biographical information.....................................    27
David Strickland, Administrator-Designate, National Highway 
  Traffic Safety Administration, U.S. Department of 
  Transportation.................................................    31
    Prepared statement...........................................    33
    Biographical information.....................................    34
Nicole Yvette Lamb-Hale, Assistant Secretary-Designate of 
  Commerce for Manufacturing and Services, U.S. Department of 
  Commerce.......................................................    40
    Prepared statement...........................................    42
    Biographical information.....................................    43
Michael A. Khouri, Commissioner-Designate, Federal Maritime 
  Commission.....................................................    52
    Prepared statement...........................................    53
    Biographical information.....................................    55

                                Appendix

Letter, dated December 9, 2009, from Alan Korn, Executive 
  Director--Safe Kids USA to Hon. John D. Rockefeller IV.........    77
Response to written questions submitted to Nicole Lamb-Hale by:
    Hon. Tom Udall...............................................    77
    Hon. Olympia J. Snowe........................................    78
    Hon. Sam Brownback...........................................    79
Response to written question submitted to Michael A. Khouri by:
    Hon. Frank R. Lautenberg.....................................    80
    Hon. Mark Begich.............................................    80
Response to written questions submitted to Julie Brill by:
    Hon. Bill Nelson.............................................    80
    Hon. Frank R. Lautenberg.....................................    81
    Hon. Tom Udall...............................................    82
    Hon. Mark Begich.............................................    83
Response to written questions submitted to David Strickland by:
    Hon. Daniel K. Inouye........................................    83
    Hon. Bill Nelson.............................................    84
    Hon. Frank R. Lautenberg.....................................    84
    Hon. David Vitter............................................    85
Response to written questions to Edith Ramirez submitted by:
    Hon. Bill Nelson.............................................    85
    Hon. Frank R. Lautenberg.....................................    86
    Hon. Tom Udall...............................................    86
    Hon. Mark Begich.............................................    87


                           NOMINATIONS TO THE
                     DEPARTMENT OF TRANSPORTATION,
                      THE DEPARTMENT OF COMMERCE,
                   THE FEDERAL TRADE COMMISSION, AND
                    THE FEDERAL MARITIME COMMISSION

                              ----------                              


                       TUESDAY, DECEMBER 15, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:50 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing is now open, due to my prompt 
arrival.
    I'm going to put my statement in the record, and want to 
proceed to Senator Leahy, but first the Ranking Member, Senator 
Kay Bailey Hutchison from Texas, may have some words to say.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I want to welcome and congratulate our nominees. I appreciate your 
commitment to public service and look forward to seeing you all 
confirmed shortly so you can get to work.
    We will start today with Julie Brill, the President's nominee to be 
a Commissioner of the Federal Trade Commission, who has spent her 
career in state Attorneys General offices advocating on behalf of 
consumers.
    My hope is that Ms. Brill will help the FTC work more closely with 
state Attorney General divisions to leverage and increase enforcement 
against those who target consumers, especially the most vulnerable. Ms. 
Brill's experience fighting in the trenches will serve her well.
    Also nominated to be Commissioner of the FTC is Edith Ramirez, who 
brings extensive experience in complex business litigation. I 
appreciate her critical eye for mergers and business combinations which 
may potentially harm consumers.
    And now we turn to one of our very own: David Strickland--nominated 
to be the next Administrator of the National Highway Traffic Safety 
Administration.
    Most of the members of this committee not only know Mr. Strickland, 
they consider him a trusted advisor and friend.
    During 8 years as a Senior Counsel for consumer and auto safety 
issues, Mr. Strickland has served three Chairmen, including me.
    David's booming voice and infectious laugh complement a sharp 
intellect, meticulous preparation, and the ability to build consensus 
on complex issues.
    David's expertise on automobile issues helped the Senate write the 
bill that raised gas mileage standards for the first time in 30 years. 
He helped write the Landmark Safety Bill in 2005 requiring electronic 
stability control and other safety features in all cars in coming model 
years.
    In 2004, Mothers Against Drunk Driving named Mr. Strickland its 
``Congressional Staffer of the Year'' for his efforts to reduce drunk 
driving.
    Now, he will take his safety expertise to a new venue, but continue 
his work to prevent injuries and save lives on our Nation's highways.
    Mr. Strickland is the right person for this job. And, as part of 
the job, I think he will enjoy being interrogated at the witness table 
during future hearings. I know I will enjoy it.
    Next, we have Nicole Lamb-Hale, who has been nominated to be the 
Assistant Secretary for Manufacturing and Services at the Department of 
Commerce.
    The current state of our economy requires our businesses to make 
the world their market. We look forward to Ms. Lamb-Hale stepping up to 
invigorate companies and help produce new American jobs.
    We also welcome Michael Khouri, nominee to be Administrator of the 
Federal Maritime Commission, which we need to promote fair and open 
shipping practices in international commerce.
    Thank you again to our nominees for your testimony today and your 
continued public service. I look forward to your speedy confirmation.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, I was just going to observe that 
you did not get nearly the reception that your former staffer, 
David Strickland, got when he entered the room.
    [Laughter.]
    Senator Hutchison. So, you'd better be very careful, Mr. 
Chairman.
    [Laughter.]
    The Chairman. Well, I didn't bring--one reason for that, I 
didn't bring my whole family with me.
    [Laughter.]
    Senator Hutchison. He got a standing ovation, the whole 
room.
    So, go forward.
    The Chairman. Senator Leahy, please.

              STATEMENT OF HON. PATRICK J. LEAHY, 
                   U.S. SENATOR FROM VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman. I should note 
that several people have said the former staffer is much better 
looking, but, of course, I would not say that.
    [Laughter.]
    Senator Leahy. I would only repeat what everybody's been 
saying.
    But, Chairman and Senator Hutchison and Senator Inouye and 
other members of the Committee, I'm really privileged to be 
here to introduce Julie Brill, and the historic interest in 
consumer protection of this committee is well served by this 
nomination.
    President Obama selected her after considering her work as 
the Senior Deputy Attorney General at the Consumer Protection 
Division of North Carolina Department of Justice, but I've 
known Julie for 20 years of work as an Assistant Attorney 
General in Vermont. She's the pride of Randolph, Vermont, a 
beautiful little town, not far from where I was born, where she 
continues to reside.
    And, Senator Hutchison, I should also note that you have a 
claim to her, since she was born in Houston, Texas. We try to 
cover everything we can.
    [Laughter.]
    Senator Leahy. Her background and credentials are 
impeccable. After graduating from Princeton, she earned her law 
degree at New York University. She served as a law clerk to one 
of our most distinguished Vermont Federal judges, Honorable 
Franklin Billings. She was recruited to work at the well-known 
New York law firm of Paul, Weiss, Rifkind, Wharton & Garrison 
before she returned to Vermont and to public service. She was 
the Vermont Assistant Attorney General in the Civil Division, 
representing the people of Vermont and our State agencies. She 
was promoted to be General Counsel of the Vermont Department of 
Bank and Insurance and Securities before returning to the 
Attorney General's office to work for another 17 years in 
behalf of consumers.
    She worked, initially, with Attorney General Jeff Amestoy, 
then went on to become our Chief Justice, and then, for a dozen 
years, with a highly respected current Attorney General, Bill 
Sorrell, a man who had originally been Chittenden County 
State's Attorney, a office that is often steppingstone to the 
U.S. Senate, or at least has been.
    She made time to serve as a--that's an inside joke, Mr. 
Chairman.
    The Chairman. Yes, I----
    [Laughter.]
    The Chairman.--right?
    Senator Leahy. She also made time to serve as an Adjunct 
Professor at Columbia Law School. She's won numerous awards. 
And when you consider her work in agriculture, tobacco, food, 
and pharmaceuticals, you see that this is somebody you should 
be very proud of.
    I will put my full statement in the record, but she is here 
with her husband and Randolph; is best known as a proud mother 
of two teenage boys; a far better tennis player than I'll ever 
be. I know that State Attorneys General are so pleased with 
this. I think she's going to contribute significantly to the 
work of the Commission and Chairman Leibowitz's active agenda.
    So, I come here to thank her, thank Mark, thank the family 
for having her do this.
    And, Mr. Chairman, I rarely ever appear before this 
committee. I think the last time, it was 15 or 20 years ago. 
But, I do, with a sense of pride. I've made a special exception 
to be here, with a sense of pride--my respect for you and for 
the other members of the Committee is well known--and offer a 
wonderful, wonderful person for this position.
    [The prepared statement of Senator Leahy follows:]

  Prepared Statement of Hon. Patrick Leahy, U.S. Senator from Vermont
    Chairman Rockefeller, Senator Hutchison, and members of the 
Committee, I am privileged to be before you today to introduce Julie 
Brill. Your historic interest in consumer protection is well served by 
this nomination.
    President Obama selected Julie after considering her work as the 
Senior Deputy Attorney General of the Consumer Protection Division of 
the North Carolina Department of Justice. I have known Julie for her 20 
years of work as an Assistant Attorney General in Vermont. She is the 
pride of Randolph, Vermont, where she continues to reside. Senator 
Hutchison, I should also note that you have a claim to her since she 
was born in Houston.
    Her background and credentials are impeccable. After graduating 
from Princeton University, she earned her law degree at New York 
University.
    She served as the law clerk to one of our most distinguished 
Vermont Federal judges, the Honorable Franklin Billings. She was 
recruited to work at the well-known New York law firm of Paul, Weiss, 
Rifkind, Wharton and Garrison, which she did for a year, before 
returning to Vermont and to public service.
    She served as a Vermont Assistant Attorney General in the Civil 
Division representing the people of Vermont and our state agencies. She 
was promoted to be General Counsel of the Vermont Department of 
Banking, Insurance and Securities for a time before returning to the 
Attorney General's Office to work for another 17 years on behalf of 
consumers.
    She worked initially with Attorney General Jeff Amestoy, who went 
on to become Vermont's Chief Justice, and for a dozen years with our 
highly-respected current Attorney General Bill Sorrell.
    She also made time to serve as an Adjunct Professor at Columbia Law 
School and as part of that school's Social Justice Initiatives Program. 
She has won numerous awards, and spoken and written extensively.
    When you consider her work on agriculture, tobacco, food, and 
pharmaceuticals, you will see that this is someone in whom the 
Committee can have confidence to protect consumers and to get the job 
done. I especially appreciate the work she accomplished when she served 
as Co-Chair of the National Association of Attorneys General Privacy 
Working Group, and her interest in identity theft.
    With all these accomplishments, Julie is best known in Randolph as 
the proud mother of two teenage boys--and for her tennis.
    I thank her for her willingness to serve. Both the Federal Trade 
Commission (FTC) and consumers will benefit greatly from her 
confirmation and appointment.
    I know that State Attorneys General are elated with this nomination 
and the prospect of someone with a perspective from State government 
serving on the FTC.
    Those who work on consumer protection issues across the country 
know that Julie Brill will contribute significantly to the work of the 
Commission and to Chairman Leibowitz's active agenda. Her expertise, 
intelligence and passion will make a difference for all Americans.
    I come today to congratulate Julie on her nomination and to thank 
Mark and their family for their willingness to share this gifted woman 
with us through her continued public service. I commend her nomination 
to the Committee, urge its swift consideration, and that it be 
favorably reported to the Senate.

    The Chairman. Well, thank you, Senator Leahy. That's a very 
nice thing to say. But, Senator Inouye, myself, and others are 
wondering why have you stayed away so long?
    [Laughter.]
    Senator Leahy. Nobody invited me.
    [Laughter.]
    The Chairman. That was true with the White House recently, 
too.
    [Laughter.]
    Senator Leahy. Of course, I do get there more, probably, 
than necessary.
    [Laughter.]
    Senator Leahy. Another inside joke. I'll explain it later 
on.
    The Chairman. Yes----
    [Laughter.]
    Senator Leahy. But, I have been tied up with another 
committee in a different building.
    The Chairman. Judiciary, something like that?
    Senator Leahy. No, Appropriations.
    [Laughter.]
    The Chairman. Oh.
    Senator Leahy. Senator Inouye keeps me very busy.
    The Chairman. I see. That's the one with all the money, 
right?
    [Laughter.]
    Senator Leahy. That's right. West--that's the one that was 
considered an adjunct of West Virginia for a while.
    [Laughter.]
    Senator Leahy. Now it's moot.
    [Laughter.]
    Senator Leahy. Now, it has found the weather of Hawaii to 
be much better, and it has moved closer to Hawaii.
    [Laughter.]
    Senator Leahy. That's another inside joke, which I'll 
explain later on.
    [Laughter.]
    The Chairman. Senator Leahy, thank you very, very much.
    Senator Leahy. Thank you for sharing.
    The Chairman. And now, I ask unanimous consent that Senator 
Stabenow's statement be included, as if read.
    [The prepared statement of Senator Stabenow follows:]

 Prepared Statement of Hon. Debbie Stabenow, U.S. Senator from Michigan
                  Introduction of Ms. Nicole Lamb-Hale
    Mr. Chairman, it is a great pleasure to introduce Ms. Lamb-Hale, a 
real leader from my state of Michigan, who is President Obama's nominee 
to be Assistant Secretary of Manufacturing and Services at the 
Department of Commerce.
    Ms. Lamb-Hale is currently the Deputy General Counsel of the 
Department of Commerce. In this role, she assists the General Counsel, 
who is the chief legal officer for the Department and legal advisor to 
the Secretary, Secretarial Officers and other officers of the 
Department. Prior to joining the Obama Administration, she was the 
Managing Partner of the Detroit office of the law firm of Foley & 
Lardner LLP, where she specialized in business restructuring in the 
manufacturing sector.
    Ms. Lamb-Hale has been active in civic and community affairs 
throughout her career. She served as Vice-Chair of the Board of 
Directors of the Michigan Land Bank Fast Track Authority, by 
appointment of Michigan Governor Granholm, and as a member of the Board 
of Trustees of Leadership Detroit. Ms. Lamb-Hale has been a frequent 
lecturer on restructuring matters with a particular emphasis in recent 
years on the automotive industry. She was named a ``Super Lawyer'' for 
three successive years and one of ``Metro Detroit's Most Influential 
Women'' by a leading business publication. Ms. Lamb-Hale received her 
B.A. with high honors from the University of Michigan and her J.D. from 
Harvard.
    Ms. Lamb-Hale will have a unique opportunity to help our 
manufacturers. With nearly one-quarter of all manufacturing workers in 
Michigan depending on exports for their jobs, I've spoken to Ms. Lamb-
Hale about the importance of letting small businesses know that they 
can get help exporting. In fact, she was just in Detroit last week 
moderating a panel on Federal programs that assist exporters. But more 
needs to be done, and I am glad Ms. Lamb-Hale shares my commitment to 
helping our small businesses.
    I am confident that having lived and worked in Michigan, Ms. Lamb-
Hale will effectively bring together her real-life experiences and the 
resources at Commerce to lead the reemergence of a strong manufacturing 
sector in this country. I look forward to working with her and 
continuing my efforts with the Administration on implementing a 21st 
century manufacturing strategy. Mr. Chairman, thank you again for the 
opportunity to introduce Ms. Lamb-Hale.

    The Chairman. And then I would like to call on Senator Dan 
Inouye to introduce the nominee who seems to have many family 
members here.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Strickland? Mr. Strickland?
    Mr. Chairman and members, it's a great honor to be here in 
support of President Barack Obama's nomination, David Lorenzo 
Strickland--Did you know his middle name was Lorenzo?
    [Laughter.]
    Senator Inouye.--to serve as Administrator of NHTSA, 
National Highway Traffic Safety Administration. He's a good 
man, he's a successful man, and all of that is because of his 
family and friends.
    And, with your permission, Mr. Chairman, may I ask half the 
audience to stand up, because----
    [Laughter.]
    The Chairman. Any half, or just----
    Senator Inouye. No, the family there.
    [Laughter.]
    The Chairman. Oh.
    Mr. Strickland. You want them to stand?
    Senator Inouye. Oh, yes.
    [Laughter.]
    [Applause.]
    Senator Inouye. If I were smart, I would stop my statement 
right now.
    [Laughter.]
    Senator Inouye. Mr. Chairman, as I indicated, Mr. 
Strickland is a bright, talented professional who will greatly 
benefit the Obama Administration and the public, and will bring 
strength and credibility to that agency.
    As we all know, David Strickland--Lorenzo, if I may call 
you that now----
    [Laughter.]
    Senator Inouye.--served on this committee. He was a very 
important member of this committee. And supported by him, the 
Commerce Committee pursued a very aggressive, pro-consumer 
agenda and accomplished the passage, with bipartisan support, 
of several monumental bills to promote the safety of the 
American public.
    During the 110th Congress, David Strickland had a hand in 
at least seven Senate Commerce Committee measures that became 
law, and key among these were the first reauthorization of the 
Consumer Protection Safety Commission in 18 years--we had to 
wait for David to come along----
    [Laughter.]
    Senator Inouye.--the first mandated increase in the 
Passenger Car Fuel Economy--that's the CAFE bill; for the first 
time in 30 years. If it weren't for David, we'd still be 
waiting.
    He's a proven expert in a broad range of issues handled by 
NHTSA. During the consideration of the Highway Bill 
Authorization in 2005, I had the privilege of working with 
then-Chairman Ted Stevens to develop the reauthorization of 
that agency, and I was lucky, because I had a staff member 
helping me--David Lorenzo Strickland. The Committee's work was 
hailed by many as the most comprehensive initiative in 
automotive safety in years. And, David Strickland, advised me 
on the proposal and was my lead staff negotiator during the 
conference.
    His work on vehicle safety, as well as the programs to 
lower drunk driving rates and increase primary seatbelt usage, 
underscore his leadership, knowledge, and skill. And during the 
2008 Corporate Average Fuel Economy, the so-called CAFE debate, 
David worked closely with every constituency involved and 
provided expert advice to me and to all the members of this 
committee.
    As NHTSA moves forward with implementing the new fuel 
economy standards, I believe David Strickland is particularly 
well-suited to oversee the agency's work in this area. His 
expertise is well respected both on the Capitol and by safety 
advocates. And he has a long list of people who are endorsing 
him, and they don't usually endorse nominees: Mothers Against 
Drunk Driving--you know, they don't endorse every candidate 
here; Safe Kids; the Governors Highway Safety Association; the 
Criminal Justice and Highway Safety Coalition. All of these 
groups have endorsed David Lorenzo Strickland.
    NHTSA, Mr. Chairman, needs a leader who understands issues 
related to vehicle safety and fuel economy, listens to all 
constituencies, and makes sound public policy decisions that 
will improve the safety of every member of the driving public. 
David Strickland has the knowledge, the ability to lead this 
agency, and will do an exceptional job, should he be confirmed 
for this position.
    And I wish to express my personal appreciation to David 
Lorenzo for his commitment to public service to our Nation, and 
our Nation will benefit greatly from his continued service.
    Mr. Chairman and members, I wholeheartedly support David 
Lorenzo Strickland's nomination and respectfully urge that this 
committee and the full Senate expeditiously confirm his 
nomination.
    And I think you're going to be nominated, and you will be--
--
    Mr. Strickland. Thank you, Senator.
    Senator Inouye.--approved, sir.
    [Laughter.]
    Mr. Strickland. Thank you, sir.
    Senator Inouye. Can we vote on him now?
    [Laughter.]
    Senator Inouye. No? Oh, OK.
    [Laughter.]
    Senator Inouye. David, I tried.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    It is a great honor to be here today in support of President Barack 
Obama's nomination of David Lorenzo Strickland to serve as the 
Administrator of the National Highway Traffic Safety Administration 
(NHTSA). David is a bright, talented professional who will greatly 
benefit the Obama Administration and the American public, and will 
bring strength and credibility to this agency.
    David served on the Senate Committee on Commerce, Science and 
Transportation as my Senior Counsel for the Consumer Affairs 
Subcommittee for the 109th and the 110th Congresses. Supported by 
David's efforts, the Commerce Committee pursued a very aggressive pro-
consumer agenda and accomplished the passage, with bipartisan support, 
of monumental legislation to promote the safety of the American public. 
During the 110th Congress alone, David had a hand in at least seven 
Commerce Committee measures that became law. Key among these were the 
first reauthorization of the Consumer Protection Safety Commission in 
18 years, and the first mandated increase in passenger car fuel economy 
in more than 30 years.
    David is a proven expert on the broad range of issues handled by 
NHTSA. During consideration of the Highway Bill Reauthorization in 
2005, I worked with then-Chairman Ted Stevens to develop the 
reauthorization of the agency. In particular, I was responsible for 
drafting the vehicle safety regulations section that included mandating 
electronic stability control in every passenger vehicle. The 
Committee's work was hailed by many as the most comprehensive 
initiative on automotive safety in years. David advised me on this 
proposal and was my lead staff negotiator during the conference. His 
work on vehicle safety, as well as the programs to lower drunk driving 
rates and increase primary seat belt usage, underscore his leadership, 
knowledge, and skills.
    During the 2008 Corporate Average Fuel Economy (CAFE) debate, David 
worked closely with every constituency involved and provided expert 
advice to me and to other Senate and House members, including Senators 
Feinstein and Pryor, and Speaker Pelosi, who were passionately involved 
in this landmark legislation. As NHTSA moves forward with implementing 
the new fuel economy standards, I believe David is particularly well 
suited to oversee the agency's work in this area.
    David's expertise is well respected both on Capitol Hill and by 
safety advocates, including Mothers Against Drunk Driving, SAFEKIDS, 
the Governors Highway Safety Association, and the Criminal Justice and 
Highway Safety Coalition, all of whom have endorsed his nomination.
    NHTSA needs a leader who understands issues related to vehicle 
safety and fuel economy, listens to all constituencies, and makes sound 
public policy decisions that will improve the safety of every member of 
the driving public. David has the knowledge and the ability to lead 
this agency, and will do an exceptional job should he be confirmed for 
the position.
    I wish to express my personal appreciation to David for his 
commitment to public service. Our nation will benefit greatly from his 
continued service. I wholeheartedly support David's nomination and 
respectfully urge this committee and the full Senate to expeditiously 
confirm his nomination.

    [Laughter.]
    Mr. Strickland. Thank you, sir.
    The Chairman. Would all the panelists please come forward?
    Senator Hutchison. Mr. Chairman, while they're coming 
forward, may I submit my opening statement for the record?
    The Chairman. Of course.
    Senator Hutchison. Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding today's hearing. We will 
consider a number of nominees chosen to fill a variety of important 
positions.
    I want to join the Chairman in recognizing one of his Committee 
staffers, David Strickland. David has worked on highway safety and 
consumer affairs issues for 8 years and he has made many important 
contributions to legislation that has passed through this committee. 
His policy focus on NHTSA and automotive safety will serve him well in 
his new position.
    I also would like to welcome the nominees for the Federal Trade 
Commission (FTC), Ms. Julie Simone Brill and Ms. Edith Ramirez. The FTC 
has immense jurisdiction, covering both consumer protection and 
antitrust issues in a broad range of industries.
    We have focused a large amount of attention recently on the actions 
of the FTC, especially as they relate to consumer protection during the 
financial crisis. It is very important that we fill the Commissioner 
vacancies to enable the agency to do its job most effectively on behalf 
of the American consumers.
    This committee will likely consider an FTC reauthorization bill in 
the months ahead. I have significant concerns regarding what is 
expected to be an effort to considerably expand the authority of the 
agency. I am very interested to hear the nominees' views on this 
matter.
    I also would like to welcome Ms. Nicole Lamb-Hale, who has been 
nominated to be Assistant Secretary for Manufacturing and Services at 
the Department of Commerce. This position plays an important role in 
ensuring that U.S. industry remains strong and globally competitive, 
which is crucial to our economy. I look forward to hearing her ideas 
for the organization.
    And finally, I am happy to welcome Mr. Michael Khouri, who is the 
Republican nominee to the Federal Maritime Commission (FMC). Safe and 
efficient maritime commerce is vital to the U.S. economy. Port and 
maritime activity accounts for over 13 million jobs, generating $649 
billion in personal income.
    The Port of Houston, in my home state of Texas, is one of the 
busiest ports in the world and ranks first in the United States in 
foreign waterborne tonnage.
    The FMC has the important task of ensuring the stability and 
security of maritime commerce and I look forward to hearing the 
nominee's priorities for the Commission.
    I thank all of our nominees for their willingness to serve and look 
forward to hearing from them.

    The Chairman. Ms. Brill, we'll start with you.
    All be welcome, please.

STATEMENT OF JULIE BRILL, COMMISSIONER-DESIGNATE, FEDERAL TRADE 
                           COMMISSION

    Ms. Brill. Thank you.
    Chairman Rockefeller, Ranking Member Hutchison, Senator 
Inouye, Committee members, thank you so much for inviting me 
here and for considering my nomination to the Federal Trade 
Commission.
    I am joined here today by several members of my family whom 
I'd like to introduce, if I may: my husband, Mark Miller; my 
sons, Zachary and Noah; my sister, Mimi Brill; my brother-in-
law, David Rountree; and my two nieces, Grace and Isobel.
    I'd like to thank so many of the Committee members and your 
staffs for taking time recently to meet with me. I'd also like 
to thank each of the current Commissioners, and particularly 
the Chairman, for their support.
    I have spent the past 20 years enforcing the law on behalf 
of consumers, first in Vermont, and more recently in North 
Carolina. I have been privileged to work with two outstanding 
Attorneys General: Vermont Attorney General Bill Sorrell and 
North Carolina Attorney General Roy Cooper. If confirmed, I 
hope to bring to the Commission what they have taught me: 
passion for aggressively protecting consumers, humility and 
grace in exercising authority, and the need to carefully 
balance the interests and concerns of businesses, consumers, 
and other stakeholders in legislative, regulatory, and law 
enforcement initiatives.
    During our meetings, several of you asked what my top 
priority as a Commissioner would be. The FTC works on a broad 
range of issues facing consumers, such as data security, 
privacy, spyware, energy, and competition in the healthcare and 
pharmaceutical industries. I have worked on these critical 
areas throughout my career and will continue to do so at the 
Commission. If confirmed, my top priority will be focusing on 
economic scams that have been so pernicious to consumers during 
the economic crisis.
    As you well know, while the financial picture on Wall 
Street is improving, Main Street continues to suffer. Coupled 
with high unemployment rates, the economic crisis creates an 
atmosphere where consumers are particularly vulnerable to 
unscrupulous business practices that falsely promise to help. 
Simply put, these consumers have a target on their back.
    The FTC has been cracking down on those who hunt for easy 
prey. We can build on this work and focus on the dramatic rise 
in scams designed to take advantage of consumers' economic 
insecurity. At the same time, we must continue our efforts to 
educate consumers so they can better protect themselves by 
making responsible choices.
    The FTC is the Nation's premier consumer protection agency. 
The State AGs are the FTC's longstanding partners in law 
enforcement. I hope to assist in building upon the bonds that 
already exist between these two preeminent law enforcement 
communities.
    I feel truly honored and privileged that you are 
considering my nomination for the position of Commissioner of 
the FTC. If I am fortunate to be confirmed, I will be proud to 
serve and work to protect the Nation's consumers.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Brill follows:]

      Prepared Statement of Julie Brill, Commissioner-Designate, 
                        Federal Trade Commission
    Chairman Rockefeller, Ranking Member Hutchison, Committee members: 
thank you so much for inviting me here and for considering my 
nomination to the Federal Trade Commission.
    I am joined here today by several members of my family, whom I'd 
like to introduce: My husband, Mark Miller; my sons, Zachary and Noah; 
my sister, Mimi Brill; my brother-in-law, David Rountree; and my two 
nieces, Grace and Isobel.
    I'd like to thank so many of the Committee members and your staffs 
for taking time recently to meet with me. I enjoyed our discussions and 
have already learned much, especially your thoughts about the 
appropriate goals and direction of the Federal Trade Commission.
    I'd also like to thank each of the current Commissioners and 
particularly the Chairman for their support.
    I have spent the past 20 years enforcing the law on behalf of 
consumers, first in Vermont and more recently in North Carolina. I have 
been privileged to work with two outstanding Attorneys General--Vermont 
Attorney General Bill Sorrell and North Carolina Attorney General Roy 
Cooper. If confirmed, I will bring to the Commission what they have 
taught me: passion for aggressively protecting consumers, humility and 
grace in exercising authority, and the need to carefully balancing the 
interests and concerns of businesses, consumers, and other stakeholders 
in legislative, regulatory and law enforcement initiatives.
    During our meetings, several of you asked what my top priority as a 
Commissioner would be. The FTC works on a broad range of issues facing 
consumers, such as data security, privacy, spyware, energy, and 
competition in the health care and pharmaceutical industry. I have 
worked on these critical areas throughout my career, and will continue 
to do so at the Commission. If confirmed, my top priority will be 
focusing on economic scams that have been so pernicious to consumers 
during the economic crisis. These are issues like ``get rich quick'' 
scams, foreclosure ``rescue'' and ``assistance'' scams, bogus 
government grant schemes, debt settlement scams, credit repair scams, 
and unscrupulous debt collection practices.
    As you well know, while the financial picture on Wall Street is 
improving, Main Street continues to suffer. The Mortgage Bankers 
Association reports that currently more than 14 percent, or 1 in 7 
homes, are either in foreclosure or the homeowner has missed at least 
one mortgage payment. These trends are the worst in the nearly 40 years 
the MBA has been tracking them. And the downtrend continues: another 
industry group calculates that nearly 23 percent of all residential 
mortgages are in a negative equity, or ``underwater''.
    Coupled with high unemployment rates, the economic crisis creates 
an atmosphere where consumers are vulnerable. Consumers who find 
themselves with mortgages they cannot afford, with homes that are being 
foreclosed upon, without jobs, or with involuntarily reduced hours at 
work--are all particularly vulnerable to unscrupulous business 
practices that falsely promise to help. Simply put, these consumers 
have a target on their backs.
    The FTC has been cracking down on those who hunt for easy prey. We 
can build on this work, and focus on the dramatic rise in scams 
designed to take advantage of consumers' economic insecurity. At the 
same time, we must continue our efforts to educate consumers so they 
can better protect themselves by making responsible choices.
    The FTC is the Nation's premier consumer protection agency. The 
State AGs are the FTC's longstanding partners in law enforcement. With 
my extensive experience with State Attorneys General, I can help build 
upon the bonds that already exist between these two preeminent law 
enforcement communities.
    I feel truly honored and privileged that you are considering my 
nomination for the position of Commissioner of the FTC. If I am 
fortunate to be confirmed, I will be proud to serve and work to protect 
the Nation's consumers.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Julie Simone 
Brill.
    2. Position to which nominated: Commissioner of the Federal Trade 
Commission.
    3. Date of Nomination: November 17, 2009.
    4. Address (List current place of residence and office addresses):

        Residences: Information not released to the public.

        Office: Consumer Protection Division, North Carolina Department 
        of Justice, 114 W. Edenton Street, Raleigh, NC 27602.

    5. Date and Place of Birth: March 12, 1959; Houston, Texas.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Mark E. Miller, Director, Marketing and Business 
        Development, DuBois & King, 28 North Main Street, Randolph, VT 
        05060; children: Zachary Miles Miller, age 16; Noah Davis 
        Miller, age 14.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A. degree: 1981, Princeton University.

        J.D. degree: 1985, New York University School of Law.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    A. Senior Deputy Attorney General and Chief, Consumer Protection 
and Antitrust Division, North Carolina Department of Justice--Raleigh, 
NC, Feb. 2009-Present.
    As one of the North Carolina Attorney General's top appointees, I 
work with the Department of Justice Executive Team to develop and 
execute the North Carolina Department of Justice's litigation, 
legislative and regulatory strategies for all consumer protection, 
antitrust and utilities matters.
    The following management level work I perform in this position 
directly relates to the position of Commissioner of the Federal Trade 
Commission:

  <bullet> Developing the strategic plan for a 60-person division that 
        is one of the most highly regarded consumer protection and 
        antitrust State Attorney General divisions in the Nation.

  <bullet> Managing a multi-million dollar budget and large staff.

  <bullet> Managing a division of a state agency through a state-wide 
        financial crisis.

  <bullet> Crafting and executing the division's legislative agenda, 
        including working with a vast array of stakeholders and 
        legislators. Legislative issues include efforts to assist 
        consumers during the current economic crisis through 
        improvements in foreclosure procedures, debt collection, and 
        debt buying laws. Other legislative efforts involve securities 
        transactions oversight, identity theft, security freezes, 
        credit reporting, and telecommunications issues.

  <bullet> Creating the strategic plan for law enforcement efforts of 
        the division, including marshalling resources and supervising 
        investigations involving financial fraud, predatory lending, 
        telemarketing fraud, business closures, security breaches, 
        false advertising, gasoline price gouging, and utility rate 
        filings involving rate increases and consumption reduction 
        incentives.

  <bullet> Along with a few other top consumer protection state law 
        enforcers, crafting the states' strategic plan for multistate 
        investigations in a wide range of areas, including 
        pharmaceuticals, financial fraud, and privacy.

  <bullet> Assisting in formulating multistate legislative and 
        regulatory policy positions on a wide range of consumer 
        protection issues.

  <bullet> Participating in high-level discussions with Federal 
        officials to articulate the states' position on wide variety of 
        issues, including preemption, financial regulation, and 
        privacy.

    B. Adjunct Professor, Columbia Law School--New York, NY, September 
2008-Present.

  <bullet> I co-teach a course entitled ``State Attorneys General''.

  <bullet> I am a core member of the National State Attorneys General 
        Program, part of Columbia Law School's Social Justice 
        Initiatives Program.

    The following non-management level work I perform in this position 
directly relates to the position of Commissioner of the Federal Trade 
Commission:

  <bullet> I have a deep understanding of the law enforcement efforts 
        and policy concerns of State Attorneys General, including the 
        challenges they face in consumer protection and antitrust 
        enforcement.

    C. Assistant Attorney General and Director, Antitrust Vermont 
Attorney General's Office--Montpelier, VT, October 1991-Feb 2009.
    For 17 years I developed and executed Vermont's litigation, 
legislative and regulatory strategies in a wide variety of areas 
affecting consumers and businesses, including privacy, credit 
reporting, financial services, tobacco, solid waste, agriculture, food, 
drugs, and other health related industries.
    The following management and non-management level work I performed 
in this position directly relates to the position of Commissioner of 
the Federal Trade Commission:

  <bullet> Serving as part of a small core group of State Assistant 
        Attorneys General around the Nation that established strategic 
        plans for consumer protection pharmaceutical litigation and 
        legislative efforts by the State Attorneys General. Efforts 
        included:

    <bullet> serving as chair, co-chair and/or member of the states' 
            executive committees in major consumer protection 
            pharmaceutical litigation;

    <bullet> crafting innovative resolutions for state litigation, 
            including a groundbreaking $28 million counter-advertising 
            program;

    <bullet> developing creative state legislative responses to 
            pharmaceutical issues;

    <bullet> defending the same creative state laws in the face of 
            industry court challenge; and

    <bullet> organizing national pharmaceutical conferences sponsored 
            by the National Association of Attorneys General and the 
            National State Attorneys General Program of Columbia Law 
            School.

  <bullet> Serving as co-chair of the National Association of Attorneys 
        General Privacy Working Group. Efforts included:

    <bullet> setting the strategic direction for State Attorneys 
            General offices on privacy and identity theft issues;

    <bullet> developing state positions concerning privacy and identity 
            theft issues to present to Congress and Federal regulators;

    <bullet> crafting creative state legislative solutions to privacy 
            issues, including security breach, security freeze, and 
            Social Security Number protection legislation; and

    <bullet> coordinating state multi-state litigation efforts, 
            including serving on States' Executive Committees in the 
            ChoicePoint and TJ Maxx security breach investigations.

  <bullet> Managing Vermont's litigation and legislative efforts 
        against the tobacco industry, which consisted of:

    <bullet> creatively crafting the state's two major lawsuits against 
            the industry;

    <bullet> working with various state agencies and local public 
            health organizations on both litigation and policy issues 
            related to tobacco;

    <bullet> shepherding unique tobacco-related bills through the 
            Vermont legislature;

    <bullet> effectuating Vermont's participation in the Master 
            Settlement Agreement; and

    <bullet> serving as co-lead litigator in an innovative multistate 
            lawsuit against RJ Reynolds Company over its claims for new 
            ``reduced risk'' cigarette products, culminating in a five-
            week trial in October 2008 and January 2009 in Burlington, 
            Vermont.

  <bullet> Directing Vermont's antitrust efforts, including major 
        litigation efforts involving the state's largest vertically 
        integrated solid waste company, and the Nation's largest dairy 
        processors.

    D. General Counsel , Vermont Department of Banking, Insurance and 
Securities--Montpelier, VT, July 1990-October 1991.
    I counseled the Vermont state agency primarily responsible for 
regulation of the financial industry, and supervised the Department's 
litigation and enforcement actions.
    The following management and non-management level work I performed 
in this position relates to the position of Commissioner of the Federal 
Trade Commission:

  <bullet> Gaining a solid background in the law and regulations 
        relating to banking, securities and insurance.

  <bullet> Experiencing first-hand the complex relationships between 
        financial regulators and the financial industry.

    E. Assistant Attorney General, Civil Law Division Vermont Attorney 
General's Office--Montpelier, VT, June 1988-July 1990.
    I served as legal counsel to several state agencies, providing 
advice on issues concerning economic development, housing, employment 
discrimination and community planning.
    The following non-management level work I performed in this 
position relates to the position of Commissioner of the Federal Trade 
Commission:

  <bullet> Serving as lead counsel in an antitrust action involving the 
        state's two largest supermarket chains, and successfully 
        negotiating another chain's entrance into the Vermont market to 
        alleviate effects of the merger.

    F. Litigation Associate, Paul, Weiss, Rifkind, Wharton and 
Garrison--New York, NY, January 1987-June 1988.
    As an associate in the firm's litigation department, I provided 
legal advice and representation concerning a broad variety of business 
matters, including representation in a RICO matter, oil and gas 
development disputes, a Fortune 400 Family divorce, and general 
corporate litigation.
    The following non-management level work I performed in this 
position relates to the position of Commissioner of the Federal Trade 
Commission:

  <bullet> Gaining a good understanding of the issues and concerns 
        affecting large corporations and small businesses, as well as 
        individual clients, in the face of government regulation, 
        enforcement actions and other legal problems.

    G. Federal Judicial Law Clerk, U.S. District Court for the District 
of Vermont Chambers of Hon. Franklin S. Billings, Jr.--Rutland, VT, 
October 1985-October 1986.
    I served a one-year appointment as judicial law clerk to a Federal 
district court judge in Vermont.
    The following non-management level work I performed in this 
position relates to the position of Commissioner of the Federal Trade 
Commission:

  <bullet> Observing and participating in the Federal trial 
        deliberative judicial process.

    H. Summer Associate, Paul, Weiss, Rifkind, Wharton & Garrison--New 
York, NY, June 1985-July 1985.

    I. Summer Associate, Strook & Strook & Lavan--New York, NY, June 
1983-August 1983.

    J. Law Clerk and Research Assistant, Eisner & Levy--New York, NY, 
October 1982-June 1983.

    K. Law clerk and Research Assistant,Service Employees International 
Union, Local 925--Boston, MA, June 1982-August 1982.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        A. Vice-Chair, American Bar Association Antitrust Section, 
        Consumer Protection Committee: 2004-Present.

        B. Chair, Princeton Alumni Schools Committee, Vermont section, 
        2003-2009.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        A. American Bar Association, Antitrust Section: Vice-Chair, 
        2004 to present. No restrictions on membership based on sex, 
        race, color, religion, national origin, age, or handicap.

        B. Princeton Alumni Schools Committee: Chair, Vermont section, 
        2003-2009. No restrictions on membership based on sex, race, 
        color, religion, national origin, age, or handicap.

        C. Vermont Bar Association: Chair, Womens' Section, 
        approximately 1996-2001. No restrictions on membership based on 
        sex, race, color, religion, national origin, age, or handicap.

        D. Vermont Leadership Institute, Snelling Center for Government 
        at University of Vermont: Associate, 1998-1999. No restrictions 
        on membership based on sex, race, color, religion, national 
        origin, age, or handicap.

        E. Vermont State Democratic party: member, 1988 to present. No 
        restrictions on membership based on sex, race, color, religion, 
        national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes, I have held two appointed public offices:

        A. Senior Deputy Attorney General and Chief, Consumer 
        Protection and Antitrust Division, North Carolina Department of 
        Justice Raleigh, NC, Feb. 2009 to present.

        B. Assistant Attorney General and Director, Antitrust, Vermont 
        Attorney General's Office, Montpelier, VT, October 1991 to Feb. 
        2009.

    No, I have never run a campaign, and I do not have any outstanding 
debt associated with any public office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    I have never made a political contribution of $500 or more.
    In 2002, I volunteered for the Vermont gubernatorial campaign of 
then-Vermont Lieutenant Governor Doug Racine.
    From time to time over the past 10 years I have assisted the Orange 
County (VT) and Vermont State Democratic Party through volunteer 
activities to assist local candidates for office.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        A. National Association of Attorneys General Privacy 
        Subcommittee Award, 2001, for role in creating proposed NAAG 
        privacy principles.

        B. Privacy International's Brandeis Award, 2001, for work at 
        state and Federal levels on privacy issues.

        C. Vermont Leadership Institute, Snelling Center for Government 
        at University of Vermont, 1998-1999.

        D. National Association of Attorneys General Marvin Award, 
        1995, for demonstrated leadership, expertise and achievement in 
        advancing the goals of the National Association of Attorneys 
        General.

        E. New York University School of Law Root Tilden Scholarship, 
        1981-1985: three year full scholarship to law school for 
        demonstrated commitment to public service.

        F. New York University School of Law Sol D. Kapelson Prize, 
        1985, for highest excellence in legal writing in labor law.

        G. Princeton University, economics degree awarded magna cum 
        laude, 1981.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Publications List

        Brill and Lobb, State Attorneys General and Pharmaceuticals: 
        Writing a New Prescription to Curtail Drug Costs, National 
        State Attorneys General Program, Columbia Law School (2007).

        Brill and Asay, Addressing the Costs and Benefits of 
        Prescription Drugs, National Association of Attorneys General 
        (2005).

        Brill, ``State Fair Credit Reporting laws: The Case for Dual 
        Regulation'', Consumer Protection Update, American Bar 
        Association (2003).

        Brill, ``Fair Credit Reporting Act Preemption: Why We Don't 
        Need It'', Electronic Banking Law and Commerce Report, Glasser 
        LegalWorks (2003).

        Amestoy and Brill, ``State Constitutions from the Attorney 
        General's Perspective: An Institutional Schizophrenia,'' 
        Emerging Issues in State Constitutional Law, National 
        Association of Attorneys General (1988).

        Assessing Reforms in South Korea, Asia Watch (1988).

        A Stern, Steady Crackdown: Legal Process and Human Rights in 
        South Korea, Asia Watch (1987).

        Op-ed column: ``Press South Korea on Labor Abuses,'' New York 
        Times (Jan. 12, 1987).

        Article: ``Guatemalan Refugees: Will Mexico's `Welcome' 
        Last?,'' The Nation (May 19, 1984).

    Presentations List

        American Bar Association Consumer Protection Seminar, ``Privacy 
        in the Age of Facebook'', Washington, D.C., June 18, 2009.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Patrolling Advertising Frontiers: State Attorney General 
        Highlights'', Washington, D.C., March 25, 2009.

        Harvard Privacy Symposium, ``State Attorneys General Privacy 
        Legislation and Enforcement Actions'', Cambridge, MA, August 
        21, 2008.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Falsity Developments in Consumer Protection Litigation'', 
        Washington, D.C., March 26, 2008.

        American Law Institute/American Bar Association Advanced Course 
        of Study: Privacy Law, ``Data Breach and Crisis Management'', 
        Washington, D.C., March 13, 2008.

        Harvard Privacy Symposium, ``Role of States in Privacy 
        Policy'', Cambridge, MA, August 23, 2007.

        Dartmouth Medical School Dept of Family and Community Medicine, 
        Dartmouth Institute for Health Policy and Clinical Practice, 
        Pharmaceuticals Health and Health Economics guest lecturer, 
        Hanover, NH, May 18, 2007.

        Columbia Law School National State Attorneys General Program, 
        Pharmaceutical Conference, ``Marketing to Doctors--Payments to 
        Gain Loyalty'', New York, NY, May 11, 2007.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Developments in Deception'', Washington, D.C., April 19, 
        2007.

        Columbia Law School National State Attorneys General Program, 
        State Attorneys General Consumer Protection and Antitrust 
        Leadership conference, ``The Art of Public Litigation'', New 
        York, NY, March 1, 2007.

        American Bar Association Section of Antitrust Law Consumer 
        Protection Conference, ``Fraud, Deception & Unfairness: 
        Enforcers' Theories of Liability'', Washington, D.C., January 
        30, 2007.

        American Bar Association Business Law Section Annual Meeting, 
        ``You Had a Security Breach'', Honolulu, HI, August 7, 2006.

        Conference of Western Attorneys General ID Theft Summit, ``Best 
        Practices Showcase'', Park City, UT, April 10, 2006.

        American Bar Association Annual Meeting, ``Information Security 
        and Dealing with Security Breaches'', Chicago, IL, October 25, 
        2005.

        American Bar Association Annual Meeting, ``Information Security 
        and Dealing with Security Breaches,'' Chicago, IL, August 6, 
        2005.

        American Bar Association Section on Antitrust Law's Consumer 
        Protection and Computer and Internet Committees Teleseminar, 
        ``Data Leaks and Identity Theft: Best Practices in Protecting 
        against Security Breaches Post-ChoicePoint and LexisNexis'', 
        July 6, 2005.

        Practicing Law Institute 10th Annual Consumer Financial 
        Services Litigation Institute ``Federal Preemption 
        Developments'', New York, NY, March 1, 2005.

        National Association of Attorneys General Presidential 
        Initiative Pharmaceutical Summit, ``Pharmaceutical State Best 
        Practices'' and ``Litigation Roundtable'', Chicago, IL, January 
        25-26, 2005.

        National Association of Attorneys General Consumer Protection 
        Seminar, ``State Attorney General Pharmaceutical Cases: Views 
        from State Attorneys General, Industry and Advocates'', 
        Chicago, IL, September 20, 2004.

        American Bar Association Consumer Protection Committee 
        Teleseminar, ``State Attorneys General Pharmaceutical Cases'', 
        July 27, 2004.

        Columbia Law School National State Attorneys General Program, 
        ``The Newest federalism: State Attorneys General in Cases of 
        National Significance'', New York, NY, December 5, 2003.

        International Association of Privacy Officers, ``FCRA: Where 
        Are We Now?'', Chicago, IL, October 30, 2003.

        American Bar Association Antitrust Section Meeting Spring 
        Meeting, ``Advertising Law Update'', Washington, D.C., April 3, 
        2003.

        American Enterprise Institute-Brookings Joint Center for 
        Regulatory Studies, Financial Privacy Symposium participant, 
        Washington, D.C., January 8, 2003.

        International Association of Privacy Officers, ``State 
        Enforcement'', Chicago, IL, October 2002.

        National Academy of Public Administration, ``Personal Privacy 
        in the Digital Age: The Challenge to State and Local 
        Governments'', Roanoke, VA, May 20, 2002.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Advertising Law Update'', Washington, D.C., April 24, 2002.

        Vermont Bar Association, ``Is the Gaze on You? Current Issues 
        in Privacy'', Burlington, VT, January 25, 2002.

        Harvard Law School Public Interest Law symposium, ``Public 
        Interest Law Careers'', Cambridge, MA, November 28, 2001.

        National Academy of Public Administration, ``Personal Privacy 
        in the Digital Age: The Challenge to State and Local 
        Governments'', Roanoke, VA, October 29, 2001.

        Federal Reserve Board, ``State Perspectives on Financial 
        Privacy'', Boston, MA, February 20, 2001.

        Vermont Attorney General Financial Privacy Conference, ``State 
        Attorney Generals and Financial Privacy'', Burlington, VT, 
        January 8, 2001.

        National Association of Attorneys General Consumer Protection 
        Seminar ``Internet Privacy Developments'' and ``State 
        Legislative Developments'', Denver, CO, November 24, 2000.

        Vermont Bar Association, ``Digital & Electronic Signatures: The 
        Future of E-Commerce and Consumer Protection'', Burlington, VT, 
        Sept. 8, 2000.

        U.S. Senate Forum on Technology and Innovation, ``Financial 
        Records Privacy'', Washington, D.C., May 24, 2000.

        Consumer Federation of America Annual Consumer Assembly, 
        ``Privacy Issues'', Washington, D.C., March 17, 2000.

    In addition to the above presentations, over the past 15 years, I 
have made presentations at conferences attended by pharmaceutical 
industry management and outside counsel to explain state pharmaceutical 
disclosure laws and state pharmaceutical enforcement efforts.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Congressional Testimony:

        U.S. Senate, Committee on Banking, Housing and Urban Affairs, 
        June 26, 2003, hearing on ``Affiliate Sharing and the Fair 
        Credit Reporting Act''.

        U.S. House of Representatives, Committee on Financial Services, 
        Subcommittee on Financial Institutions and Consumer Credit, 
        June 4, 2003 hearing on ``Fair Credit Reporting Act: How it 
        Functions for Consumers and the Economy''.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have devoted my career to developing legislative, litigation and 
policy solutions to consumer protection and antitrust issues affecting 
consumers and competition at the state and national level.
    Through my leadership roles within the State Attorney General 
community, I have developed sophisticated approaches to consumer 
protection and antitrust law enforcement efforts, including marshalling 
law enforcement officials' scarce resources to achieve our goals.
    I have broad experience in working with Congress, Congressional 
staff, state legislators, and state legislative staff to craft 
legislative solutions to consumer protection and antitrust issues that 
are currently facing the Federal Trade Commission, and that the FTC 
will address in the future.
    I have broad experience developing regulatory solutions to consumer 
protection and antitrust problems, and working with Federal and state 
agencies to develop such regulatory solutions. I have written many 
consumer protection and antitrust regulations myself.
    I have intimate knowledge of the enforcement priorities, focus and 
challenges facing state law enforcement officials, who are critical 
partners of the Federal Trade Commission in the joint mission to 
protect consumers and competition.
    I have wide experience in working with a great variety of 
stakeholders on legislative and regulatory issues, including working 
closely with both business and consumer groups.
    I have experience managing a large consumer protection division, 
including management of the division through a budget crisis.
    Greater detail about how my background and employment experience 
affirmatively qualifies me for appointment as Commissioner is contained 
in my response to Question A8, above.
    I would like to become a Commissioner of the Federal Trade 
Commission because this position would allow me to engage in antitrust 
and consumer protection policy work at the highest level. The FTC is 
the Nation's premier consumer protection and antitrust agency. Serving 
as Commissioner would allow me to extend and expand the work I've 
performed throughout my career, and would allow me to play an integral 
part in addressing the problems facing consumers and competition 
throughout the Nation in this current period of economic downturn, and 
in the years to come. Serving as part of the leadership team for the 
Federal Trade Commission, and having the opportunity to establish the 
policy direction for this wonderful agency, would be among the highest 
honors that the President and Congress could bestow upon me.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, my responsibilities as Commissioner would be to 
ensure that the FTC has proper management and accounting controls would 
include ensuring that the agency has established appropriate metrics 
for measuring the true outcomes of its efforts to protect consumers and 
competition. As Commissioner I would establish procedures to measure 
the actual outcome of the remedies fashioned by the Commission to 
determine whether the remedies chosen actually brought about the 
anticipated outcomes.
    In addition to ensuring that the FTC has developed appropriate 
metrics for measuring its efforts and outcomes in protecting consumers 
and competition, it would be my responsibility, if confirmed as 
Commissioner, to assess whether the agency has appropriate staffing 
levels to fulfill its increasingly important and complex mission in 
protecting competition and consumers. If confirmed, I would like to 
examine historic staffing levels, attorney case loads, and consumer 
complaint trends, among other metrics, to determine whether current 
staffing levels are appropriate to meet the FTC's critical missions.
    As noted above, I currently manage and set strategic goals for a 
large and diverse consumer protection and antitrust division, with 
disparate missions and subject areas, and a variety of professional 
staff. Although the scale of the Federal Trade Commission's mission is 
much larger--both in terms of its staff size and geographic reach--my 
experience in managing and establishing policy for a large public 
division with a variety of different, yet complementary missions, would 
prove invaluable in my role as part of the leadership team for the FTC.
    My staff of 60+ employees in the North Carolina Department of 
Justice consists of attorneys, investigators, paralegals, 
administrative support staff, and consumer protection outreach 
specialists. The division is responsible for enforcing the state's 
consumer protection and antitrust laws, and developing legislative 
proposals and regulatory policies in these areas. In addition, the 
division is charged with representing the interests of consumers in 
utilities matters. In my role as Senior Deputy Attorney General and 
chief of this division, I manage a multi-million dollar budget.
    I managed a much smaller governmental unit in the Vermont Attorney 
General's office, but again the subject matter included both consumer 
protection and antitrust, the same different yet complementary missions 
that Congress has given the FTC.
    Throughout my career I have managed complex single state and multi-
state litigation and investigations that employed teams of attorneys, 
economists, other experts, and support staff.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top three challenges facing the Federal Trade Commission are as 
follows:

        A. Addressing consumer protection issues that result from the 
        current economic crisis. Consumers now find themselves facing 
        greater hardships than at any time in the past 20 years. Many 
        consumers face the loss of their home, either as a result of 
        predatory lending practices that have placed them in unsuitable 
        and unsustainable mortgages, or as a result of losing their job 
        and simply being unable to pay their mortgage. The Nation's 
        economic crisis creates an atmosphere conducive to further 
        abuses of consumers. Consumers who find themselves without 
        jobs, with involuntarily reduced hours at work, with canceled 
        credit cards, with mortgages they cannot pay, or with homes 
        that are being foreclosed upon, are all particularly vulnerable 
        to unscrupulous business practices that promise to alleviate 
        their hardship. The Nation is seeing a dramatic rise in scams 
        designed to take advantage of consumers' economic insecurity, 
        including employment and ``get rich quick'' scams, foreclosure 
        ``rescue'' and ``assistance'' schemes, bogus government grant 
        schemes, debt settlement scams, credit repair scams, and 
        unscrupulous debt collection practices.

        The Federal Trade Commission must address the current economic 
        crisis on behalf of consumers. The most important task is to 
        rout out those who engaged in predatory lending in the recent 
        past, and to provide much needed restitution to victims of 
        these practices. The Federal Trade Commission also must provide 
        relief to consumers who are being victimized by individuals and 
        businesses that seek to take unfair advantage of the hardship 
        they are facing through other economic scams. The FTC should 
        increase its enforcement efforts and sharpen its regulation of 
        such unscrupulous business practices.

        B. Improving competition in the pharmaceutical market by 
        regulating ``pay for delay'', or ``reverse payment'' 
        arrangements between pharmaceutical manufacturers. The Nation 
        spends about $235 billion per year on pharmaceuticals. Generic 
        entry into the market serves as an important competitive check 
        on pharmaceutical prices. Congress has encouraged generic entry 
        through the Hatch Waxman Act. But Congress's efforts to 
        encourage generic entry and thereby keep drug prices down has 
        been undermined by the growing practice of branded drug 
        manufacturers providing payments to their potential generic 
        competitors to not produce and market the generic, through so-
        called ``pay for delay'' or ``reverse payment'' agreements. The 
        Federal Trade Commission has taken a leadership role in 
        bringing these practices to light, in prosecuting anti-
        competitive agreements where appropriate, and in asking 
        Congress to further address these issues.

        In order to promote competition and maintain downward pressure 
        on prices in this critical sector of the economy, the FTC must 
        continue to take a leadership role in ensuring that branded 
        pharmaceutical manufacturers are not able to improperly keep 
        their generic competition out of the market through 
        inappropriate ``pay for delay'' agreements.

        C. Providing appropriate consumer protections in the area of 
        online behavioral and social marketing. In the past year, 
        consumers purchased about $300 billion of goods and services 
        online, making the web-based marketplace a critically important 
        sector of the Nation's economy. Consumers who visit websites 
        and purchase products online provide a vast amount of 
        information to marketers and advertisers about their finances, 
        health and general online behavior. Recently, web-based 
        marketers and advertising agencies have developed increasingly 
        sophisticated tools to target their marketing at consumers 
        based upon this wealth of personal information. Consumers are 
        largely unaware of these practices.

        In a similar vein, consumers have indicated that their 
        purchasing decisions are heavily influenced by testimonials, 
        blogs and other forms of so-called ``social marketing'' on the 
        web, which consumers believe are created by ordinary consumers 
        like themselves. Consumers are unaware that sometimes companies 
        generate and pay for these seemingly independent testimonial 
        and blog postings.

        The Federal Trade Commission has recently issued a key report 
        on behavioral marketing, recognizing the value of industry 
        self-regulation in this arena in the first instance. The report 
        describes principles that should govern the collection, use, 
        sale and disposal of behavioral information about consumers. 
        The FTC has engaged in enforcement actions where companies 
        failed to provide appropriate disclosures to consumers about 
        the collection and use of such personal information. Online 
        marketers and advertisers have responded positively to the 
        FTC's report by proposing self-regulation of behavioral 
        marketing that incorporates many of the specific 
        recommendations of the FTC.

        The FTC and State Attorneys General also have cracked down on 
        phony web-based testimonials and other forms of deceptive 
        social marketing.

        In order to protect consumers and the robust and innovative 
        web-based market, the FTC should continue to address these 
        critical areas of online commerce. With respect to behavioral 
        marketing, the FTC should closely monitor the practices of 
        online advertisers and marketers to determine whether self-
        regulation of behavioral advertising provides adequate 
        protection to consumers.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Pursuant to North Carolina law, upon my resignation from the North 
Carolina Department of Justice I will receive a payout of my 
contributions to the North Carolina pension fund. The payout will not 
include interest because I will have held the position with North 
Carolina state government for less than 5 years.
    I hold retirement accounts (IRA, 457 and 401(k) accounts) in the 
following mutual funds:

        PIMCO Real Return Class D

        Fidelity Mortgage Securities

        PIMCO Total Return

        American Balanced R4

        LD Abbett Small Cap Value A

        Fidelity Equity Income

        Fidelity Law Price Stock

        Fidelity Diversified International

        Fidelity Dividend Growth

        Fidelity Freedom Fund 2020

        Spartan U.S. Equity Index Fund

        T. Rowe Price Small-Cap Stock Fund

        Vanguard Mid-Cap Index-Institutional

        American Funds Growth Fund R5

        Vanguard Institutional Index Fund

        Dodge and Cox Balanced Fund

        State of Vermont Stable Value Fund

    More information about those mutual funds and other retirement 
accounts in which I hold more than $10,000 worth of assets is included 
in my response to Q. E1, below.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have never been a registered lobbyist. I have held two positions 
within State Attorneys General offices within the past 10 years: Senior 
Deputy Attorney General and Chief of Consumer Protection and Antitrust 
for the State of North Carolina; and Assistant Attorney General for the 
State of Vermont. In both capacities, I have been called upon numerous 
times by state legislatures to provide testimony regarding a wide array 
of pending state consumer protection and antitrust legislation and 
other matters of interest to state legislators. These issues include:

  <bullet> foreclosure procedures

  <bullet> debt collection and debt buying

  <bullet> securities transactions

  <bullet> identity theft

  <bullet> security freezes

  <bullet> protection of Social Security Numbers

  <bullet> credit reporting

  <bullet> data mining restrictions

  <bullet> below-cost pricing

  <bullet> indirect purchaser recovery

  <bullet> pharmaceutical manufacturer payment disclosures

  <bullet> Medicaid recovery for tobacco-related payments and

  <bullet> the state's tobacco Master Settlement Agreement.

    In these positions I have also been called upon by Congress to 
testify on two occasions. See my response to questions A.8 and 17, 
above.
    In addition, I have been called upon by Congressional staffers to 
provide opinions and advice on a number of pending Federal consumer 
protection and antitrust legislation and other matters of interest to 
Congress.
    My positions with the State of North Carolina and the State of 
Vermont center on the administration and execution of law and public 
policy relating to consumer protection and antitrust issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of the ethics agreement that I have entered into with 
the Commission's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of julie simone brill
Education
    New York University School of Law, New York, NY, J.D. June 1985.

        Root-Tilden Scholarship: 3 years' full scholarship for 
        demonstrated commitment to public service.

        Sol D. Kapelson Prize: highest excellence in legal writing in 
        Labor Law.

    Princeton University, Princeton, NJ, B.A. Economics magna cum laude 
June 1981.

        Senior Thesis advisor: Joseph Stiglitz.
Experience
    North Carolina Department of Justice, Raleigh, NC, Feb 2009-
Present--Senior Deputy Attorney General and Chief, Consumer Protection 
and Antitrust Division.

    As one of the Attorney General's top appointees, I work with the 
Attorney General's executive team to develop and execute the Department 
of Justice's litigation, legislative and regulatory strategies for all 
consumer protection, antitrust and utilities matters. Specific 
accomplishments include:

  <bullet> Developing the strategic plan for a 60-person division that 
        is one of the most highly regarded consumer protection and 
        antitrust divisions in the Nation.

  <bullet> Crafting and executing the division's legislative agenda, 
        including working with a vast array of stakeholders and 
        legislators. Legislative issues include efforts to assist 
        consumers during the current economic crisis through 
        improvements in foreclosure procedures, debt collection, and 
        debt buying laws. Other legislative efforts involve securities 
        transactions oversight, identity theft, security freezes, 
        credit reporting, and telecommunications issues.

  <bullet> Creating the strategic plan for law enforcement efforts of 
        the division, including marshalling resources and supervising 
        investigations involving financial fraud, predatory lending, 
        telemarketing fraud, business closures, security breaches, 
        false advertising, gasoline price gouging, and utility rate 
        filings involving rate increases and consumption reduction 
        incentives.

  <bullet> Along with a handful of consumer protection thought leaders 
        in other states, crafting the states' strategic plan for 
        multistate investigations in a wide range of areas, including 
        pharmaceuticals, financial fraud, and privacy.

  <bullet> Formulating multistate policy positions on preemption, 
        financial regulation and privacy, and participating in high-
        level discussions with Federal officials to articulate the 
        states' positions.

  <bullet> Managing a multi-million dollar budget and large staff 
        through a statewide financial crisis.

        Columbia Law School, New York, NY, Sept 2008-Present--Adjunct 
        Faculty.

    I co-teach the course ``State Attorneys General'' at Columbia Law 
School. I am also a core member of the National State Attorney General 
Program, part of Columbia Law School's Social Justice Initiatives 
Program. I have spearheaded the National State Attorney General 
Program's pharmaceutical initiative.

    Vermont Attorney General's Office, Montpelier, VT, Oct. 1991-Feb. 
2009--Assistant Attorney General and Director, Antitrust.

    For 17 years, I developed and executed Vermont's litigation, 
legislative and regulatory strategies in a wide variety of areas 
affecting consumers and businesses, including privacy, credit 
reporting, financial services, tobacco, solid waste, dairy, food, 
drugs, and other health-related industries. Specific accomplishments 
include:

  <bullet> Serving as part of a small core group of State Assistant 
        Attorneys General around the Nation that established strategic 
        plans for consumer protection pharmaceutical litigation and 
        legislative efforts by the State Attorneys General. Efforts 
        included serving as chair, co-chair and/or member of states' 
        executive committees in major consumer protection 
        pharmaceutical litigation; crafting innovative resolutions for 
        state litigation, including groundbreaking $28 million counter-
        advertising program; developing creative state legislative 
        responses to pharmaceutical issues; and defending the same 
        creative state laws in the face of industry court challenge.

  <bullet> Organizing national pharmaceutical conferences sponsored by 
        the National Association of Attorneys General and the National 
        State Attorneys General Program of Columbia Law School.

  <bullet> Serving as Chair of the National Association of Attorneys 
        General Privacy Working Group. Efforts included setting 
        strategic direction for State Attorneys General Offices on 
        privacy and identity theft issues; developing state positions 
        concerning privacy and identity theft issues before Congress 
        and Federal regulators; crafting creative state legislative 
        solutions to privacy issues, including multistate security 
        breach, security freeze, and Social Security Number protection 
        legislation; and coordinating state multistate litigation 
        efforts, including serving on States' Executive Committees in 
        the ChoicePoint and TJ Maxx security breach investigations.

  <bullet> Managing Vermont's litigation and legislative efforts 
        against the tobacco industry, which consisted of creatively 
        crafting the state's two major lawsuits against the industry; 
        working with various state agencies and local public health 
        organizations on both litigation and policy issues related to 
        tobacco; shepherding unique tobacco-related bills through the 
        Vermont legislature; and effectuating Vermont's participation 
        in the Master Settlement Agreement. More recently I served as 
        co-lead litigator.

  <bullet> Directing Vermont's antitrust efforts, including major 
        litigation efforts involving the state's largest vertically 
        integrated solid waste company, and the Nation's largest dairy 
        processors.

    Vermont Department of Banking, Insurance and Securities, 
Montpelier, VT, July 1990-Oct. 1991--General Counsel.

    I counseled the Vermont agency primarily responsible for regulation 
of the financial services industry on various legal issues, and 
supervised the Department's litigation and enforcement actions.

    Vermont Attorney General's Office, Montpelier, VT, June 1988-July 
1990--Assistant Attorney General, Civil Law Division.

    I served as legal counsel to numerous state agencies, providing 
advice on issues concerning economic development, housing, employment 
discrimination and community planning. Served as lead counsel in 
antitrust action involving the state's two largest supermarket chains, 
and successfully negotiated Price Chopper's entrance into the Vermont 
market to alleviate effects of the merger. Investigated and prosecuted 
criminal cases against haulers of out-of-state trash into Vermont.

    Paul, Weiss, Rifkind, Wharton & Garrison, New York, NY, Jan. 1987-
June 1988--Litigation Associate.

    Paul Weiss is one of the Nation's premier law firms. As an 
associate in the firm's litigation department, I provided legal advice 
and representation concerning a broad variety of business matters, 
including representation in RICO matters, oil and gas development 
disputes, a Fortune 400 Family divorce and general corporate 
litigation. My clients ranged from individuals to large corporations. I 
also participated actively in the firm's pro bono program.

    Hon. Franklin S. Billings, Jr., U.S. Dis. Ct., Rutland, VT, Oct. 
1985-Oct. 1986--Federal Judicial Law Clerk.
Honors
        National Association of Attorneys General Privacy Subcommittee 
        Award in 2001, for role in creating proposed NAAG privacy 
        principles.

        Privacy International's 2001 Brandeis award for work at state 
        and Federal levels on privacy issues.

        National Association of Attorneys General Marvin Award 1995, 
        for demonstrated outstanding leadership, expertise and 
        achievement in advancing the goals of the National Association 
        of Attorneys General.
Activities and Affiliations
        American Bar Association Antitrust Section Consumer Protection 
        Committee--Vice Chair, 2004 to present.

        Princeton Alumni Schools Committee--Chair, Vermont Committee, 
        2003-2009.

        Vermont Leadership Institute, Snelling Center for Government at 
        University of Vermont--Associate, 1998-1999.

        Vermont Bar Association Women's Section--Chair, Women's 
        Section, 1996-2001.

        Human Rights Watch, New York, NY and Washington, D.C.--Member, 
        Board of Directors of Asia Watch, 1988-1997. Conducted fact-
        finding missions to South Korea in July-August 1988 and 
        November-December 1986.

        Researcher, Americas Watch, 1983-1984. Conducted fact-finding 
        missions to Guatemalan refugee camps in Mexico.

        Vermont Board of Bar Examiners--Member, 1990-1994.
Publications
        Brill and Lobb, State Attorneys General and Pharmaceuticals: 
        Writing a New Prescription to Curtail Drug Costs, National 
        State Attorneys General Program, Columbia Law School (2007).

        Brill and Asay, Addressing the Costs and Benefits of 
        Prescription Drugs, National Association of Attorneys General 
        (2005).

        Brill, ``State Fair Credit Reporting laws: The Case for Dual 
        Regulation'', Consumer Protection Update, American Bar 
        Association (2003).

        Brill, ``Fair Credit Reporting Act Preemption: Why We Don't 
        Need It'', Electronic Banking Law and Commerce Report, Glasser 
        LegalWorks (2003).

        Amestoy and Brill, ``State Constitutions from the Attorney 
        General's Perspective: An Institutional Schizophrenia,'' 
        Emerging Issues in State Constitutional Law, National 
        Association of Attorneys General (1988).

        Assessing Reforms in South Korea, Asia Watch (1988).

        A Stern, Steady Crackdown: Legal Process and Human Rights in 
        South Korea, Asia Watch (1987).

        Articles appearing in The New York Times and The Nation.
Congressional Testimony
        U.S. Senate Banking, Housing and Urban Affairs Committee, June 
        26, 2003, hearing on ``Affiliate Sharing and the Fair Credit 
        Reporting Act''.

        U.S. House of Representatives, Committee on Financial Services, 
        Subcommittee on Financial Institutions and Consumer Credit, 
        June 4, 2003 hearing on ``Fair Credit Reporting Act: How it 
        Functions for Consumers and the Economy''.
Presentations (Selected)
        American Bar Association Consumer Protection Seminar, ``Privacy 
        in the Age of Facebook'', Washington, D.C., June 18, 2009.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Patrolling Advertising Frontiers: State Attorney General 
        Highlights'', Washington, D.C., March 25, 2009.

        Harvard Privacy Symposium, ``State Attorneys General Privacy 
        Legislation and Enforcement Actions'', Cambridge, MA, August 
        21, 2008.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Falsity Developments in Consumer Protection Litigation'', 
        Washington, D.C., March 26, 2008.

        American Law Institute/American Bar Association Advanced Course 
        of Study: Privacy Law, ``Data Breach and Crisis Management'', 
        Washington, D.C., March 13, 2008.

        Harvard Privacy Symposium, ``Role of States in Privacy 
        Policy'', Cambridge, MA, August 23, 2007.

        Dartmouth Medical School Dept of Family and Community Medicine, 
        Dartmouth Institute for Health Policy and Clinical Practice, 
        Pharmaceuticals Health and Health Economics guest lecturer, 
        Hanover, NH, May 18, 2007.

        Columbia Law School National State Attorneys General Program, 
        Pharmaceutical Conference, ``Marketing to Doctors--Payments to 
        Gain Loyalty'', New York, NY, May 11, 2007.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Developments in Deception'', Washington, D.C., April 19, 
        2007.

        Columbia Law School National State Attorneys General Program, 
        State Attorneys General Consumer Protection and Antitrust 
        Leadership conference, ``The Art of Public Litigation'', New 
        York, NY, March 1, 2007.

        American Bar Association Section of Antitrust Law Consumer 
        Protection Conference, ``Fraud, Deception & Unfairness: 
        Enforcers' Theories of Liability'', Washington, D.C., January 
        30, 2007.

        American Bar Association Business Law Section Annual Meeting, 
        ``You Had a Security Breach'', Honolulu, HI, August 7, 2006.

        Conference of Western Attorneys General ID Theft Summit, ``Best 
        Practices Showcase'', Park City, UT, April 10, 2006.

        American Bar Association Annual Meeting, ``Information Security 
        and Dealing with Security Breaches'', Chicago, IL, October 25, 
        2005.

        American Bar Association Annual Meeting, ``Information Security 
        and Dealing with Security Breaches,'' Chicago, IL, August 6, 
        2005.

        American Bar Association Section on Antitrust Law's Consumer 
        Protection and Computer and Internet Committees Teleseminar, 
        ``Data Leaks and Identity Theft: Best Practices in Protecting 
        against Security Breaches Post-ChoicePoint and LexisNexis'', 
        July 6, 2005.

        Practicing Law Institute 10th Annual Consumer Financial 
        Services Litigation Institute ``Federal Preemption 
        Developments'', New York, NY, March 1, 2005.

        National Association of Attorneys General Presidential 
        Initiative Pharmaceutical Summit, ``Pharmaceutical State Best 
        Practices'' and ``Litigation Roundtable'', Chicago, IL, January 
        25-26, 2005.

        National Association of Attorneys General Consumer Protection 
        Seminar, ``State Attorney General Pharmaceutical Cases: Views 
        from State Attorneys General, Industry and Advocates'', 
        Chicago, IL, September 20, 2004.

        American Bar Association Consumer Protection Committee 
        Teleseminar, ``State Attorneys General Pharmaceutical Cases'', 
        July 27, 2004.

        Columbia Law School National State Attorneys General Program, 
        ``The Newest federalism: State Attorneys General in Cases of 
        National Significance'', New York, NY, December 5, 2003.

        International Association of Privacy Officers, ``FCRA: Where 
        Are We Now?'', Chicago, IL, October 30, 2003.

        American Bar Association Antitrust Section Meeting Spring 
        Meeting, ``Advertising Law Update'', Washington, D.C., April 3, 
        2003.

        American Enterprise Institute-Brookings Joint Center for 
        Regulatory Studies, Financial Privacy Symposium participant, 
        Washington, D.C., January 8, 2003.

        International Association of Privacy Officers, ``State 
        Enforcement'', Chicago, IL, October 2002.

        National Academy of Public Administration, ``Personal Privacy 
        in the Digital Age: The Challenge to State and Local 
        Governments'', Roanoke, VA, May 20, 2002.

        American Bar Association Antitrust Section Spring Meeting, 
        ``Advertising Law Update'', Washington, D.C., April 24, 2002.

        Vermont Bar Association, ``Is the Gaze on You? Current Issues 
        in Privacy'', Burlington, VT, January 25, 2002.

        Harvard Law School Public Interest Law symposium, ``Public 
        Interest Law Careers'', Cambridge, MA, November 28, 2001.

        National Academy of Public Administration, ``Personal Privacy 
        in the Digital Age: The Challenge to State and Local 
        Governments'', Roanoke, VA, October 29, 2001.

        Federal Reserve Board, ``State Perspectives on Financial 
        Privacy'', Boston, MA, February 20, 2001.

        Vermont Attorney General Financial Privacy Conference, ``State 
        Attorney Generals and Financial Privacy'', Burlington, VT, 
        January 8, 2001.

        National Association of Attorneys General Consumer Protection 
        Seminar ``Internet Privacy Developments'' and ``State 
        Legislative Developments'', Denver, CO, November 24, 2000.

        Vermont Bar Association, ``Digital & Electronic Signatures: The 
        Future of E-Commerce and Consumer Protection'', Burlington, VT, 
        September 8, 2000.

        U.S. Senate Forum on Technology and Innovation, ``Financial 
        Records Privacy'', Washington, D.C., May 24, 2000.

        Consumer Federation of America Annual Consumer Assembly, 
        ``Privacy Issues'', Washington, D.C., March 17, 2000.

    The Chairman. Thank you very much. And thank you--that came 
in exactly at 5 minutes, which is what we allot for everybody.
    Ms. Ramirez, please.

  STATEMENT OF EDITH RAMIREZ, COMMISSIONER-DESIGNATE, FEDERAL 
                        TRADE COMMISSION

    Ms. Ramirez. Thank you.
    Mr. Chairman, Ranking Member Hutchison, Senator Inouye, and 
members of the Committee, I am deeply honored to be here today 
as a nominee of President Obama to the Federal Trade 
Commission.
    The opportunity to join the FTC, an agency that plays a 
vital role in the economic life of every American, is a true 
privilege, and I appear before you with great respect and 
gratitude as you consider my nomination.
    For close to 100 years, the FTC has sought to ensure that 
American consumers can participate meaningfully and fairly in a 
competitive marketplace. That work has always been 
extraordinarily important to our system of free enterprise. 
Competition spurs innovation, lowers prices, and brings greater 
and more informed choices to everyday Americans. American 
consumers and businesses alike rely on the FTC's effective 
enforcement of the antitrust and consumer protection laws to 
ensure that the benefits of competition are achieved.
    But, now, in these difficult economic times, the need to be 
vigilant and aggressive in protecting American consumers is 
especially pressing. The Commission's duty to combat deceptive 
and unfair business practices and to foster competition has 
never been greater, particularly in the areas that have the 
greatest impact on the daily lives of ordinary Americans, like 
financial services, healthcare, energy, and technology.
    Nor can the FTC rest on its past successes. The Commission 
faces new challenges brought about by rapid innovation, 
increased globalization, and continued economic uncertainty. 
These challenges herald a new era for the agency and raise ever 
more difficult questions.
    I am mindful of the challenges that lie ahead, and am 
confident that my experience and background will enable me to 
bring a fresh perspective to the issues confronting the FTC.
    In my more than 15 years of legal practice, I have 
counseled and advocated for major corporations in a wide range 
of complex business matters. During that time, I have also been 
deeply committed to serving the public interest through my work 
with nonprofits and my leadership in various civic 
organizations, including on the board of the country's largest 
municipal utility. I am certain my experience in the private 
sector and in the Los Angeles community will help me advance 
the mission of the FTC.
    Mr. Chairman, it would be an honor to be a Member of the 
Federal Trade Commission. If confirmed, I will approach the 
matters before the Commission with an open and creative mind, 
and dedicate myself to working closely with this committee, my 
fellow Commissioners, and the agency's able staff to protect 
the interests of American consumers.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Ramirez follows:]

     Prepared Statement of Edith Ramirez, Commissioner-Designate, 
                        Federal Trade Commission
    Mr. Chairman and members of the Committee:
    I am deeply honored to be here today, as a nominee of President 
Obama to the Federal Trade Commission. The opportunity to join the 
FTC--an agency that plays a vital role in the economic life of every 
American--is a true privilege, and I appear before you with great 
respect and gratitude as you consider my nomination.
    For close to one hundred years, the FTC has sought to ensure that 
American consumers can participate meaningfully and fairly in a 
competitive marketplace. That work has always been extraordinarily 
important to our system of free enterprise. Competition spurs economic 
innovation, lowers prices, and brings greater and more informed choices 
to everyday Americans. American consumers and businesses alike rely on 
the FTC's effective enforcement of the antitrust and consumer 
protection laws to ensure that these benefits of competition are 
achieved.
    Now, in these difficult economic times, the need to be vigilant and 
aggressive in protecting American consumers is especially pressing. The 
Commission's duty to combat deceptive and unfair business practices and 
to foster competition has never been greater, particularly in the areas 
that have the greatest impact on the daily lives of ordinary Americans 
such as financial services, healthcare, energy, and technology.
    Nor can the FTC rest on its past successes. The Commission faces 
new challenges brought about by rapid innovation, increased 
globalization, and continued economic uncertainty. These challenges 
herald a new era for the agency and raise ever more difficult 
questions.
    I am mindful of the challenges that lie ahead and am confident that 
my experience and background will enable me to bring a fresh 
perspective to the issues confronting the FTC. In my more than fifteen 
years of legal practice, I have counseled and advocated for major 
corporations in a wide range of complex business matters. During that 
time, I have also been deeply committed to serving the public interest 
through my work with non-profits and leadership in various civic 
organizations, including the board of the country's largest municipal 
utility. I am certain my experience in the private sector and in the 
Los Angeles community will help me advance the mission of the FTC.
    It would be an honor to be a member of the Federal Trade 
Commission. If confirmed, I will approach the matters before the 
Commission with an open and creative mind, and dedicate myself to 
working closely with this Committee, my fellow Commissioners, and the 
agency's able staff to protect the interests of American consumers.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Edith 
Ramirez.
    2. Position to which nominated: Commissioner, Federal Trade 
Commission.
    3. Date of Nomination: November 17, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Quinn Emanuel Urquhart Oliver & Hedges, LLP, 865 S. 
        Figueroa St., 10th Floor, Los Angeles, CA 90017.

    5. Date and Place of Birth: May 28, 1968; South Laguna, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Not applicable.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard-Radcliffe College, A.B. History, Magna Cum Laude, 1989.

        Harvard Law School, J.D., Cum Laude, 1992.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Partner, Quinn Emanuel Oliver & Hedges, LLP, Los Angeles, 
        California, 1997 to present.

        California Deputy Political Director/Director of Latino 
        Outreach, Obama for America, Los Angeles, California, 2007-
        2008.

        Associate, Gibson Dunn & Crutcher, LLP, Los Angeles, 
        California, 1993-1996.

        Law Clerk, Honorable Alfred T. Goodwin, Ninth Circuit Court of 
        Appeals, Pasadena, California, 1992-1993.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Vice President, Los Angeles Department of Water and Power Board 
        of Commissioners, 2005 to present.

        Member, Los Angeles Police Permit Review Panel, 2004-2005.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Partner--Quinn Emanuel Urquhart Oliver & Hedges, LLP.

        Vice President, Los Angeles Department of Water and Power Board 
        of Commissioners, 2005 to present.

        Member, Board of Directors--Volunteers of America of Los 
        Angeles, 1998 to present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Board of Directors--Volunteers of America of Los 
        Angeles, 1998 to present.

        Member, Board of Directors, .Los Angeles Center for Law and 
        Justice, 1995 to 2003.

        Harvard-Radcliffe Club of Southern California, approx. 1996 to 
        present.

        Los Angeles County Bar Association, 2000 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Political contributions:

        Kamala Harris for Attorney General, 2009, $500.

        Cedillo for Congress, 2009, $500.

        Obama for America, 2007, $1,000.

        Kerry-Edwards, 2004, $550.

        Obama for Illinois, 2004, $500.

    Services performed:

        Campaign volunteer and staffer, Obama for America, 2007 to 
        2008.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Editor, Harvard Law Review, 1990-1992
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Student Book Review, ``Rehabilitating Theories of Punishment,'' 
Harvard Law Review, Vol. 104, No. 5 (March 1991).
    17.Please identify each instance in which you have testified orally 
or in writing before Congress in a governmental or non-governmental 
capacity and specify the date and subject matter of each testimony: 
None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    As it approaches its hundredth year, the Federal Trade Commission 
is poised to play an even greater role in ensuring that competition is 
robust and that consumers are free from fraudulent, deceptive, and 
unfair business practices. It would be a privilege to be a part of the 
FTC as it embarks on a new century of work to protect consumers and 
competition. As a longtime litigator, including in connection with 
antitrust matters, I believe I would be valuable in ensuring that the 
agency continues its rigorous enforcement of consumer protection and 
competition laws. I also understand the critical importance of guarding 
consumer rights as a result of my many years of work with a non-profit 
legal services agency serving low-income residents of Los Angeles, 
particularly in difficult economic times such as these when consumers 
are especially vulnerable to fraudulent and deceptive practices. 
Finally, as a Commissioner for the Los Angeles Department of Water and 
Power, I understand and appreciate the role of a commissioner in 
leading an agency to achieve its policy goals and objectives. I would 
very much look forward to having an opportunity to be part of an agency 
that plays such an important role in protecting American consumers.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as an FTC Commissioner, I would be responsible, 
together with the Chairman and my fellow Commissioners, for ensuring 
that agency resources are deployed efficiently and effectively, and in 
a manner that is consistent with the agency's mission to protect 
consumers and promote competition. I would work with the Chairman, my 
fellow Commissioners, and senior staff to review and assess the 
agency's internal control programs and confirm that the systems and 
processes that are in place comply with all applicable laws and 
regulations. I have performed similar duties in my capacity as a 
Commissioner for the Los Angeles Department of Water and Power, 
overseeing nearly 9,000 employees and a budget of more than $4 billion.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the fundamental challenge facing the FTC is the task of 
fulfilling its core mission with limited resources. The agency is 
small, but its goals and responsibilities are immense. In light of the 
FTC's broad jurisdiction in the areas of competition and consumer 
protection and the fact that the need for vigorous enforcement is 
critical in the current economic and financial climate, it is all the 
more important that the FTC effectively leverage its resources.
    Another challenge is the need for the FTC to work closely with the 
Department of Justice, and other law enforcers, including state 
attorneys general and other countries' competition and consumer 
protection authorities. Vigorous enforcement will depend on the ability 
of the various players in this arena to cooperate in interpreting and 
applying their laws in a manner that is consistent and coordinated.
    On the consumer protection front, the increasingly international 
scope of online activity poses a significant challenge. American 
consumers are at greater risk of being victims of fraud with the 
growing number of cross-border transactions. Although there are limits 
on the FTC's ability to identify and stop unlawful conduct originating 
outside of the U.S., the agency has recently used the authority 
provided by the U.S. SAFE WEB Act to bolster several enforcement 
matters. The agency must continue to refine its implementation of SAFE 
WEB to develop creative and innovative strategies, working with foreign 
partners, to address this growing problem.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Ongoing participation in Quinn Emanuel sponsored 401K plan 
administered by Merrill Lynch; if confirmed, no new contributions will 
be made after I resign from the firm.
    Ongoing participation in Quinn Emanuel sponsored Defined Benefits 
Plan; if confirmed, no new contributions will be made after I resign 
from the firm.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    During the nomination process, I consulted with the Office of 
Government Ethics and the Federal Trade Commission's designated agency 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of the ethics agreement that I have entered into with the 
Commission's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    During the nomination process, I consulted with the Office of 
Government Ethics and the Federal Trade Commission's designated agency 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of the ethics agreement that I have entered into with the 
Commission's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None, except for my official duties as a member of the Los Angeles 
Water and Power Board of Commissioners and the Los Angeles Police 
Permit Review Panel.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of the ethics agreement that I have entered into with 
the Commission's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Prado v. Los Angeles Department of Water and Power, et al..
    In June 2008, I was sued in my capacity as a Department of Water 
and Power Commissioner along with the other Commissioners even though I 
had no involvement in the dispute at issue. The case was dismissed in 
July 2009.
    Probate Proceedings in Superior Court for the County of Orange, CA.
    Commencing in December 2006, I was involved in probate proceedings 
relating to my father's estate. The matter will be dismissed pending 
the sale of certain real property.
    Probate Proceedings in Civil Court in Ensenada, Baja California.
    I am involved in ongoing probate proceedings that began in March 
2007 relating to my father's estate in Baja California.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: No additional information.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of edith ramirez
Professional Experience
    Partner--Quinn Emanuel Urquhart Oliver & Hedges, LLP--Los Angeles, 
California (1997 to present).

    Broad range of experience representing plaintiffs and defendants in 
intellectual property and complex business litigation, including 
copyright, trademark, antitrust, business tort, and other general 
business litigation matters. Practice also includes significant 
appellate litigation experience. Responsible for overseeing workload 
and professional development of associates in intellectual property and 
entertainment group.

    Associate--Gibson, Dunn & Crutcher, LLP--Los Angeles, California 
(1993-1996).

    Handled a wide variety of business litigation matters, including 
professional negligence, breach of contract, securities, and real 
estate-related litigation. Served on the firm's Minority Recruiting 
Subcommittee and as the firm's Pro Bono Coordinator.

    Law Clerk--Honorable Alfred T. Goodwin, Ninth Circuit Court of 
Appeals--Pasadena, California (1992-1993).

    Analyzed and researched legal issues in pending cases; prepared 
bench memoranda and drafted opinions.
Education
        Harvard Law School, Cambridge, MA
        J.D., Cum Laude, June 1992
        Editor, 1990-92, Harvard Law Review

        Harvard-Radcliffe College, Cambridge, MA
        A.B. History, Magna Cum Laude, June 1989
        Committee of Latin American Studies Certificate
Community Activities
    Vice President, Los Angeles Department of Water and Power Board of 
Commissioners (2005 to present).

    Mayoral appointee to five-member Board responsible for overseeing 
and setting policy for the Los Angeles Department of Water and Power, 
the largest municipal utility in the country. LADWP delivers 
electricity and water services to approximately 4 million residents and 
commercial customers in the City of Los Angeles and has a budget of 
over $4 billion. Serve on the Audit, Contracts, Economic Development, 
Customer and Community Relations, Personnel, and Los Angeles River 
Committees.

    Member, Los Angeles Police Permit Review Panel (2004 to 2005).

    Mayoral appointee to seven-member Panel responsible for overseeing 
local businesses requiring police permits. Duties included the review 
and issuance of police permits and handling of disciplinary matters 
such as the suspension and revocation of permits.

    Board of Directors, Volunteers of America of Los Angeles (1998 to 
present).

    Volunteers of America is a non-profit social service organization 
offering services to children and youth, the elderly and homeless in 
Los Angeles and Orange Counties. Serve on the Human Resources 
Committee.

    Board of Directors, Los Angeles Center for Law and Justice (1995-
2003).

    The Los Angeles Center for Law and Justice is a non-profit legal 
services organization serving low-income residents of East and 
Northeast Los Angeles with little or no access to legal services. Over 
various years, served as President and Vice President of the Board of 
Directors and as a member of the Strategic Planning Task Force and 
Planning, Finance, and Membership Committees.

    Obama for America (2007-2008).

    Served as California Deputy Political Director and Director of 
Latino Outreach during the primary; responsible for obtaining 
endorsements from elected officials, organizations, and community 
leaders and expanding support within the Latino community. For the 
general election, responsible for constituency outreach and voter 
protection. Also served on the campaign's Immigration Policy Committee.
Language Skills
        Fluent in Spanish.

    The Chairman. Thank you very much, Ms. Ramirez.
    And now we'll call on Mr. Strickland.

         STATEMENT OF DAVID STRICKLAND, ADMINISTRATOR-

           DESIGNATE, NATIONAL HIGHWAY TRAFFIC SAFETY

       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Strickland. Mr. Chairman, thank you. And I already see 
that my panelists are very respectful of the time.
    Before I begin my statement, I would like to very briefly 
introduce my family--not half the room.
    [Laughter.]
    Mr. Strickland. But, if I can have an indulgence, I would 
appreciate it. Thank you, Senator.
    My parents, Lorenzo and Janie Strickland, have joined us 
today; my sister, Loren Strickland; my parents-in-law, Gail and 
Major Cummings and Tony and Linda Williams.
    The Chairman. I recommend you allow them to stand.
    Mr. Strickland. Yes.
    [Laughter.]
    Mr. Strickland. Thank you.
    My aunts, Lela Boykin, Ellen Hood, Brenda Coleman, and 
Jacquelyn Anderson; my sisters-in-law, Sherell Holloway and 
Jennifer Williams; and my cousins, Desiree and Michael Snowden, 
Captain Lowell Harris III, and Hope and Dudley Davis.
    Thank you so much, Mr. Chairman. I will begin my statement.
    The Chairman. Thank you. Please proceed.
    Mr. Strickland. Chairman Rockefeller and Ranking Members--
and Ranking Member Hutchison and members of the Committee, I am 
honored to be here before you today in this capacity. I would 
like to express my deepest gratitude to President Obama, and 
I'd also like to thank Secretary LaHood for his support of my 
nomination.
    No man stands alone, and the primary reason I am here today 
is because of the love and assistance from a lot of people. 
First and foremost, I have a loving family that is either here 
today or watching on the Internet.
    I love you all.
    And there are four women, in particular, that I would like 
to acknowledge:
    My wife, Robin, is the center of my universe and has 
experienced every emotion and facet that has come with my 
Senate service. Her love sustains me every single day. Her 
strength and wise counsel has made me a better staffer and, 
more importantly, a better man.
    My mother, Vada Stevenson, is my biggest cheerleader and my 
guardian angel. Even though she had to be in Georgia today, I 
am uplifted knowing that her love and strength are always with 
me.
    The love and devotion of my stepmother, Janie Strickland, 
and my sister, Loren, are boundless and unconditional. You two 
are truly a dynamic duo, and you both mean the world to me.
    Along with these four ladies, one man deserves special 
recognition: my pop, Lorenzo Strickland--my middle-namesake, 
Senator Inouye----
    [Laughter.]
    Mr. Strickland.--Lorenzo Strickland is a father in every 
true sense of the word. His demands for excellence, along with 
his lessons about the value of hard work and being a man of 
honor, resonate with me every single day.
    Pop, thank you for your guidance, your patience, and your 
love.
    The National Highway Traffic Safety Administration has a 
demanding and crucial mission. Reducing traffic-related 
fatalities is a task that never stops, and successes are not 
moments of repose. While there have been marked decreases in 
traffic fatalities from last year, this country still loses--
lost approximately 37,000 lives due to traffic accidents. 
That's 37,000 funerals, 37,000 lost loved ones.
    The reason I have always been so proud of this agency and 
its people is that they recognize the human toll and work 
tirelessly each and every day to reduce that number. They are 
the finest experts in the country. Actually, let me restate 
that; they're the finest experts in the world. And if 
confirmed, it would be my honor to stand with them and the 
State highway safety agencies and aid them in their missions.
    The second essential mission for which this agency is 
tasked is the implementation of the CAFE standards and 
coordination with the EPA's greenhouse gas standards. I 
understand the importance and the timely implementation of 
these rules. Decreasing our dependence on foreign oil and 
reducing the carbon footprint from the passenger fleet is a 
mission that, if confirmed, I will take as seriously as every 
other mission at NHTSA. I look forward to working with the 
staff, the EPA, and the manufacturers to make sure that the 
standards are scientifically sound and achieve the benchmarks 
set forth by the President and the Congress.
    Mr. Chairman, I would be remiss if I did not thank you 
personally. Thank you for allowing me to lead your Consumer 
Protection Subcommittee. It has been an honor, and it will be 
an honor, to serve you and the people of West Virginia.
    Additionally, I would like to thank my three current and 
former Subcommittee Chairs: Senators Dorgan, Pryor, and 
Klobuchar. You and your staff were gracious and thoughtful, and 
working with all of you has been the hallmark of my tenure here 
in the Senate.
    I would also like to thank the Committee staff. They are 
the finest staff on Capitol Hill, and I am enriched by their 
professionalism, their intelligence, and their support.
    Team Commerce, I will always cherish your friendship.
    Finally, I would like to thank the two prior chairmen that 
I have served during my tenure. Senator Hollings hired me, back 
in 2001. I was as green a Counsel as you can imagine, and I 
made my fair share of mistakes. Well, actually I made a few of 
them with you, too, sir.
    [Laughter.]
    Mr. Strickland. Despite that, Senator Hollings stood by me 
at every turn, as did you, and trusted me without hesitation. I 
hope that I have validated his faith in me over the years. I 
miss him and Ms. Peatsy greatly.
    Senator Inouye taught me more life lessons in 4 years than 
I thought I could learn in a lifetime. The times that Senator 
shared with me in his office, talking about policy or life, are 
some of the most cherished memories that I have. Learning to 
disagree without being disagreeable has been a cornerstone of 
my success as a staffer, and that lesson was from you.
    Senator Inouye, thank you for letting me be a part of your 
'ohana.
    Members of this committee, thank you for your time and your 
consideration of my nomination. I am happy to answer any 
questions.
    [The prepared statement of Mr. Strickland follows:]

   Prepared Statement of David Strickland, Administrator-Designate, 
  National Highway Traffic Safety Administration, U.S. Department of 
                             Transportation
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am honored to be before you today in this capacity. I 
would like to express my deepest gratitude to the President for making 
me his nominee to head NHTSA, and I would also like to thank Secretary 
LaHood for his support of my selection.
    No man stands alone, and the primary reason I am here today is 
because of the love and assistance from a lot of people. First and 
foremost, I have a loving family that is either here today or watching 
on the Internet. I love you all, and there are four women in particular 
that I would like to acknowledge.
    My wife, Robin, is the center of my universe and has experienced 
every emotion and facet that has come with my Senate service. Her love 
sustains me every single day. Her strength and wise counsel truly has 
made me a better staffer, and more importantly, a better man.
    My mother, Vada Stevenson, is my biggest cheerleader and my 
guardian angel. Even though she had to be in Georgia today, I am 
uplifted knowing that her love and strength are always with me.
    The love and devotion of my stepmother, Janie Strickland, and my 
sister, Loren, are boundless and unconditional. You two are truly a 
dynamic duo, and you both mean the world to me.
    Along with these four ladies, one man deserves special recognition, 
my Pop. Lorenzo Strickland is a father in every true sense of the word. 
His demands for excellence, along with his lessons about the value of 
hard work and being a man of honor, resonate with me everyday. Pop, 
thank you for guidance, your patience and your love.
    The National Highway Traffic Safety Administration has a demanding 
and crucial mission. Reducing traffic-related fatalities is a task that 
never stops, and successes are not moments of repose. While there have 
been marked decreases in traffic fatalities from last year, this 
country still lost approximately 37,000 lives due to traffic accidents. 
That's 37,000 funerals, 37,000 lost loved ones. The reason I have 
always been so proud of this agency and its people is that they 
recognize the human toll and work tirelessly each and everyday to 
decrease that number. They are the finest experts in the country. If 
confirmed, it would be my honor to stand with the NHTSA staff and the 
State highway safety agencies and aid them in their missions.
    The second essential mission for which the agency is tasked is the 
implementation of the CAFE standards in coordination with EPA's 
greenhouse gas standards. I understand the importance of timely and 
proper implementation. Decreasing our dependence on foreign oil and 
reducing the carbon footprint from the passenger fleet is a mission 
that if confirmed, I will take as seriously as every other mission at 
NHTSA. I look forward to working with the staff, the EPA, and the 
manufacturers to make sure that standards are scientifically sound and 
achieve the benchmarks set forth by the President and the Congress.
    I would be remiss if I did not thank you, Mr. Chairman, for your 
trust in me to lead your Consumer Protection Subcommittee, and your 
support of my nomination. It is an honor to serve you and the people of 
West Virginia.
    Additionally, I want to thank my three current and former 
Subcommittee Chairs, Senators Dorgan, Pryor and Klobuchar. You and your 
staff were gracious and thoughtful, and working for all of you have 
been hallmarks of my tenure in the Senate.
    I would also like to thank my Committee colleagues. They are the 
finest staffers on Capitol Hill and I am enriched by their 
professionalism, intelligence and support. Team Commerce, I will always 
cherish your friendship.
    Finally, I would like to thank the two prior Chairmen that I served 
during my tenure. Senator Hollings hired me back in 2001. I was as 
green a counsel as you could imagine, and I made my fair share of 
mistakes. Despite that, Senator Hollings stood by me at every turn and 
trusted me without hesitation. I hope I have validated his faith in me 
over the years. I miss him and Ms. Peatsy greatly.
    Senator Inouye taught me more life lessons in 4 years than I 
thought I could learn in a lifetime. The times that Senator shared with 
me in his office talking about policy or life are some of the most 
cherished memories I have. Learning to disagree without being 
disagreeable has been a cornerstone of my success as a staffer, and 
that lesson was from him. Senator Inouye, thank you for letting me be a 
part of your ohana.
    Members of the Committee, thank you for your time and consideration 
of my nomination, I am happy to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        David Lorenzo Strickland.

    2. Position to which nominated: Administrator, National Highway 
Traffic Safety Administration, Department of Transportation.
    3. Date of Nomination: December 4, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 428 Hart Senate Office Bldg, Washington, DC 20510.

    5. Date and Place of Birth: 10/14/1968; Atlanta, GA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Robin Strickland, Director of Catering, Ark Restaurant 
        Company.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Northwestern University, B.S. 1990.

        Harvard Law School, J.D. 1993.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Wiley, Rein and Fielding, Associate Attorney (1993-1996).

        Association of Trial Lawyers of America, Associate Director of 
        Legislation (1996-2001).

        U.S. Senate Commerce Committee, Democratic Senior Counsel. Part 
        of my duties for this position is to manage and execute staff 
        oversight of the National Highway Traffic Safety Administration 
        (NHTSA). I assisted the Members of the Committee in drafting 
        and conducting staff level negotiations for the reauthorization 
        of NHTSA in 2005 and assisted the Committee in a similar 
        fashion in the passage of the Ten-in-Ten Fuel Economy Act, 
        which was incorporated into the Energy Independence and 
        Security Act of 2007. (2001 to present)

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    I have not held any positions of this type within the last 5 years 
aside from my current full-time employment.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    I have not held any positions of this type within the last 5 years.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Ben Hill United Methodist Church, Atlanta, GA. I have been a 
        member since 1972.

        Northwestern University Alumni Association, Washington D.C. 
        Chapter. I have been a member since 1993.

        Harvard Law School Club, Washington D.C. Chapter. I have been a 
        member since 1993.

        Maryland Bar Association. I have been a member since 1993.

        District of Columbia Bar Association. I have been a member 
        since 1994.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for public office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Obama for America, $500.00 (October 6, 2008).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        National Achievement Scholarship, Northwestern University, 
        1986.

        Senior Leadership Award, Northwestern Univ. School of Speech, 
        1990.

        Mothers Against Drunk Driving, Congressional Staffer of the 
        Year, 2004.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Article: ``No-fault Med Mal: No Gain for the Injured,'' Co-
        authored with Annette Wencl, Trial Magazine, May 1997.

        Article: ``States Call for HMO Accountability,'' Trial 
        Magazine, September 1, 1997.

        Article: ``Allstate's Customer Service Charade,'' Co-authored 
        with Annette Wencl, Trial Magazine, September 1, 1999.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have never testified before Congress.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have had the honor to work for the Senate Committee on Commerce, 
Science, and Transportation for over 8 years, and have been allowed to 
work on issues related to NHTSA for that entire period. The agency's 
mission to reduce injuries and fatalities in automobile accidents is of 
the utmost importance, and the reminders of the losses and human misery 
caused by auto accidents reinforce the importance of what this agency 
does. In addition to its role in saving lives, the agency is in the 
forefront of reducing greenhouse gas emissions in the passenger auto 
fleet. As the Democratic Senior Counsel for the Commerce Committee, I 
have been involved at the staff level in drafting the vehicle safety 
regulations and the human behavioral grant and research programs for 
SAFETEA-LU in 2005. The provisions that I helped to draft included 
landmark regulations to mandate electronic stability control in every 
automobile and initiated a primary seatbelt program which incentivized 
six states to pass laws strengthening seatbelt enforcement. I also 
drafted the managers' amendment for the Ten-in-Ten Fuel Economy Act and 
led the Senate staff negotiations that culminated into the first 
increase in passenger car fuel economy since the 1970s. From my 
experiences in leading the work on these major legislative matters and 
my daily oversight of NHTSA for the Committee, I believe that I am 
extremely qualified to lead NHTSA and help the agency move forward to 
fulfill its missions
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Administrator, I would be responsible for all 
programmatic decisions that occur within the agency. These include not 
only the policy and enforcement decisions, but also the budget and 
human resource matters to make sure the agency's work is done 
efficiently and correctly. While I directly manage a staff of four 
employees in my current position, I am very familiar with NHTSA's 
operations and staff. In addition, I have often been the lead Senate 
staffer in House-Senate Legislative Conferences, which calls for me to 
manage as many as 40 staffers during the long-term negotiations to help 
draft the Conference Report for the Members' review.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Working with the Congress on a new Surface Transportation Extension 
is one of the largest tasks facing the agency. In light of the need to 
reform the way the Highway Trust Fund is funded, resources may be more 
limited than in years past; yet NHTSA must continue to find new ways, 
based on the data and the science, to continue to lower the number of 
drunken drivers and increase the use of seatbelts, in addition to 
addressing other known and emerging risks, such as driver distraction.
    A second task of great significance is finalizing and enforcing the 
new CAFE standards. In addition to working with EPA and the greenhouse 
gas standards that are along side of CAFE, keeping on top of the 
engineering and the science so that the agency is prepared for the next 
set of standards that will take the fleet to Model Year 2020 and beyond 
is tantamount to lower the country's dependence on foreign oil and 
continue the fight against global warming. Additionally, NHTSA must 
begin to craft CAFE standards for medium and heavy duty trucks--a 
complex task that is likely to involve EPA collaboration like the light 
duty standard.
    A third task facing the agency is issuing and finalizing 
rulemakings that have fallen behind. There have been several 
assignments that NHTSA has undertaken this year, including the ``Cash 
for Clunkers'' initiative that was a new priority for the agency. Now, 
it is important to complete ongoing work that had to be delayed, such 
as the KT Safety Act rulemakings to help address rearward visibility 
and power window entrapments.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I do not have any of the type of arrangements described above.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I do not have any commitments or agreements of the type described 
above.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    From August 1999 to August 2001, I worked as a registered lobbyist 
for the Association of Trial Lawyers of America (ATLA). My work 
encompassed advocacy dealing with civil justice issues, which included 
class action reform and medical malpractice reform at the Federal 
level.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    There were three landlord/tenant actions, two in 1996, one in 1998. 
All were fully resolved to the satisfaction of all parties without any 
trial or further negotiations.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of david l. strickland
Education
    Harvard Law School; J.D., 1993

    Activities:

        Harvard Civil Rights--Civil Liberties Law Review: Articles 
        Editor
        Black Law Students Association: Vice President

    Northwestern University; B.S., 1990

        Major: Communication Studies and Political Science
        Honors: Graduated with Honors; Senior Leadership Award; 
        Communications Honor Society
Professional Experience
    U.S. Senate Committee on Commerce, Science, and Transportation--
Aug. 2001 to Present, Washington, D.C.

    Democratic Senior Counsel

    The Subcommittee on Competitiveness, Innovation and Export 
Promotion and the Subcommittee on Consumer Protection, Product Safety 
and Insurance: Serve as lead counsel and manage a staff of five for 
subcommittees that oversee the Federal Trade Commission (FTC), the 
Consumer Product Safety Commission (CPSC), the National Highway Traffic 
Safety Administration (NHTSA), and the Department of Commerce. 
Responsible for providing legal and legislative advice to Democratic 
Members of the Committee on Subcommittee issues, including insurance, 
antitrust, consumer protection and fraud prevention, interne privacy, 
tourism, consumer product safety and liability, passenger motor vehicle 
safety and fuel efficiency, and the U.S. Olympic Committee. Completed 
and ongoing legislative matters for the Committee include:

    FTC Related Legislation

    Do-Not-Call Registry: Served as lead Democratic Senate staff 
negotiator for the establishment of the Do-Not-Call Registry in 2003. 
Drafted in conjunction with Majority staff and served as lead 
Democratic Senate staff negotiator for S. 1654, the Do-Not-Call 
Registry Authorization of 2003. The House companion, H.R. 3161, became 
P.L. 108-82; drafted and served as lead Democratic Senate staff 
negotiator for S. 781, the Do-Not-Call Registry Fee Extension Act of 
2007, which became P.L. 110-188; drafted and served as lead Democratic 
Senate staff negotiator for S. 2096, the Do-Not-Call Improvement Act of 
2007. The House companion, H.R. 3541, became P.L. 110-187.

    Internet Commerce, Privacy, and Reauthorization: Served as lead 
Democratic Senate staff negotiator for S. 877, the CAN-SPAM Act of 
2003, which became P.L. 108-187; drafted in conjunction with Majority 
staff and served as lead Democratic Senate staff negotiator for S. 
1608, the U.S. SAFE WEB Act of 2006, which became P.L. 109-455; drafted 
S. 1178, the Identity Theft Prevention Act of 2007; drafted S. 2831, 
the Federal Trade Commission Reauthorization Act of 2008.

    NHTSA Related Legislation

    Corporate Average Fuel Economy (CAFE): Drafted the Managers' 
Amendment and served as lead Democratic Senate staff negotiator for S. 
357, the Ten-in-Ten Fuel Economy Act. S. 357 was incorporated into 
Title I of H.R. 6, the Energy Independence and Security Act of 2007, 
which became P.L. 110-140.

    Highway Bill and Vehicle Safety: Drafted in conjunction with 
Majority staff and served as lead Democratic Senate staff negotiator 
for Title II of S. 1567, the Surface Transportation Safety Improvement 
Act of 2005. Title II reauthorized NHTSA, funded the Highway Safety 
Grant programs and mandated several vehicle safety technologies, 
including Electronic Stability Control in every vehicle. Title II was 
included in H.R. 3, SAFETEA-LU, which became P.L. 109-59; drafted the 
Managers' Amendment and served as lead Democratic Senate staff 
negotiator for S. 694, the Cameron Gulbransen Kids and Cars Safety Act 
of 2007. The House companion, H.R. 1219, became P.L. 110-189.

    CPSC Related Legislation

    Reauthorization: Drafted and served as lead Democratic Senate staff 
negotiator for S. 2663, the CPSC Reform Act, which became the Senate 
Amendment to H.R. 4040. Led the Senate staff delegation in a formal 
conference that lasted 3 months resulting in the Conference Report to 
H.R. 4040, the Consumer Product Safety Improvement Act, which became 
P.L. 110-314.

    Individual Product Safety Legislation: Drafted and served as lead 
Democratic Senate staff negotiator for S. 1771, the Virginia Graeme 
Baker Pool and Spa Safety Act, which was included in H.R. 6, the Energy 
Independence and Security Act of 2007, which became P.L. 110-140; 
served as lead Democratic Senate staff negotiator for H.R. 814, the 
Children's Gasoline Burn Prevention Act, which became P.L. 110-278.

    Investigations

    Enron, BALCO and Abramoff/Indian Gaming: Served as investigatory 
counsel for the Committee's Enron inquiry and was lead counsel for the 
Committee's seven Enron hearings in 2002; served as investigatory 
counsel for the Committee's inquiry into the 2004 Olympic Team's 
involvement in the BALCO steroids case; conducted Democratic Commerce 
Committee staff oversight of the McCain Indian Gaming Lobbyist 
investigation in 2004.

    Association of Trial Lawyers of America--Oct. 1996 to Aug. 2001, 
Washington, D.C.

    Associate Director for Legislation

    Lobbying and Legislative Counseling: Lobbied members of the U.S. 
House of Representatives and the U.S. Senate on commerce issues and 
legal reform, including electronic commerce, insurance, consumer 
protection, product liability, arbitration, and civil procedure. 
General responsibilities and experience included the following:

  <bullet> Cultivated and maintained contacts with Members of Congress 
        and their staffs, focusing upon the House and Senate Commerce 
        and Judiciary Committees;

  <bullet> Analyzed legislation and prepared ATLA's political strategy 
        in response to legislation;

  <bullet> Provided legal advice and drafting assistance to Members of 
        Congress on civil justice issues; and

  <bullet> Wrote testimony for the President of ATLA for appearances 
        before the House and the Senate.

    State Research Counsel--Oct. 1996 to Aug. 1999.

    Lobbying and Legislative Counseling: Served as advisory counsel on 
state and Federal issues. Lobbied on commerce and legal reform issues 
in all 50 states. General responsibilities included the following:

  <bullet> Represented ATLA at state level meetings to educate and 
        persuade state legislators on civil justice issues;

  <bullet> Prepared lobbying strategy for State Trial Lawyer 
        Associations; and

  <bullet> Advised ATLA leadership and Congressional staffs on state 
        law and Federal preemption issues.

    Wiley, Rein and Fielding--Sept. 1993 to Oct. 1996, Washington, D.C.

    Associate

    Complex Litigation: Practiced in the litigation group of a large 
general practice law firm with domestic and international clients. 
General responsibilities and experience included the following:

  <bullet> Conducted research for and drafted legal briefs, memoranda, 
        proposed findings of fact, and motions;

  <bullet> Completed numerous document production responsibilities, 
        including a 400-page privilege log; and

  <bullet> Prepared testimony of experts for trial; developed cross-
        examination strategies; prepared witnesses for cross 
        examination, and conducted depositions.

    Communications: Practiced with the broadcast and common carrier 
groups of a large communications practice. Researched and drafted 
memoranda. Prepared various FCC filings. General responsibilities and 
experience included the following:

    Broadcast

  <bullet> Prepared television station ownership reports, earth station 
        registrations, and provided research and support for transfers 
        of control; and

  <bullet> Researched EEO requirements for advisory memoranda.

    Common Carrier:

  <bullet> Prepared summaries of comments on Personal Communication 
        Service (PCS) competitive bidding, Regulatory Parity and 
        Technical Rule Rewrites;

  <bullet> Prepared memoranda and charts on the Universal Service Fund; 
        and

  <bullet> Prepared memoranda on constitutionality of rate caps on 
        Alternative Operator Service (AOS) providers.

    Bar Admissions: Admitted in the District of Columbia and Maryland.

    References available upon request.

    The Chairman. Thank you, Mr. Strickland.
    And now, Ms. Lamb-Hale.

             STATEMENT OF NICOLE YVETTE LAMB-HALE,

           ASSISTANT SECRETARY-DESIGNATE OF COMMERCE

                FOR MANUFACTURING AND SERVICES,

                  U.S. DEPARTMENT OF COMMERCE

    Ms. Lamb-Hale. Chairman Rockefeller, Ranking Member 
Hutchison, and distinguished members of this Committee, I am 
honored and humbled to appear before you today as President 
Obama's nominee to serve as Assistant Secretary of Commerce for 
Manufacturing and Services.
    Mentors have taught me over the years that every career 
should be rounded out with public service. I could not be 
happier to have the opportunity to serve my country at this 
critical period in its history. I thank President Obama for the 
enormous trust he has placed in me, and Secretary Locke for his 
enthusiastic support of my nomination.
    Over the past few weeks, I have had the pleasure of meeting 
with members of this committee and your staffs. I appreciate 
the time that you've shared with me, your insights into the 
challenges faced by U.S. industry, and your perspectives on 
potential solutions. If I am confirmed by the Senate, I look 
forward to collaborating with you.
    I also thank Senator Debbie Stabenow, of the great State of 
Michigan, for her statement of support for the record for my 
nomination today. I appreciate the leadership and commitment of 
both Senators Stabenow and Levin in preserving manufacturing in 
the United States.
    At this time, I would like to introduce to the members of 
the Committee my family. Joining me are my husband, John Hale 
III, whose love and support of me have been unwavering; my 
children, John Hale IV and Ashleigh Hale, who can stand, who 
are my greatest accomplishments; my mother, Zinnette McRae 
Lamb, who has always been the wind beneath my wings; and my 
other relatives, close friends, and business colleagues, 
several of whom have traveled great distances to support me 
here today.
    I would also like to thank my late father, Rawleigh 
Glendale Lamb, whose constant encouragement inspired me to 
reach for my dreams, and my 92-year-old maternal grandfather, 
Zin Osman McRae--from the great State of Arkansas, Senator 
Pryor----
    [Laughter.]
    Ms. Lamb-Hale.--who set such a wonderful example for our 
family to follow.
    As I prepared my remarks, I could not help but to reflect 
on the path that led me here today. I was born and raised in 
Metropolitan Detroit, the cradle of the U.S. automotive 
industry. My father was an executive at Chrysler Corporation 
until his death in 1990. I have vivid memories of the financial 
crisis suffered by Chrysler in the late 1970s. I recall the 
fear experienced by my parents as they contemplated the impact 
of the potential loss of my father's job on our family, a fear 
that they could not hide from me and a fear that is faced by 
many families today resulting from the loss of jobs in the 
United States.
    Upon my graduation from law school, I returned to Detroit 
to pursue my legal career. I practiced law for more than 17 
years in Detroit before assuming the role of Deputy General 
Counsel with the Department of Commerce. My client base 
included original equipment manufacturers, parts suppliers, and 
service providers. Because my area of expertise was business 
restructuring, I gained a unique perspective on the challenges 
facing U.S. manufacturing as I shepherded my clients through 
financial crisis. I saw the impact of fluctuating commodity 
costs on manufacturers, their challenges with accessing 
capital, and the burden of legacy costs on the capital 
structures of their companies. I also saw how these issues 
adversely impacted the ability of my clients to successfully 
compete in the global marketplace. In addition, I witnessed the 
negative impact of job--manufacturing job losses on every 
sector of the community. If I am confirmed, it is with those 
experiences in mind that I will approach the role of Assistant 
Secretary for Manufacturing and Services and work tirelessly to 
find the way forward for U.S. industry.
    I broadly view the role of Manufacturing and Services as 
threefold: to convene, to collaborate, and to connect. If 
confirmed, under my leadership, Manufacturing and Services will 
convene experts both inside and outside of the Federal 
Government to develop solutions to the issues faced by U.S. 
industry.
    Manufacturing and Services will also collaborate with 
Congress, with agencies across the Federal Government, and with 
State and local governments to develop solutions to sustain and 
increase the global competitiveness of U.S. industry.
    Further, Manufacturing and Services will work to connect 
industry to the resources and tools available in the Federal 
Government to forge a path to sustainable, highly-skilled jobs 
for the 21st Century. If confirmed, I will proactively work 
with U.S. industry to foster its growth and support its 
competitiveness. With input from U.S. industry, I will be 
laser-focused on the domestic- and trade-related barriers that 
impinge upon the ability of U.S. industry to succeed on the 
global stage.
    My personal and professional experiences give me a unique 
perspective on the needs of U.S. industry that will inform my 
ability to effectively leverage the tools found in 
Manufacturing and Services. If confirmed, I will work closely 
with this committee, your colleagues in the Congress, and 
others, to develop effective solutions that will reinvigorate 
U.S. industry.
    I thank you for your consideration of my nomination and the 
opportunity to address this committee, and I look forward to 
any questions you may have.
    Thank you.
    [The prepared statement of Ms. Lamb-Hale follows:]

  Prepared Statement of Nicole Yvette Lamb-Hale, Assistant Secretary-
 Designate of Commerce for Manufacturing and Services, U.S. Department 
                              of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of this Committee, I am honored and humbled to appear before 
you today as President Obama's nominee to serve as Assistant Secretary 
of Commerce for Manufacturing and Services. Mentors have told me over 
the years that every career should be rounded out with public service. 
I could not be happier to have the opportunity to serve my country at 
this critical period in its history.
    I thank President Obama for the enormous trust he has placed in me 
and Secretary Locke for his enthusiastic support of my nomination.
    Over the past few weeks, I have had the pleasure of meeting with 
members of this Committee and your staffs. I appreciate the time that 
you shared with me, your insights into the challenges faced by U.S. 
industry and your perspectives on potential solutions. If I am 
confirmed by the Senate, I look forward to collaborating with you.
    I also thank Senator Debbie Stabenow of the great State of Michigan 
for her gracious introduction today. I appreciate the leadership and 
commitment of Senators Stabenow and Levin in preserving manufacturing 
in the United States.
    At this time, I would like to introduce the members of the 
Committee to my family. Joining me are my husband, John Hale, III whose 
love and support of me have been unwavering; my children, John Hale, IV 
and Ashleigh Hale, who are my greatest accomplishments; my mother, 
Zinnette McRae Lamb, who has always been the wind beneath my wings; and 
my other relatives, close friends and business colleagues-several of 
whom traveled great distances to support me here today. I would also 
like to thank my late father, Rawleigh Glendale Lamb, whose constant 
encouragement inspired me to reach for my dreams, and my 92 year old 
maternal grandfather, Zin Osman McRae, from the great state of 
Arkansas, who set such a wonderful example for our family to follow.
    As I prepared my remarks, I could not help but reflect on the path 
that led me here today. I was born and raised in metropolitan Detroit, 
the cradle of the U.S. automotive industry. My father was an executive 
at Chrysler Corporation until his death in 1990. I have vivid memories 
of the financial crisis suffered by Chrysler in the late 1970s. I 
recall the fear experienced by my parents as they contemplated the 
impact of the potential loss of my father's job on our family--a fear 
that they could not hide from me and a fear that is faced by many 
families today resulting from the loss of jobs in the U.S.
    Upon my graduation from law school, I returned to Detroit to pursue 
my legal career. I practiced law for more than 17 years in Detroit 
before assuming the role of Deputy General Counsel at the Department of 
Commerce. My client base included original equipment manufacturers, 
parts suppliers and service providers. Because my area of expertise was 
business restructuring, I gained a unique perspective on the challenges 
facing U.S. manufacturing as I shepherded my clients through financial 
crisis. I saw the impact of fluctuating commodity costs on 
manufacturers, their challenges with accessing capital and the burden 
of legacy costs on the capital structures of their companies. I also 
saw how these issues adversely impacted the ability of my clients to 
successfully compete in the global marketplace. In addition, I 
witnessed the negative impact of manufacturing job losses on every 
sector of the community. If I am confirmed, it is with those 
experiences in mind that I will approach the role of Assistant 
Secretary for Manufacturing and Services and work tirelessly to find 
the way forward for U.S. industry.
    I broadly view the role of Manufacturing and Services as three-
fold: to convene, to collaborate and to connect. If confirmed, under my 
leadership, Manufacturing and Services will convene experts both inside 
and outside of the Federal Government to develop solutions to the 
issues faced by U.S. industry. Manufacturing and Services will also 
collaborate with Congress, with agencies across the Federal Government 
and with state and local governments to develop solutions to sustain 
and increase the global competitiveness of U.S. industry. Further, 
Manufacturing and Services will work to connect industry to the 
resources and tools available in the Federal Government to forge a path 
to sustainable, highly-skilled jobs for the 21st century economy.
    If confirmed, I will proactively work with U.S. industry to foster 
its growth and support its competitiveness. With input from U.S. 
industry, I will be laser focused on the domestic and trade-related 
barriers that impinge on the ability of U.S. industry to succeed on the 
global stage.
    My personal and professional experience gives me a unique 
perspective on the needs of U.S. industry that will inform my ability 
to effectively leverage the tools found in Manufacturing and Services. 
If confirmed, I will work closely with this Committee and your 
colleagues in Congress to develop effective solutions that will 
reinvigorate U.S. industry.
    I thank you for your consideration of my nomination and the 
opportunity to address this Committee. I look forward to any questions 
you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Nicole Yvette Lamb-Hale (Nicole Lamb; Nicole Hale).

    2. Position to which nominated: Assistant Secretary for 
Manufacturing and Services.
    3. Date of Nomination: November 18, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1401 Constitution Avenue, N. W., Washington, DC 20230.

    5. Date and Place of Birth: October 9, 1966; Detroit, Michigan.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: John H. Hale, III, Consultant, Jefferson Wells, 1000 
        Town Center, Southfield, Michigan 48075; children: John H. 
        Hale, IV, 13; Ashleigh N. Hale, 9.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Michigan, Ann Arbor, MI--A.B. Political Science, 
        1988.

        Harvard Law School, Cambridge, MA--Juris Doctorate, 1991.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Dykema Gossett PLLC, Associate 1991-1999; Partner 1999-2003.

        Foley & Lardner LLP, Partner, 2003-2009; Office Managing 
        Partner, 2006-2009.

        U.S. Department of Commerce, Deputy General Counsel--2009 to 
        present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    State of Michigan Land Bank Fast Track Authority, Vice Chairperson 
and Director
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
------------------------------------------------------------------------
                         Position/ Nature      Type of       Dates (To/
     Name/Address         of Affiliation       Business         From)
------------------------------------------------------------------------
Delta Manor, Inc.       Director           Non-Profit         1993-2008
Detroit, MI
------------------------------------------------------------------------
Leadership Detroit      Trustee            Non-Profit         2002-2009
Detroit Regional
 Chamber
Detroit, MI
------------------------------------------------------------------------
Pacer Enterprises,      Director           For Profit         2006-2008
 Inc.                                       Corporation
Franklin, MI
------------------------------------------------------------------------
Foley & Lardner LLP     Partner            Law firm/          2003-2009
Detroit, MI                                 Partnership
------------------------------------------------------------------------
Music Hall Center for   Trustee            Non-Profit         2002-2008
 the Performing Arts
Detroit, MI
------------------------------------------------------------------------
Michigan Women in       Director           Non-Profit         2002-2006
 Finance
------------------------------------------------------------------------
State of Michigan Land  Director/Vice      State Authority    2003-2009
 Bank                    Chair
Fast Track Authority
Lansing, MI
------------------------------------------------------------------------
Dennis W. Archer        Director           Non-Profit         2001-2007
 Foundation
Detroit, MI
------------------------------------------------------------------------
See also attached list of clients while at Foley and Lardner LLP.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
------------------------------------------------------------------------
                         Position/ Nature      Type of       Dates (To/
     Name/Address         of Affiliation       Business         From)
------------------------------------------------------------------------
American Bankruptcy     Member             Non-Profit-        2000-2009
 Institute                                  Professional
                                            Organization
------------------------------------------------------------------------
American Bar            Member             Non-Profit-        1992-2009
 Association                                Professional
                                            Organization
------------------------------------------------------------------------
Federal Bar             Member             Non-Profit-      Approx. 1995-
 Association                                Professional           2009
                                            Organization
------------------------------------------------------------------------
National Association    Member             Non-Profit-      Approx. 1995-
 of Bond Lawyers                            Professional           2009
                                            Organization
------------------------------------------------------------------------
National Bar            Member             Non-Profit-      Approx. 1996-
 Association                                Professional           2009
                                            Organization
------------------------------------------------------------------------
Wolverine Bar           Member             Non-Profit-        1992-2009
 Association                                Professional
                                            Organization
------------------------------------------------------------------------
Detroit Metropolitan    Member             Non-Profit-      Approx. 2000-
 Bar Association                            Professional           2009
                                            Organization
------------------------------------------------------------------------
Obama for America       Member, National   Political          2007-2008
                         Finance            Committee
                         Committee, MI
                         Deputy General
                         Counsel; Co-
                         Chair
------------------------------------------------------------------------

------------------------------------------------------------------------
                                         Position         Restrictive
     Social Club/           Dates        (Member/         Membership
     Organization                        Officer)      Policies (Yes/No)
------------------------------------------------------------------------
Delta Sigma Theta       1986-present  Member/officer  Yes--women's
 Sorority, Inc.                                        organization
------------------------------------------------------------------------
The Links Incorporated  2004-present  Member          Yes--women's
                                                       organization
------------------------------------------------------------------------
Jack & Jill of          1999-present  Member/officer  Yes--mothers'
 America, Inc.                                         organization
------------------------------------------------------------------------
Women Presidents        2006-2009     Member          Yes--women's
 Organization                                          organization
------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

------------------------------------------------------------------------------------------------------------------------------------------------
February 2004               Obama for Illinois, Inc.                $750
June 2004                   Jennifer Granholm for Governor          $500
June 2005                   Stabenow for U.S. Senate                $500
March 2006                  Stabenow for U.S. Senate                $500
October 2006                Jennifer Granholm for Governor        $1,000
May 2007                    Obama for America                     $2,300
September 2008              Obama for America                     $2,182
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Named one of ``Metro Detroit's Most Influential Women'' by 
        Crain's Detroit Business.

        Fellow of the Michigan State Bar Foundation.

        Fellow of the American Bar Foundation.

        Recognized as one of Michigan's ``Super Lawyers'' in 2006, 2007 
        and 2008 by Law & Politics Media, Inc.

        Named one of the Detroit area's most powerful and accomplished 
        women business leaders by Inforum, Michigan's largest 
        organization for professional women and Deloitte.

        Recipient of ``Powerful Women of Purpose Award,'' Rhonda Walker 
        Foundation.

        Recipient of ``Women of Courage-Women of Change Award,'' 
        Minerva Education and Development Foundation.

        Recipient of ``Celebration of Women Award,'' Vista Maria.

        Recipient of ``The Blue Diamond Award-Honoring Unsung 
        Sheroes,'' Spelman College.

        Recipient of ``Women of Excellence Award,'' Michigan Chronicle.

        Named one of ``40 Under 40'' by Crain's Detroit Business 
        recognizing 40 Detroit area professionals under the age of 40 
        for their business and leadership accomplishments.

        Named a YMCA Minority Achiever.

        Graduate of the Detroit Regional Chamber's Leadership Detroit, 
        Class 20.

        Recipient of ``The Five Under Ten'' Award issued by the 
        African-American Alumni Council of the University of Michigan 
        to graduates with significant accomplishments during the 10 
        years since their graduation from the University.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``The Changing World of Creditors' Committees: As the World 
        Turns,'' panel participant, 15th Annual Central States 
        Bankruptcy Workshop, American Bankruptcy Institute (2008).

        ``State of the Law Update: Bankruptcy-Creditors' Rights,'' 
        Second Annual State of the Law Update, Association of Corporate 
        Counsel-Michigan Chapter (2007).

        ``Managing Contractual Relationships and Supply Chain 
        Distress,'' Deloitte Great Lakes CFO Conference (2007).

        ``Expanded Reclamation Rights Under BAPCPA,'' Columbus Day 
        Bankruptcy Seminar, Debtor Creditor Section of the Federal Bar 
        Association (2006).

        ``Dealing with Financially Troubled Suppliers and Customers,'' 
        First Annual State of the Law Update, Association of Corporate 
        Counsel-Michigan Chapter (2006).

        ``The Bankruptcy Abuse Prevention and Consumer Protection Act 
        of 2005-How Will It Impact Your Business?,'' 15th Annual Law of 
        Product Distribution and Franchise Seminar-Foley & Lardner LLP 
        (2006).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My personal and professional background makes me uniquely qualified 
to serve as Assistant Secretary of Commerce for Manufacturing and 
Services. With respect to my personal background, I was born and raised 
in Michigan, specifically the Detroit area , the cradle of the United 
States automotive industry. My father was an executive at Chrysler 
Corporation until his death in 1990. I have vivid memories of the 
financial crisis suffered by Chrysler Corporation in the late 1970s 
which led to the first Federal Government bailout of the company. I 
recall the fear experienced by my parents as they contemplated the 
impact of the potential loss of my father's job on our family--a fear 
that they could not hide from me. Ultimately, because of financial 
support from the Federal Government, Chrysler survived and so did 
thousands of jobs, including that of my father.
    Upon my graduation from law school, I returned to Detroit to pursue 
my legal career. I practiced law for over 17 years in Detroit before 
assuming my current position at the Department of Commerce. My client 
base included original equipment manufacturers and parts suppliers. 
While many of my clients were in the automotive industry, I also 
represented manufacturers in other industries. Because my area of 
expertise was business restructuring, I gained a unique perspective on 
the challenges facing American manufacturing as I helped my clients 
through financial crisis. Indeed, I saw the impact of fluctuating 
commodity costs on manufacturers, their challenges with accessing 
capital, and the burden of legacy costs on the capital structure of 
their companies. I also saw how these issues adversely impacted the 
ability of my clients to compete in the global marketplace.
    My personal and professional experience gives me a unique 
perspective on the needs of U.S. industry that will inform my ability 
to effectively leverage the tools found in Manufacturing and Services 
for the benefit of industry. If confirmed, I will work tirelessly as 
the Assistant Secretary of Commerce for Manufacturing and Services to 
enhance the global competitiveness of U.S. industry, ensure U.S. 
industry input into the regulatory and interagency trade policy 
process, and promote innovation while lowering the cost of doing 
business.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, ensuring that the Manufacturing and Services office 
has proper management and accounting controls will be a critical 
responsibility of mine. I will set the tone in the organization that 
fraud and dishonesty are not acceptable and that everyone in the 
organization is obligated to perform adhering to the highest ethical 
standards. I will ensure that regular audits of the organization are 
performed and that the organization adheres to all recommendations of 
our auditors. Having served as Office Managing Partner of the Detroit 
office of a national law firm, I have extensive management experience. 
In that capacity, I managed 80 employees and a $100 million budget. In 
addition to day-to-day management, I was responsible for new business 
development, recruiting, marketing and strategic planning.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top three challenges facing Manufacturing and Services 
(``MAS'') are: (i) elevating its profile and outreach so that it will 
be viewed as a valuable resource to U.S. industry; (ii) developing 
strategies to stabilize the U.S. manufacturing sector; and (iii) 
developing 21st century strategies to increase the global 
competitiveness of U.S. industry. First, with respect to the profile 
challenge, many of the resources provided by MAS do not translate 
effectively for industry. Too many businesses, particularly small and 
medium sized businesses, do not know of MAS' existence and its value. 
Second, stabilizing the U.S. manufacturing sector is critical to 
maintaining and creating jobs. Third, U.S. industry cannot compete 
globally if we do not develop forward looking and innovative strategies 
to sustain the sector. Leveraging its industry expertise, MAS can play 
an important role in this regard.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        Foley & Lardner LLP Defined Contribution Plan

        Foley & Lardner LLP 401K Plan

        Foley & Lardner LLP Capital Account to be refunded in February 
        2010

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have executed 
which is attached. I am not aware of any other potential conflicts of 
interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    While I have not been engaged in such activities, the law firms in 
which I was a partner, Dykema Gossett PLLC and Foley & Lardner LLP, 
each have lobbying practices that were engaged for the purpose of 
directly or indirectly influencing the passage, defeat or modification 
of legislation or affecting the administration and execution of law or 
public policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have executed 
which is attached. I will also consult with Department of Commerce 
ethics officials to resolve any ethics issues that may arise during my 
tenure.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As large organizations, my former law firms in which I was a 
partner, Dykema Gossett PLLC and Foley & Lardner LLP, have been parties 
in litigation from time to time. I was not named as a party in such 
litigation and such litigation did not allege wrongdoing on my part.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                curriculum vitae of nicole y. lamb-hale
Summary of Qualifications
    Over 17 years of experience counseling business entities on 
significant business transactions and legal issues, including 
bankruptcy, where she has served as counsel for Chapter 11 debtors, 
secured lenders, creditors' committees and equity holders. Significant 
knowledge of and experience with the challenges of manufacturing in the 
United States arising from her representation of significant Tier 1 
automotive suppliers and original equipment manufacturers in troubled 
supplier workouts and bankruptcy proceedings. Significant management 
experience serving as Managing Partner of the Detroit office of a 
national law firm and having served as leader of the bankruptcy 
practice and as the partner in charge of hiring at a major regional law 
firm. History of active participation in civic and community affairs. 
Currently serving as a senior executive in a cabinet level agency in 
the Obama administration.
Professional Experience
    United States Department of Commerce, Washington, D.C.--June 2009-
Present.

    Sole Deputy General Counsel of cabinet level agency with over 
20,000 employees. Assists the General Counsel as the chief legal 
officer for the Department and legal advisor to the Secretary, 
Secretarial Officers and other officers of the Department, including 
heads of operating units.

    Primary responsibility for the management of the over 300 lawyers 
employed by the Department.

    Foley & Lardner LLP, Detroit, Michigan--August 2003-June 2009.

    Managing Partner of the Detroit office. Responsible for new 
business development, lateral partner and associate recruiting, 
implementation of professional development programs and the creation of 
effective marketing campaigns. Managed 80 employees and a $I00 million 
budget while maintaining a robust law practice. Implemented the firm's 
business and marketing strategies in the Michigan market. Successfully 
developed and led a strategic planning retreat with Detroit office 
partners which resulted in, among other things, a multiple year 
marketing plan and the implementation of a signature charitable program 
with the Detroit Public Schools focused on entrepreneurship.

    Dykema Gossett PLLC, Detroit, Michigan--September 1991-August 2003.

    Joined as an associate in 1991. Elected an equity member in 1998. 
Practiced in the firm's Bankruptcy and Corporate Finance Practice 
Groups, specializing in bankruptcy, creditors' rights, business 
reorganizations and public finance transactions. Areas of practice 
included representations of debtors and creditors in loan workouts and 
reorganizations both inside and outside of Bankruptcy Court. 
Represented issuers and underwriters in public finance transactions, 
including building authority, airport, water and sewer, road and school 
bond transactions.

    Management responsibilities included chairing the firm's Hiring 
Committee and the Bankruptcy Practice Group.
Recent Speaking Engagements
    ``The Changing World of Creditors' Committees: As the World 
Turns,'' panel participant, 15th Annual Central States Bankruptcy 
Workshop, American Bankruptcy Institute (2008).

    ``State of the Law Update: Bankruptcy-Creditors' Rights,'' Second 
Annual State of the Law Update, Association of Corporate Counsel-
Michigan Chapter (2007).

    ``Managing Contractual Relationships and Supply Chain Distress,'' 
Deloitte Great Lakes CFO Conference (2007).

    ``Expanded Reclamation Rights Under BAPCPA,'' Columbus Day 
Bankruptcy Seminar, Debtor Creditor Section of the Federal Bar 
Association (2006).

    ``Dealing with Financially Troubled Suppliers and Customers,'' 
First Annual State of the Law Update, Association of Corporate 
Counsel--Michigan Chapter (2006).

    ``The Bankruptcy Abuse Prevention and Consumer Protection Act of 
2005-How Will It Impact Your Business?,'' 15th Annual Law of Product 
Distribution and Franchise Seminar--Foley & Lardner LLP (2006).
Education
    Harvard Law School, Cambridge, Massachusetts; Juris Doctorate, 
1991.

    University of Michigan, Ann Arbor, Michigan; A.B. in Political 
Science with High Honors, 1988.
Professional Organizations
    American Bankruptcy Institute (Advisory Board Member of Central 
States Conference); American Bar Association; Federal Bar Association; 
National Association of Bond Lawyers; National Bar Association; 
Wolverine Bar Association; Detroit Metropolitan Bar Association (former 
Co-Chair of Debtor/Creditor Section).
Civic, Community and Political Involvement
        Member, National Finance Committee, Obama for America, May 
        2007-January 2009.

        Member, African-American Advisory Council, Obama for America, 
        October 2007-January 2009.

        Deputy State Counsel and Co-Chair, Michigan Campaign for 
        Change, May 2008-November 4, 2008.

        Vice Chairperson, Board of Directors, Michigan Land Bank Fast 
        Track Authority by appointment of Michigan Governor, Jennifer 
        Granholm, May 2004-August 2009.

        Member, Board of Trustees of the Detroit Regional Chamber's 
        Leadership Detroit program, Past Chairperson of Selection 
        Committee, January 2002-June 2009.

        Member, Board of Trustees, Music Hall Center for the Performing 
        Arts, January 2002-June 2008.

        Member of the Board and Treasurer, Michigan Women in Finance, 
        September 2002-May 2006.

        Member of the Board and Secretary, Dennis W. Archer Foundation, 
        September 2001-June 2007.

        Campaign Finance Chairperson for former Detroit Mayor Dennis W. 
        Archer, February 1996-December 2001--responsible for all 
        fundraising and campaign finance reporting.

        Member of the Detroit Housing Commission, which managed public 
        housing for the City of Detroit, March 1995-May 1997.

        Pro bono legal advisor to the City of Detroit in connection 
        with its successful Federal Empowerment Zone Application, 
        January I994-March 1995.

        Member, Board of Directors, Delta Manor, Inc., September 1993-
        December 2007.
Organization Affiliations
        Golden Life Member, Delta Sigma Theta Sorority, Inc.

        Member, Jack and Jill of America, Inc.

        Member, The Links Incorporated
Honors/Recognition Received
        Named one of ``Metro Detroit's Most Influential Women'' by 
        Crain's Detroit Business.

        Fellow of the Michigan State Bar Foundation.

        Recognized as one of Michigan's ``Super Lawyers'' in 2006, 2007 
        and 2008 by Law & Politics Media, Inc.

        Named one of the Detroit area's most powerful and accomplished 
        women business leaders by Inforum, Michigan's largest 
        organization for professional women and Deloitte.

        Recipient of ``Powerful Women of Purpose Award,'' Rhonda Walker 
        Foundation.

        Recipient of ``Women of Courage-Women of Change Award,'' 
        Minerva Education and Development Foundation.

        Recipient of ``Celebration of Women Award,'' Vista Maria.

        Recipient of ``The Blue Diamond Award-Honoring Unsung 
        Sheroes,'' Spelman College.

        Recipient of ``Women of Excellence Award,'' Michigan Chronicle.

        Named one of ``40 Under 40'' by Crain's Detroit Business 
        recognizing 40 Detroit area professionals under the age of 40 
        for their business and leadership accomplishments.

        Named a YMCA Minority Achiever.

        Graduate of the Detroit Regional Chamber's Leadership Detroit, 
        Class XX.

        Recipient of ``The Five Under Ten'' Award issued by the 
        African-American Alumni Council of the University of Michigan 
        to graduates with significant accomplishments during the I0 
        years since their graduation from the University.
Personal
        Married to John H. Hale, III. Mother of John H. Hale, IV and 
        Ashleigh N. Hale.
Clients that Nicole Lamb-Hale worked on between 6/1/2004-4/30/2009
        414 North Mills Associates

        Access. 1 Communications Corp.

        Ad Hoc Bond Holders Committee

        Ambac Assurance Corporation

        Amcor--Corporate

        Atlantic National Trust, Limited Liability Co.

        Bank of America

        Bartech Group, Inc., The

        BBI Enterprises Group, Inc.

        Bizzywiggle Wireless Services

        Blue Water Automotive Systems, Inc.

        Board of Directors for Veltri Metal Products

        Bravo Enterprises LLC

        Bravo Family LLC

        Canadian National Railway Co.

        Capmark Financial Inc.

        Cast Itoga Law Office for Uchihama Kasei K.K.

        Centra, Inc.

        Citigroup Global Markets, Inc.

        Citigroup Global Markets, Inc.

        Contech U.S., LLC--Official Committee of

        Context Capital Management, LLC

        Cooper-Standard Automotive, Inc.

        Cos-Mar Company

        Cummins, Inc.

        CVS/Caremark Corporation

        Delta Air Lines, Inc. Bankruptcy

        Detroit Medical Center (DMC)

        Detroit Public Schools

        Detroit Technologies, Inc.

        Ecorse, City Of, Michigan

        Edcor Data Services

        Expresstrak, L.L.C.

        Fifth Third Bank

        Fluid Routing Solutions Intermediate Holding

        Foley & Lardner Political Fund, Inc.

        Fort Street Capital LLC

        Fresh, Inc.

        General Electric Capital Corporation

        GETRAG Transmissions Manufacturing LLC

        GETRAG USA

        Goldman, Sachs & Co.

        Great Lakes Higher Education Corporation

        Guerlain, Inc.

        Hammond-Mac Investments, LLC

        Henniges Automotive

        Intermet Corporation

        ITT Fluid Technology Corporation

        J.L. French Automotive Castings, Inc. Official Committee of

        J.P. Morgan Securities Inc.

        JP Morgan Chase

        Kapur, Subhash

        Kautex Inc.

        Koppy Corporation

        Lamb-Hale, Nicole--Arbitration Matters

        Loop Capital Markets, LLC

        Luna Entertainment

        LVMH Perfumes and Cosmetics, Inc. a/k/a

        Maclellan Integrated Services

        Medifacts International

        Meridian Automotive Systems, Inc.

        Metaldyne Corporation

        MGI Manufacturing

        Mikken Enterprises Worldwide, LLC

        Monterey Financial Services, Inc.

        Murray, Inc.

        Navigant Consulting

        NM Holdings Company LLC

        Noble International, Ltd.

        Northwest Airlines Inc. Bankruptcy

        Official Committee of Unsecured Creditors of

        P.I.I. Corp

        Paper-Plas Converting, Inc.

        Pasricha, Atul

        Personal Care Products, Inc.

        Peterson American Corporation

        Phillips Service Industries, Inc.

        Raytech Corporation

        Royal Concessionaries, LLC

        Silver Point Capital L.P.

        St. John Health

        St. John Knits, Inc.

        Starlite Retention Services, LLC

        Superior Essex Inc.

        Tectro LP

        The Technology Development Company, Ltd. (TTDC)

        TI Group Automotive Systems L.L.C.

        TLC Michigan

        Tower Automotive Operations USA II, LLC

        Ufer & Spaniola, PC

        Unalloy IWRC

        Uniboring Resources, LLC

        US Bancorp

        Visteon Corporation--Corporate Matters

        Wayne County Airport Authority

        Wayne County Building Authority

        Wellness Plan, The

        Wellpoint, Inc.

        Whirlpool Corporation

        Wiegand, Gerald

        WINCO Enterprises, Inc.

        Woory Industrial Company, Ltd.

        Wynnchurch Capital

        Yazaki North America, Inc.

    The Chairman. Thank you very much, Ms. Lamb-Hale.
    And now, Mr. Khouri.

STATEMENT OF MICHAEL A. KHOURI, COMMISSIONER-DESIGNATE, FEDERAL 
                      MARITIME COMMISSION

    Mr. Khouri. Good afternoon, Mr. Chairman, Ranking Member 
Hutchison, and members of the Committee.
    I am Michael Khouri and a nominee for Commissioner at the 
Federal Maritime Commission. I sincerely appreciate the 
opportunity to appear before you today. I am honored to have 
been nominated by President Obama to become a member of the 
Federal Maritime Commission. If confirmed by the Senate, I will 
do my best to serve the public interest, enforce the laws that 
apply to the maritime entities regulated by the Commission.
    First, I want to introduce my wife, Sandy. We are coming up 
on our 25th wedding anniversary this May, and she is by far my 
better half.
    [Laughter.]
    Mr. Khouri. Our older son, Aaron, is a senior marketing and 
business major at Lynchburg College in Virginia, and he is in 
final exams today. Ben, our younger son, is a freshman at 
Trinity College in Connecticut, and is, likewise, preparing for 
semester exams.
    My maritime career began some 38 years ago, when I took a 
summer job on a river towboat. I became fascinated with the 
waterways, with the ships, and the thought of piloting those 
huge vessels. I trained, worked hard, made pilot at age 23, and 
stood my first captain's watch at age 25. But, the law was also 
interesting and called me back to school.
    Following law school, I joined American Commercial Lines as 
Counsel and found that a mix of real-world operating 
experience, combined with a technical and legal education, was 
valued by management. My assignments continued to grow in scope 
and responsibility, including Chief Legal Officer and, 
ultimately, Senior Vice President for Transportation Services-
Marine Operations.
    Next, I joined MERS Economy Boat as President and Chief 
Operating Officer, where I had general management 
responsibilities for the company's fuel/vessel supply 
operations on the Mississippi River and Gulf Coast.
    During my maritime career, I've had the opportunity to work 
with Conference Freight Bureau and related antitrust issues, 
independent action and service contracts between carriers and 
shippers, port and terminal agreements, and freight-forwarder 
agreements. I believe that these 30-plus years of experience 
serve as a solid foundation from which I may review and 
judiciously consider the mission, objectives, and matters that 
come before the Federal Maritime Commission.
    I see three areas that are current and longer-term 
challenges for the Commission:
    Job one is the current global recession and its impact on 
the consumers, shippers, carriers, ports, ocean transportation 
intermediaries, and all of the many workers and tradesmen who 
have reduced or lost employment opportunities. The Commission 
must carefully monitor rate activity and reduce nonvalue-added 
cost burdens when and where possible. Shippers need lowest-cost 
transportation solutions. Ocean transportation intermediaries 
need regulatory oversight that is as efficient as possible. And 
carriers need some opportunity to earn a minimum return.
    Some trade lanes have seen increased levels of controlled 
carrier capacity. The Commission will want to be diligent in 
monitoring trade, service, and rate activity in these trade 
lanes, with a focus on identifying any emerging abusive 
activities.
    Third, in looking to a brighter future, this recession will 
abate, and global growth will return. As trade volumes 
increase, our ports will see congestion and will strain to 
efficiently handle the volume. The Commission can begin to 
model that growth and assist with efficient regulatory 
processes that can facilitate the seamless movement of 
container trade through ports and provide opportunity for all 
of the stakeholders in our maritime community.
    I close with acknowledgment and sincere thanks to Chairman 
Lidinsky and Commissioner Dye for their help with this process. 
If confirmed, I look forward to working with my fellow 
Commissioners, as well as working with each of you and your 
staff. I thank you for your courtesy and attention, welcome any 
questions you may have, and respectfully ask that my full 
written statement be entered for the record.
    [The prepared statement of Mr. Khouri follows:]

   Prepared Statement of Michael A. Khouri, Commissioner-Designate, 
                      Federal Maritime Commission
    Good afternoon Mr. Chairman, Ranking Member Hutchison, and members 
of the Commerce, Science, and Transportation Committee. I am Michael 
Khouri and am a nominee for Commissioner at the Federal Maritime 
Commission.
    I sincerely appreciate the opportunity to appear before you today, 
and especially at this time with so many other important matters that 
require your attention. I am honored to have been nominated by 
President Obama to become a member of the Federal Maritime Commission 
and I thank the President for his confidence and this opportunity to 
serve. If confirmed by the Senate, I will do my best to serve the 
public interest and enforce the laws that apply to the maritime 
entities regulated by the Federal Maritime Commission.
    First, I want to introduce my wife Sandy Khouri. We are coming up 
on our twenty-fifth wedding anniversary this May. When I came home one 
evening a few months ago and said, ``I received an interesting phone 
call from Washington today . . .'', she listened quietly then replied, 
``Wherever you want to go, you know I'm there with you.'' She is, by 
far, my better half. Our oldest son, Aaron, is a senior marketing and 
business major at Lynchburg College of Virginia. He is in final exams 
today. Ben, our younger son, is a freshman at Trinity College in 
Connecticut and is likewise preparing for year end exams. They are good 
students, accomplished athletes with both playing varsity lacrosse at 
top twenty college programs and overall, good young men. Aaron was 
recently honored by his lacrosse teammates and coaches with election as 
Senior Captain. Sandy and I are proud of the men our boys have become.
    My maritime career began some thirty-eight years ago when I took a 
summer job on a river tow boat. I became fascinated with the waterways, 
with ships and the thought of piloting those big vessels. I trained and 
worked hard, made Pilot at age 23 and stood my first Captain's watch at 
age 25. But the law was also interesting and called me back to school. 
Following law school, I joined American Commercial Lines (ACL) as 
counsel and found that a mix of real world operating experience 
combined with a technical and legal education was valued by management. 
My assignments continued to grow in scope and responsibility including 
chief legal officer and ultimately senior vice president for 
transportation services-marine operations. Next, I joined MERS Economy 
Boat as president & chief operating officer where I had general 
management responsibilities for the company's fuel and vessel supply 
operations on the Mississippi River and Gulf Coast.
    During my maritime industry career, I have had the opportunity to 
work with the conference freight bureau and all of the related 
antitrust issues, and most importantly, during the transition period in 
the inland marine industry as regulated cargos moved first by tariff, 
then by ``independent action'' and then under ``service contracts". I 
have experience working with ports and terminals and understand the 
issues affecting shore side venues where cargos originate or are off-
loaded. I have also worked on commercial transactions with freight 
forwarders and ship brokers; now collectively called transportation 
intermediaries. I believe that these thirty plus years of experience 
serve as a solid foundation from which I may review and judiciously 
consider the mission, objectives and matters that come before the 
Federal Maritime Commission.
    As I related in my written material for your staff, I see three 
areas that are current and longer term challenges for the Federal 
Maritime Commission:

  <bullet> Job one is the current global recession and its impact on 
        the consumers, shippers, carriers, ports, ocean transportation 
        intermediaries and all of the many workers and tradesmen who 
        have reduced or lost employment opportunities. The Commission 
        must carefully monitor rate activity and reduce non-value added 
        cost burdens when and where possible. Shippers need lowest cost 
        transportation solutions, ocean transportation intermediaries 
        need regulatory oversight that is as efficient as possible and 
        carriers need some opportunity to earn a minimum return. Last, 
        an efficient and healthy international marine transportation 
        system will offer renewed employment to U.S. workers.

  <bullet> Some trade lanes have seen increased levels of controlled 
        carrier capacity. The Commission will want to be diligent in 
        monitoring trade, service and rate activity in these trade 
        lanes with a focus on identifying any emerging abusive 
        activity.

  <bullet> Third, looking to a brighter future, this recession will 
        abate and global growth will return. As trade volumes increase, 
        our ports will see congestion and will strain to efficiently 
        handle the volume. The FMC can begin to model that growth and 
        assist with efficient regulatory processes that can facilitate 
        the seamless movement of container trade through ports--perhaps 
        up the Mississippi River to further inland ports--and provide 
        opportunity for all of the stakeholders in our maritime 
        community.

    I close with an acknowledgement and sincere thanks to Chairman 
Lidinsky for his help with this process as well as Commissioner Dye and 
her assistance. I am truly grateful to President Obama for this 
nomination and the opportunity to serve. If confirmed, I look forward 
to working with my fellow Commissioners as well as working with each of 
you and your staff.
    I thank you for your courtesy and attention and welcome any 
questions you might have for me.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Michael Abraham Khouri (1975 to present).

        Michael Joseph Khouri (1949 to 1975).

        (My brother and I changed our middle names to honor and 
        remember our then recently-deceased father).

        Mike Khouri.

    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of Nomination: December 2, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Pedley & Gordinier PLLC, 1484 Starks Building, 455 
        South Fourth Street, Louisville, KY 40202.

    5. Date and Place of Birth: October 31, 1949; Louisville, KY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Sandra Willis Khouri (MBA homemaker); children: Aaron 
        Michael Khouri, age 22; Benjamin Eli Khouri, age 18.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BA, Economics, 1971, Tulane University.

        JD, 1980, Brandeis School of Law--University of Louisville.

        Advanced Management Program, 1996, Harvard Business School.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Crounse Corporation
        Paducah, KY
        Deck crew and 2nd engineer, 1971-1974
        Pilot and Captain, 1974-1978.

    Discussion: Crounse operates commercial towing vessels on the 
Mississippi and Ohio River system. Serving as crewman and navigating 
officer on marine vessels provides me with first hand experience and 
understanding of operational issues that arise in and around ports and 
terminals.

        American Commercial Lines, Inc.
        Jeffersonville, IN
        Law Clerk, 1979-1980
        Counsel, 1980-1982
        Counsel & Assistant Secretary, 1982-1984
        General Counsel & Secretary, 1984-1988
        Vice President--Law, 1988-1990
        Senior Vice President, General Counsel & Secretary, 1990-1994
        Senior Vice President-Corporate & Legal Affairs, 1994-2000
        Senior Vice President-Transportation Services, 2000-2002

    Discussion: ACL was, during the relevant years, the largest U.S. 
marine company operating commercial towing vessels on the Mississippi 
River and Gulf Intracoastal Waterway. ACL originated and delivered 
cargo to public ports and terminals in New Orleans, Houston and 
throughout the referenced waterways. As counsel, I reviewed and handled 
a variety of maritime issues, including ACL's participation in rate 
conference matters, tariff and independent action freight agreements, 
port and terminal contract agreements and other related issues. As 
SVP--Corporate & Legal Affairs, I managed a staff of twenty 
professional associates in the areas of law, government/public affairs, 
corporate secretary, environmental compliance, insurance/risk 
management, strategic planning/business development, and internal 
audit. All of these endeavors were within the context of marine 
transportation in and between ports and terminals. As SVP--
Transportation Services, I had operating responsibility for 
approximately 2,000 vessel officers, engineers, crewmen and shore side 
personnel. The fleet comprised 200 towing vessels and 5,000 barges. 
These management responsibilities and experiences provide me with 
insights and understanding of a variety of issues involving cargos 
moving through marine ports and terminals.

        MERS Economy Boat
        Memphis, TN
        President and Chief Operating Officer, 2003-2005

    Discussion: My primary duties with MERS included business 
development, company expansion through mergers and acquisitions and to 
manage back office operations, credit facilities, insurance and risk 
management.

        Attorney/consultant
        Memphis, TN
        2005-2007

    Discussion: Advised a group of investors on a start-up ship 
building facility.

        Pedley & Gordinier PLLC
        Louisville, KY
        Member, 2007 to present

    Discussion: I currently work on commercial and financial 
transactions in the private capital and equity area.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Appointed as a Member of the Kentucky Film Commission by Gov. 
Steven Beshear, 2009.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Member, Pedley & Gordinier PLLC, law firm, 2007 to present.

        Attorney/consultant practice, 2005-2007.

        President and Chief Operating Officer, MERS Economy Boat, 2003-
        2005.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        St. Luke's Episcopal Church, 1985-2002; Vestry, Lay Reader and 
        Parish Chancellor.

        Owl Creek Country Club, 1992-2002.

        Church of the Holy Communion, Episcopal, 2003-2009; Lay Reader.

        Chicasaw Country Club, 2003-2005.

        American Waterways Operators Association, Alternate company 
        delegate 1990s; Member, Board of Directors, 2004-2005.

        Waterways Council, Inc, 2004-2005; Member, Board of Directors.

        Maritime Law Association of the United States, 2008 to present.

        Conference of Freight Counsel, 2008 to present.

        Transportation Lawyers Association, 2008 to present.

        The Honorable Order of Kentucky Colonels; Commissioned by 
        Governor Carroll in 1976; Member, 2008 to present.

        Fraternal Order of Police Associates, 2008 to present.

        Louisville Business Nexus, 2008 to present.

        None of the listed organizations restrict membership on the 
        basis of sex, race, color, religion, national origin, age, or 
        handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Bush for President, Inc.--08/06/1999, $500

        Ann Northup for Congress--10/25/2000, $500

        Northup for Congress--06/05/2001, $500

        Missourians for Kit Bond--06/23/2003, $500

        Bush-Cheney '04 (primary) Inc.--04/12/2004, $1,000

        Friends of Jim Oberstar--04/22/2005, $500

        American Commercial Lines Good Government Fund--1999 $1,700; 
        2000 $1,750; 2001 $1,800; 2002 $1,850

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        1979-1980, Journal of Family Law, Brandeis School of Law--
        University of Louisville.

        1995, Department of Transportation, United States Coast Guard, 
        Public Service Commendation, from Rear Admiral J.C. Card for 
        service with the American Waterways Operators and United States 
        Coast Guard task force to develop effective ``non-regulatory'' 
        processes to improve safe vessel operations on U.S. flag 
        vessels.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Transporting Minerals by Water'', Kentucky Mineral Law, 
        Banks-Baldwin, 1986.

        ``Floods, Droughts, Ice, River Closures: Operational, 
        Contractual and Insurance Issues'', Thirteenth New Orleans 
        Maritime Seminar, Tulane Law School, 1994.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    1986 (approx), I gave a prepared statement and testimony to the 
U.S. House of Representatives, Committee on Merchant Marine and 
Fisheries, on behalf of American Commercial Lines. The testimony 
concerned the Department of Transportation, Maritime Administration 
Title XI loan guarantee program and then pending legislation to amend 
the rules and requirements for marine companies to qualify for program 
loan guarantees.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Thirty-eight years ago, I first boarded a commercial marine vessel. 
Since that time, I have had the opportunity to serve in marine vessel 
operating and management positions that involved a wide range of issues 
including conference freight tariff matters, cargo service contracts, 
antitrust exemptions and compliance, port and terminal contract matters 
and all of the related legal issues that flow from these matters. I 
believe that this experience will allow me to bring a broad and 
practical perspective to the mission, programs and objectives of the 
Federal Maritime Commission.
    I wish to serve as a Commissioner with the FMC because the position 
would allow me to contribute the combined sum of my marine operating, 
legal and business experience back to the broad maritime community, its 
diverse stakeholders and the public who rely on an efficient, 
competitive and reliable marine transportation system.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I would be responsible for working with the Chairman, who has 
direct supervision of all staff functions, and the other Commissioners 
to regularly review the management practices, procedures and accounting 
controls being utilized to ensure that the Commission: (i) maintains a 
fair, open, equitable and productive work environment, (ii) utilizes 
the human resources assigned in an efficient manner, and (iii) has 
audit processes and policies that provide reasonable assurance to the 
Chairman and the Commissioners that waste, fraud or abuse has been 
eliminated. As referenced in response to Question A8, I managed a 
fairly large and diverse workforce at American Commercial Lines. As 
SVP--Corporate and Legal Affairs, I was responsible for all legal, 
environmental, general corporate and audit compliance for an 
organization that involved approximately 4,000 employees working on 
hundreds of vessels, numerous cargo terminals and ship construction and 
repair facilities throughout the Mississippi River System, the Gulf of 
Mexico, the Orinoco River in Venezuela and the Parana/Paraguy River 
system running from Brazil to Buenos Aires, Argentina. As SVP--
Transportation Services, I had day-to-day operational responsibility 
for approximately 2,000 crew men and women, engineers, pilots, 
captains, and all of the related shore side management and support 
personnel.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The current global recession has hurt all sectors of the economy 
and all of the stakeholders in the broad marine community including 
shippers, ocean transportation intermediaries, ports and carriers. 
There is pressure on general container rate levels and pressure on 
shippers to provide goods at lower delivered costs. Ocean 
transportation intermediaries compete in a market where lower cost and 
higher service levels are required. The ports currently face cost 
pressure and decreased volume. In this overall economic environment, 
the Commission will be challenged and must be diligent in monitoring 
all conference and discussion agreements for abusive practices while 
assisting all constituents in finding regulatory initiatives that can 
facilitate lower costs for all stakeholders.
    On a brighter note, published reports predict, long term, that 
international trade through U.S. ports will double from the 2002 levels 
by year 2020. As the recession eases and trade volumes increase, the 
ports will be straining to efficiently handle the volume. The 
Commission will be challenged to assist with efficient regulatory 
processes that will protect consumers, facilitate the rising tide of 
container volume and provide opportunity for all public ports, ocean 
common carriers and ocean transportation intermediaries to provide 
coordinated and efficient service.
    Some trade lanes have experienced increased levels of controlled 
carrier tonnage capacity. The Commission must be diligent in monitoring 
trade, service and rate activity in these trade lanes with a view to 
identifying any emerging abusive activities.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I receive a pension payment from American Commercial Lines' 
qualified pension plan.
    I have deferred compensation in the CSX Executive stock Trust, 
administered by SunTrust Bank. This program began regular scheduled 
plan distributions to me in July 2009 and such distributions will 
continue on six-month intervals through January 2013.
    For a period of up to 12 months following my departure from my law 
firm, the firm will continue to pay me a fixed percentage of client 
fees for services I previously provided, to the extent that my former 
clients pay those fees during such 12-month period.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    None, in my reasonable judgment. However, in my effort to provide 
full responses to all questions, I note that a party in a proceeding 
wherein American Commercial Lines and/or American Waterways Operators 
were a party(s), then there could be an appearance of a conflict.
    I served as an officer of American Commercial Lines from 1980 to 
2002. Further, I was an officer of ACL during a period that both ACL 
and SeaLand Services were wholly owned subsidiaries of CSX Corporation. 
CSX divested its controlling interest in ACL in 1998 and divested all 
of its interest in SeaLand in 1999.
    I served as a member of the Board of Directors of American 
Waterways Operators Association in 2004-2005.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 2003, 2004 and 2005, I participated with other marine company 
executives in meetings with various House and Senate members and staff 
that were arranged and scheduled by the Waterways Council and the 
American Waterways Association. The purpose of these meetings was to 
educate the Members and staff of the importance of our inland river 
system and the need to fund lock and dam construction projects.
    In 2004, I participated with other marine and rail executives in 
meetings with various Illinois State House and Senate members and 
staff. The purpose of these meetings was to educate the Members and 
staff on the adverse economic impact of proposed state legislation that 
would have significantly raised taxes on fuel sold in Illinois to 
interstate marine and rail carriers and to oppose the adoption of such 
tax.
    In 2008 and 2009, I had several conversations and e-mail exchanges 
with various Kentucky State House and Senate members and staff in Gov. 
Steven Beshear's administration concerning proposed legislation to 
provide economic incentives to attract film and television production 
projects to Kentucky. The purpose of these communications was to 
educate the Members and staff on the economic benefits that the film 
industry could provide to Kentucky and to support the adoption of the 
economic incentive legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In the event either American Commercial Lines or American Waterways 
Operators was a party to a matter before the Commission, I would ask 
all parties if they reasonably believed that a conflict or appearance 
of a conflict existed if I participated in the matter. If yes, then I 
would recuse myself from the matter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have not, in my personal capacity, ever been involved as a party 
in an administrative agency proceeding or civil matter.
    American Commercial Lines was a diverse marine transportation, 
cargo terminal and ship construction/repair company. The company was 
involved with the normal array of administrative agency proceedings and 
litigation. Administrative agency proceedings included permits with the 
U.S. Army Corps of Engineers, operational and safety issues with the 
Department of Transportation--U.S. Coast Guard, compliance and 
enforcement proceedings with the Environmental Protection Agency, 
complaint/dispute proceedings with the Equal Employment Opportunity 
Commission, and disputes before the National Labor Relations Board. 
Civil litigation included crew and shore side personnel injury and 
death cases, cargo damage/loss litigation, freight contract dispute 
matters, ship construction warranty and repair claims, wrongful 
discharge from employment claims and general contract dispute matters.
    MERS Economy Boat was a regional supplier of marine fuels, 
lubricants and vessel supplies to marine companies along the 
Mississippi River and Gulf Coast. During my tenure, I recall only two 
matters; both involving an alleged work place injury by a vessel crew 
person.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. All nominees' statements are, by definition, 
included in the record.
    Mr. Khouri. Thank you, sir.
    The Chairman. Either as given or as presented or, if they 
converge, much easier.
    I'd like to open, maybe talking with Ms. Brill and Ms. 
Ramirez, about regulation and its role.
    You used an interesting phrase, Ms. Brill, when you said, 
``I have an obligation to balance the needs of all 
stakeholders.'' And to say anything else would be foolish. On 
the other hand, doesn't always work out like that, does it? And 
what I'd like to ask both of you is, Where there is a 
relatively close call on some regulation--and you know the 
kinds of things we've been doing here in the Commerce 
Committee, they're the kinds of things that interest you; the 
Federal Trade Commission, will interest you, if confirmed--as 
to how you approach that, because it's an area that deals with 
sharp-edged matters, hard matters, matters where stakeholders 
really do have very different opinions, and sometimes some are 
very right, and sometimes they're not very right, and sometimes 
it's very close--and you both have such enormous experience in 
these matters, I'd just be interested, how do you approach, 
with an open and fair mind, something which may be close, or 
may not be so close, just as a matter of your own individual--
each of your own individual styles?
    Ms. Brill. Thank you, Mr. Chairman.
    It's a very interesting question. And I do think, in 
focusing on consumer protection issues, which is what the 
Federal Trade Commission does and is the premier agency for 
doing, it's very important to hear from all stakeholders and to 
gain an understanding of the implications of contemplated 
action for all stakeholders that might be involved in an 
activity, whether it's law enforcement, regulation, or 
guidances.
    Your question, though, focused on the issue of what happens 
when it's a close call? How do we decide? Which way do we go? 
Often, a consumer protection agency will be the last bastion to 
stand up and take action on behalf of consumers.
    Having said that, one needs to carefully consider the 
short- and long-term implications of any action you might take. 
So, in the event that you decide to take some action, it is 
important to see whether there are intermediate steps that can 
be taken short-term steps that will allow one to assess the 
activity as it goes on, the implications of the efforts, going 
forward. In addition, one should also assess what other law 
enforcement agencies may be doing. Have there been other 
entities--state attorneys general, local law enforcement--who 
may have approached similar issues? What has the result of 
those activities been?
    There's not one answer to the question, because it's such 
an important and broad question. I think it's very important to 
approach ``close calls'' carefully, look at all stakeholders, 
and then see if there are measurements that one can take as one 
goes along, to assess whether you have gotten it right. And, if 
not, to assess adjustments that can be taken.
    The Chairman. Thank you.
    Ms. Ramirez.
    Ms. Ramirez. Thank you, Mr. Chairman.
    I would approach such an issue in the way that I approach 
most of the things that I've done over the course of my career, 
and that is with an open mind and by looking at all sides of an 
issue.
    Specifically, here, of course, the task would be to weigh 
the benefits of any particular rule or regulation against the 
potential burdens that might be placed on business activity, 
and also to understand the impact that it would have on the 
marketplace overall.
    The ultimate mission, of course, of the FTC is to ensure 
that the welfare of consumers is advanced. So that, ultimately, 
would weigh very heavily on my mind. But, again, I would 
approach it by looking at all sides of the issue, weigh the 
pros and cons, and then reach what I would hope would be a wise 
decision.
    Thank you.
    The Chairman. My time is about expired. And I like those 
answers. But, you know, sometimes you don't have the luxury of 
enough time. If you're like any one of us who are or are not 
around this dais, there are 50 to 500 things on you at once, 
and your mind is overwhelmed with choices and decisions, 
nuances that must be defined, and then your own feelings, which 
must be brought into that without prior prejudice to assert a 
point of view that you previously had brought. On the other 
hand, you can't discount that everybody is who they are, their 
experiences are who they are.
    So, what I hope you had, but fear you will not have, is the 
time to make those carefully thought-through considerations on 
a yellow legal pad, et cetera.
    But, having said that, I don't worry about it, in either of 
your cases, because I think you've both had so much experience. 
But, it is an important question. How do you make a decision, 
with not enough time and with a lot of pressure?
    I yield now to the distinguished Ranking Member, Senator 
Hutchison.
    Senator Hutchison. Well, thank you, Mr. Chairman.
    Let me first ask a question that is my responsibility to 
ask of all our nominees, and that is that we have enjoyed, from 
all of our nominees, cooperation with our staffs as we exercise 
our responsibility for oversight of all of your areas, and I 
would ask if each of you would agree to work with our staffs, 
as well as the majority staff, when we have questions about 
areas that we need to have information about for our 
responsibilities.
    And I'd like to ask all of you to answer that.
    Ms. Brill. Shall I go first?
    Senator Hutchison. Yes.
    Ms. Brill. Thank you, Ranking Member Hutchison.
    Yes, I will, along with my fellow Commissioners, if I'm 
confirmed, be very happy to work with you and your staffs, as 
well as all the other staffs of the members of this committee, 
on any issue that you would like to discuss.
    Senator Hutchison. Thank you.
    Ms. Ramirez. I, too, am committed to working closely with 
this committee, if I'm confirmed.
    Senator Hutchison. Thank you.
    Mr. Strickland. If confirmed, it will be my responsibility 
and my honor to do so, Ranking Member.
    Thank you.
    Senator Hutchison. Thank you.
    Ms. Lamb-Hale. Ranking Member Hutchison, I look forward to 
collaborating with you and your staff on any matters that are 
of interest.
    Senator Hutchison. Thank you.
    Mr. Khouri. Ranking Member Hutchison, the answer is yes.
    [Laughter.]
    Senator Hutchison. Thank you.
    I have a question for Mr. Strickland. Senator Brown and I 
have introduced legislation on bus safety, which is, thanks to 
the great work of the Chairman and also Senator Pryor and 
Senator Lautenberg, going to be on the markup this Thursday. 
And I would just ask you if you would commit to making bus 
safety one of the priorities at NHTSA?
    Mr. Strickland. Absolutely, Senator Hutchison. The 
Secretary himself has already made it an incredibly high 
priority--the action plan, that I know has been shared with 
you, your staff, and with Chairman Rockefeller and the staff, 
as well. We know that it is an incredibly high priority, 
because of all the issues that have happened in your state and 
nationwide regarding motorcoach safety. And it is absolutely an 
imperative, if confirmed, that NHTSA will take this to be a 
very top priority.
    Senator Hutchison. I do think that the first efforts in 
that regard are very, very good, and we want to give you the 
legislative backup to strengthen what has been started there.
    I'd like to ask the two nominees for the FTC about the 
efforts that are being made at the FTC to streamline the 
rulemaking authority for the FTC. And this is a concern to some 
because there is such a responsibility across so many 
industries, and it would be a very wide swath. Right now, it's 
a very limited streamlined authority that Congress has given to 
the FTC. And, in general, the FTC has been required to have a 
much more rigorous rulemaking and time-for-comment-period 
approach to its regulations.
    So, my question to you is, how do you respond to the 
concerns that just a broad rulemaking streamlining would be 
really too much authority for the broad responsibilities that 
the FTC has?
    To both of you.
    Ms. Brill. I'll go first again. Thank you, Ranking Member 
Hutchison.
    There are high expectations placed on the FTC to address 
emerging consumer protection issues. I think these expectations 
are appropriate. The FTC is the Nation's premier consumer 
protection agency. And as emerging issues, exigent issues, face 
the Federal Trade Commission, the question is, whether the FTC 
has the appropriate tools to expeditiously meet these 
expectations.
    I think this is a very important question. I think that I'd 
like to study the areas where the FTC hasn't felt that it has 
had the ability to react quickly to market conditions, to 
issues facing consumers, and then to discuss with you whether, 
in those circumstances, or more broadly, it would be 
appropriate to have more streamlined rulemaking authority in 
order to respond appropriately to consumers' concerns.
    Senator Hutchison. Thank you.
    Ms. Ramirez?
    Ms. Ramirez. I'm aware that the agency has requested 
broader authority in this area, and I think there are strong 
arguments to be made that it's appropriate for the agency to 
have greater flexibility and to have a more streamlined 
approach to address problems that are emerging, to address new 
business practices that might be developing.
    But, I'm also aware of the concerns, that I think are 
legitimate, that are raised on the other side, and that, given 
the broad mandate and broad jurisdiction of the FTC, that kind 
of authority ought to be used and given very judiciously. So, 
if I am confirmed, it's an issue that I will think about very 
closely and look forward to having a further dialogue with you 
and the members of this committee on the issue.
    Senator Hutchison. Thank you. Thank you very much.
    And my time is up. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Begich, you're next. But, before, if you will grant 
me that courtesy, Senator Pryor has two extremely important 
meetings he has to go to, and he has one or two very important 
things he wants to say.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you.
    The Chairman. At least that's what he told me.
    [Laughter.]
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Begich. I told you the same thing.
    [Laughter.]
    Senator Begich. I have no problem, Mr. Chairman.
    Senator Pryor. I'll take 30 seconds or less. Thank you.
    I just want a moment to congratulate David Strickland, 
here, on his nomination. He's going to do a great job there, 
and I've always enjoyed working with him on this committee, and 
I look forward to working with him while he's there.
    And let me just give the Committee one very quick 
statistic, and that is that, a year ago, there were 162 toy 
recalls; this year, there has been 38. And that's because of 
the Consumer Product Safety bill that David drafted and we all 
worked on. And, in the same vein, last year, there were 85 lead 
toy recalls, and this year there has been 15. So, what he's 
done, his leadership, his vision, he's been able to do for this 
committee, he's going to do it there at NHTSA. And I just look 
forward to working with you.
    Mr. Strickland. Thank you.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    David, I know they commented on your applause line when you 
came in. It was amazing to me. But, I know our interview that 
we had, or our discussion, was very helpful for me because I 
had not worked with you much, from the Commerce Committee 
standpoint. But, I want to ask you a couple of questions, then 
I have some for the FTC folks.
    But, let me first, on two issues that are important, at 
least from my perspective, not only in Alaska, but across the 
country, and that's on distracted drivers and the impacts that 
is having on a variety of things. And I want to see if you 
could give me a few of your thoughts on how you see your new 
role, how you might combat that issue of distracted drivers. 
It's not just cell phone and texting, but I think there's a lot 
of activity that goes on that, you know, you wonder how they're 
driving, let alone seeing what's in front of them. So, could 
you give me a little commentary of how you might approach that 
in your new position?
    Mr. Strickland. Certainly, Senator Begich. Thank you so 
much for the question.
    The issue, as was addressed in the hearing held by this 
committee, and Chairman Rockefeller's thoughts in his 
legislation, along with Ranking Member Hutchison's and a number 
of the members of the Committee, it is a very broad-ranging 
problem that takes a lot of approaches; not simply just a 
technological one, but also there are issues of behavior, 
training, and education.
    And, if confirmed, I know that, in terms of working with 
this committee and the rest of the Congress, and working with 
the Secretary, taking comment and--you know, and exchange with 
the NHTSA staff, you know, for me to be able to culminate the 
resources I need to make my decision and my recommendation to 
the Secretary, this is an issue that is, as you said, much 
broader than cell phones; it is people fixing their hair, it's 
drinking a cup of coffee, it's playing with the radio, it's 
having a conversation with somebody in the backseat. It's all 
of these things that, for us as a country, we have to be able 
to think about in a much more pervasive fashion. And, if 
confirmed, I will definitely make sure the approach is very 
pervasive.
    Senator Begich. Thank you very much.
    And let me, if I can, bring up another issue with driving 
is the folks, you know, that are impaired--maybe alcohol or 
drugs or misuse of their own prescription drugs. Can you give 
me some thoughts on what you think there. I can tell you, you 
know, from Alaska's perspective, you know, the work that, 
nationally, has been done, but also in our State and locally 
has been done, has had a huge impact on the bottom line, saving 
lives and lessening the injuries on the street. And I know one 
thing we did, when I was mayor, we increased our traffic 
enforcement unit on the police department. And I know I had a 
lot of people back home that really didn't appreciate that when 
I was mayor, but----
    [Laughter.]
    Senator Begich.--I always remind them, ``If you're not 
doing anything wrong, you never have to worry.'' But, we 
reduced fatalities by half in less than 2 years by the actions.
    Do you see, from the--I guess, first, general commentary, 
and then do you--How do you see some connectivity to our police 
departments that you might see in our local governments of a 
role that you might play, or your agency might play?
    Mr. Strickland. Well, the agency has, historically, a 
pivoted and partnered role with the States and with the 
localities on this issue. And, you know, the work on impaired 
driving is something that is always ongoing, and it has to be a 
multifaceted approach, just like distracted driving. You know, 
technology--I know that, you know, there are members of this 
committee that are very interested in dealing with 
technological solutions, and they're very important. There's 
also the behavioral side of things, trying to deal with 
treatment, trying to deal with the other issues in part of law 
enforcement. And so, it's enforcement.
    All these things are incredibly important, and it is 
especially important for NHTSA to partner and liaison with the 
States and localities, in terms of not only enforcement, but in 
dealing with behavioral issues, in order for us to be able to 
really deal with the recidivist driver. Because they've done--a 
very good job has been done with social drinking; not as good 
with recidivism.
    Senator Begich. Very good, thank you.
    As I had mentioned to you when you were in my office, we 
look forward to having you up to Alaska. We will not bring you 
up in December or January.
    [Laughter.]
    Mr. Strickland. Thank you, Senator.
    Senator Begich. But, February's not bad.
    [Laughter.]
    Senator Begich. No--but, I look forward to seeing you in 
your new position.
    To the two folks from the FTC--let me, first, say to all of 
you, I'm a believer that the President has his team, he 
appoints them. I'm looking forward to seeing you all serve. 
And, you know, his success is based on your success, or his 
failure is based on your failure. So, it's all on your 
shoulders, so I just wanted to make that very clear.
    [Laughter.]
    Senator Begich. But, to the FTC folks, one of the things 
I've always said when we've had hearings in the past, with the 
FTC folks, and some of the things that come up is the lack of 
knowledge by the everyday consumer of how to get access to your 
information, how to get the FTC to be a better partner in 
understanding what's wrong, all the items of the toys and so 
forth. Do you see an additional role that you can do to help 
expand consumer awareness of what you do, to the everyday 
consumer? I mean, not the ones that seek out all the time, 
because we want to, like myself, but there are everyday 
consumers who just have no idea what the FTC does. Can you--
whoever wants to start first.
    Ms. Ramirez. Thank you, Senator.
    One of the priorities, for me, is precisely to address that 
very question, because most everyday Americans really don't 
know much about what the FTC does. The agency, however, does 
have a very broad partnership with both, of course, State and 
local law enforcement agencies, as well as with community-based 
organizations. But, I think more can be done in that regard in 
order to ensure that the message about consumer awareness is 
expanded and is amplified, as well. So, that's one of--a large 
priority for me. This is something that I've done a fair amount 
of in my community in Los Angeles, and I hope to work with the 
FTC to ensure that it reaches ordinary Americans that can 
benefit from the consumer awareness programs that it has.
    Senator Begich. Very good.
    Ms. Brill, if you could be very quick, because I've run out 
of time.
    Ms. Brill. Sure. I agree with Ms. Ramirez, and I know--
because she and I have discussed this--we agree that the FTC 
should consider leveraging resources, working with other 
community agencies, particularly reaching out to vulnerable 
populations as a Federal agency working alone, it might be 
difficult to reach the consumer, but through visiting nurses' 
associations and other entities that are really going into 
individuals' homes, the FTC can reach a broad population that 
really is needy of information and assistance.
    Senator Begich. Very good, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator LeMieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Mr. Chairman, thank you very much.
    And, to all of the nominees today, I want to thank you. I 
want to thank you for submitting yourself to public service. I 
know that you can make a lot more money in the private sector, 
and I appreciate the fact that you've put yourself forward for 
public service to start with, or continued public service.
    I want to start with Ms. Brill. We had a nice conversation, 
talking about consumer protection issues. And, while we did not 
specifically work together when I was in the Attorney General's 
office in Florida, we've worked with people who have worked 
with each other. And I want to commend you on your years of 
public service, and thank you for putting yourself forward.
    And I want to discuss what we discussed a little in my 
office, which is--Mr. Chairman, despite the great reputation of 
the Federal Trade Commission, the truth is--to be candid, is, 
that many attorneys general's offices believe that the FTC is 
not active enough on consumer protection issues, and many of 
the larger, more involved attorney generals' offices see that 
they are on the forefront of consumer protection, and not the 
FTC.
    So, I want to direct that question, as we discussed in my 
office, Ms. Brill, about how you think that you can amp up the 
efforts of the FTC in this very difficult, changing world. We 
just had a hearing on this click-and-scam problem, where people 
will sign up on a website, give their credit card information, 
and then that company will sign up with some other third-party 
scamming operation, which will then take their credit card 
information and charge against it. So, this is a ever changing 
world with technology, and we need a good consumer protection 
agency.
    Ms. Brill. Yes, thank you for that question, Senator 
LeMieux. And I did appreciate our conversation in your office. 
As I had mentioned to you, the State AGs are very, very active 
on consumer protection issues, and I believe the Federal Trade 
Commission has been doing a wonderful job on consumer 
protection efforts, particularly of late. And on some level, we 
all wish we could have done more to avert the economic crisis. 
I know folks at the FTC feel that way, and I know folks in the 
State AGs offices feel that way, as well.
    Going forward, I would say that the Federal Trade 
Commission should have more information from the States about 
what everyday consumers, as Senator Begich has mentioned--you 
know, the bread-and-butter concerns of everyday consumers. 
States and localities are well-positioned to hear this 
information, but sometimes it doesn't trickle up to the FTC. 
So, if there could be better communication, better data-
sharing, I think that would help the Federal Trade Commission 
focus on the emerging issues that are affecting consumers.
    Senator LeMieux. Thank you.
    Ms. Ramirez, I've looked over your qualifications, and you 
have very impressive qualifications. And as a former private-
practice lawyer, I appreciate the work that you've done. Could 
you speak--because I didn't see it as much on the information I 
have--about the consumer protection work that you've been able 
to accomplish in your career?
    Ms. Ramirez. I've been very active--actively involved in 
the Los Angeles community, working with various nonprofits, 
and, in particular, in the legal services arena, so I've been 
affiliated with organizations that assist people who do not 
have access to legal services, among other areas in the area of 
consumer protection. So, I'm very well aware of the need for 
enforcement in that arena, and I feel that my background in 
that will enable me to ensure that the mission of the FTC is 
advanced.
    Senator LeMieux. Thank you.
    Mr. Strickland, you and I didn't have a chance to work 
together, but I like you already.
    [Laughter.]
    Mr. Strickland. Thank you, Senator.
    Senator LeMieux. I appreciate all of the folks--your 
family--who have come to support you today, and the staff 
obviously has a great affection for you.
    I'm going to ask you a question which you probably didn't 
expect, and I ask it as a former staffer who became a United 
States Senator.
    The oversight for you, in your role, will be from the 
Committee that you once served on. Do you think that you can be 
independent? Do you think that you're going to be able to tell 
Chairman Rockefeller that--if you disagree with him, that you 
do? It's probably a challenge that most folks don't have to 
worry about, but you are so close to this committee. So, it's a 
friendly question, but it's one I wanted you to think of, as 
someone who had to think through those issues just recently, 
myself.
    The Chairman. And I will be listening very carefully.
    [Laughter.]
    Mr. Strickland. Senator LeMieux, I can absolutely assure 
you that I will be able to maintain my--I will know my role 
fully as NHTSA Administrator; that is, my responsibility to be 
the Secretary's point man, the President's point man, on auto 
regulation and auto safety for this country. And it will be my 
role to take a look at the evidence of the data, confer with 
the staff, and make decisions.
    In terms of being independent and disagreeing with the 
Chairman, I'll be honest with you, sir, I've had disagreements 
with the Chairman personally.
    [Laughter.]
    Mr. Strickland. But, he signs the paycheck, and he wins.
    [Laughter.]
    Mr. Strickland. But, I will have no problem with that at 
all, sir.
    Senator LeMieux. Right, OK.
    My time is up. Thank you, Mr. Chairman.
    The Chairman. Those were very good questions. And they--no, 
no, but they were, typically.
    Senator LeMieux. Thank you.
    The Chairman. Your questions are always good. And it does 
bring out to me two things--and I'm interrupting you, Senator 
Thune. I'd, please, apologize. Senator Begich is accustomed to 
that now.
    [Laughter.]
    The Chairman. One of the marvelous things about working in 
the Congress is that you become absolutely expert in very 
specific areas, very broad areas, somewhere in between. But, 
you really know your stuff. People out there in the country 
don't know that. They don't know the power of staff, the power 
of the staff minds and their ability to influence, quite 
properly, the Senators with whom they work. It's as it should 
be. And we have to use our own instincts and facts and figures, 
ideas, with whom we work.
    But, it's also, I think, one of the beauties of our 
democratic system that people like you, Mr. Strickland, do work 
here, and then you're called to serve in the Executive Branch. 
And that's a different perspective, and you become entirely 
independent. You're perfectly free to disagree with this or any 
other Chairman. And that's, you know, based upon the merits. I 
mean, you enter a different world in serving the Nation. And I 
think it's a wonderful progression for you and for others, for 
private citizens, to do this. And so, I thought they were very 
good questions.
    Senator LeMieux. Thank you, Mr. Chairman.
    The Chairman. Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    And I want to congratulate all our nominees, welcome you 
for being here today.
    And I do have a statement that I'd like to include in the 
record, if I might, Mr. Chairman----
    The Chairman. Absolutely.
    Senator Thune.--statement.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    I would like to thank the Chairman and Ranking Member for holding 
today's nominations hearing.
    The nominees before the committee today should be congratulated for 
their nominations and thanked for their willingness to serve in the 
public sector.
    In particular, I'd like to welcome Mr. David Strickland, the 
President's nominee to be Administrator of the National Highway Traffic 
Safety Administration (NHTSA). David's eight here on the Consumer 
Affairs Subcommittee will serve him well in his new responsibilities as 
Administrator, and we congratulate you on your nomination.
    As Ranking Member of the Subcommittee on Surface Transportation and 
Merchant Marine, I understand the challenges we face in keeping our 
highways safe. One issue that has been of particular interest to me, 
and to this Committee, is the issue of distracted driving. I have 
joined with Chairman Rockefeller, Ranking Member Hutchison, and several 
other members of this Committee to introduce S. 1938, the Distracted 
Driving Prevention Act of 2009, which will help states combat 
distracted driving. It would provide incentives, and not penalties, 
which I believe is the best approach for states so that funding isn't 
restricted that is needed to build roads and make highways safer. I 
look forward to hearing Mr. Strickland's thoughts on this issue and on 
our legislation.
    I would also like to welcome Mr. Michael Khouri, who has been 
nominated to be a member of the Federal Maritime Commission (FMC). 
While my state of South Dakota is a landlocked state, I recognize the 
importance that maritime shipping plays in our Nation's economy, and I 
look forward to working with Mr. Khouri in my capacity as ranking 
member of the subcommittee that oversees the FMC.
    I would like to welcome Ms. Julie Brill and Ms. Edith Ramierez to 
the Committee. If confirmed as FTC Commissioners, you will play an 
important role within the Federal Government. From data security and 
identity theft, to mergers and acquisitions, to subprime lending, the 
role of the FTC cannot be underestimated and its actions impact the 
daily lives of all Americans. It is also important that all FTC 
Commissioners work closely and candidly with this committee as we move 
forward with consideration of an FTC reauthorization bill.
    Again, I thank all the nominees for their willingness to serve, and 
I look forward to working with you upon your confirmation.

    Senator Thune. I wanted to explore at least one issue here. 
I don't have a whole lot of maritime issues to cover, coming 
from South Dakota----
    [Laughter.]
    Senator Thune.--but--not that I'm not interested in those 
issues, by the way.
    One of the things I wanted to take up with you, Mr. 
Strickland--and you've been acquainted with this, obviously, 
being around here--but, distracted driving's become a real 
significant factor in road accidents and fatalities. In fact, 
in South Dakota distracted driving is especially dangerous for 
teenagers. The Department of Highway Safety estimates that, in 
2007, distracted driving was a factor in over 50 percent of the 
crashes involving teenage drivers. My question is, As 
Administrator, what will you do to address distracted driving 
among young drivers? And, of course, a follow-on to that would 
be the legislation, that many of us are co-sponsoring, that 
would provide grants to States to enforce distracted driving 
laws. Unlike some of the other legislation that has been 
introduced, this is an incentive-based approach. We don't 
threaten States with a loss of highway money. I think the 
approach works a lot better when you're not threatening, but 
using a carrot, rather than a stick. But, I'm just curious 
about your thoughts generally on the subject, and then maybe 
more specifically with respect to the legislation that the 
Chairman and others of us on the Committee have co-sponsored.
    Mr. Strickland. Senator Thune, the issue with teens and 
texting is an especially thorny one, because they happen to be 
the biggest adopters of texting, and they feel they can text in 
opportunities and times when they shouldn't be.
    The one issue which I know that the Administration itself, 
and the Secretary, is working on is graduated driver's 
licenses, where we are having teenagers drive with parents, and 
have supervised driving for longer periods of time before they 
are given a license to be driving freely and on their own by 
the age of 18. That's something I know the Secretary feels very 
strongly about. It's something I know that the Chairman himself 
feels strongly about, and was included in the legislation that 
you and him--and he wrote together. And I think that's 
definitely very much a strong first step.
    The other issues, I think, with that are tailed with 
enforcement issues, as we said before, in terms of 
incentivizing States to increase patrols and figure out ways to 
actually have, as a primary offense, being texting while 
driving--I think are two very important things, the behavioral 
side and the actual enforcement and technology side of the 
issues.
    Your second question, about incentives and sanctions--I 
think Secretary LaHood said it best: both work, and the issue 
ultimately is a policy one left to the Congress, in terms of 
the legislation that is received and ultimately signed by the 
President, in terms of reauthorization, or any other piece of 
legislation. As directed, if the States are having an 
incentive--incentives have worked, sanctions in the area of .08 
at age 21 have also worked. Both work. And I will enforce law, 
however it is delivered to me.
    Senator Thune. Well, and the thing I like about this 
legislative approach--and I think that the States prefer--I'm 
much more comfortable with the type of approach that is 
incentive-based, uses the carrot, rather than the stick. Both 
have been used, as you mentioned. So, thank you for your answer 
to that.
    Ms. Lamb-Hale, recently, Senator Klobuchar, who serves on 
this committee, and I held an Export Promotion Summit, in Sioux 
Falls, South Dakota, which focused on educating small and 
medium-sized businesses on export services that are available 
to them through the Department of Commerce.
    My question is, How can we better educate small and medium-
sized businesses about the opportunities that exist for them to 
reach outside the shores of this country? And I know there are 
lots of programs at Commerce, Ag, and USTR that focus on this. 
It seems like, at times, those--there could be a lot better 
coordination. And the thing that strikes me about some of these 
programs is, at least in my experience in South Dakota, a lot 
of the people who would benefit from them aren't aware they 
exist. And I don't know how you change that. We had this 
hearing--I should say it was a forum--that was designed to 
better inform and educate small businesses in our area about 
the opportunities that are available to them. So, your thoughts 
on that subject.
    Ms. Lamb-Hale. Thank you, Senator Thune.
    And I just want to say that--first, that the--export 
promotion has been a priority articulated by Secretary Locke, 
and it really is something that Manufacturing and Services, 
collaborating and connecting with industry--small and medium-
sized enterprises, in particular--is going to be something that 
I will focus on quite a bit.
    We have a number of programs that are available through the 
U.S. Commercial Service that I will work very closely with, if 
confirmed. There is a program that was--is now piloted in 
Detroit, in the Detroit area, CommerceConnect, with the goal of 
connecting small and medium-size enterprises to the resources 
that the Commerce Department has to help promote exports.
    There are a number of programs that are being done that 
collaborate across agencies. I had the opportunity, last week 
in Detroit, to participate in a program called ``Exports 
Live!'' which included representatives from the Commerce 
Department, from Eximbank, OPIC, and others, that really 
highlighted the services that are available.
    One of the things that I will want to do, if confirmed, is 
to really get outside of Washington and to educate small and 
medium-sized businesses about the benefits to their business of 
export promotion. Only 1 percent of the 30 million businesses 
in this country export, and we know that export promotion is 
directly tied to jobs. So, that will be my goal, to make sure 
that the word gets out and to connect industry to those 
resources.
    Senator Thune. I see my time has expired, Mr. Chairman.
    I thank, again, all our nominees for their being here today 
and for their willingness to serve.
    Thank you.
    Ms. Lamb-Hale. Thank you.
    The Chairman. Thank you, Senator Thune.
    I know what you mean about ``maritime.''
    [Laughter.]
    The Chairman. Although, Mr. Khouri, I want you to know 
that, including the East and the West Coast--Baltimore, Los 
Angeles, New York, Philadelphia, San Francisco, Houston--the 
seventh-largest port in the United States is called Huntington, 
West Virginia.
    Mr. Khouri. And I have piloted past the fine City of 
Huntington, West Virginia, many times.
    The Chairman. On a barge, or in a car?
    [Laughter.]
    Mr. Khouri. Both.
    The Chairman. Both, OK. But, it's interesting, you know. I 
mean, we're in the same situation.
    Mr. Khouri. Right.
    The Chairman. But, if you have a river called the Ohio, 
then all of a sudden you can become an extended port, feeding 
into the Mississippi and on down.
    First of all, I've forgotten to say that I want to include 
a statement by Senator Boxer. It's an opening statement that 
she had to make, and she couldn't be here, and I want to put 
that in the record, to make sure of that.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman and members of the Senate Committee on Commerce, 
Science, and Transportation, I am pleased to offer my support for Ms. 
Edith Ramirez, nominee for Commissioner of the Federal Trade 
Commission.
    Ms. Ramirez is a native Californian, born in South Laguna. She 
attended Harvard-Radcliffe College and upon graduating Magna Cum Laude, 
went on to Harvard Law School where she graduated Cum Laude in 1992.
    Following law school, Ms. Ramirez clerked for the Honorable Alfred 
T. Goodwin in the Ninth Circuit Court of Appeals in Pasadena, 
California. From 1993-1996, she worked as an associate at Gibson, Dunn 
& Crutcher, LLP, where she handled a wide variety of business 
litigation matters, including professional negligence, breach of 
contract, securities, and real estate-related litigation. Since 1997, 
Ms. Ramirez has been a partner at Quinn Emanuel Urquhart Oliver & 
Hedges, LLP in Los Angeles, California, where she has represented 
plaintiffs and defendants in intellectual property and complex business 
litigation, including copyright, trademark, antitrust, and business 
tort.
    The Federal Trade Commission serves as one of our country's most 
important consumer protection agencies. It protects both consumer and 
business rights in broad sectors of the economy. The FTC works to 
promote fair competition in the marketplace through the enforcement of 
antitrust laws, prevents the dissemination of false and deceptive 
advertising of goods, and provides educational tools for both consumers 
and businesses.
    Ms. Ramirez is well-qualified for the position for which she has 
been nominated. She has experience in the fields of antitrust and 
unfair competition, where she has represented both plaintiffs and 
defendants equally. She is well-respected amongst her law partners and 
in the Los Angeles legal community, and I am confident that, should she 
be confirmed, she will fulfill her responsibilities as a commissioner 
of the Federal Trade Commission with distinction, integrity and 
intelligence.
    I fully support her nomination and urge a quick confirmation.

    The Chairman. One question for you, Ms. Lamb-Hale, and then 
another--one question for you, Mr. Strickland.
    Like Senator Thune, well, like everybody, we're kind of 
buffaloed by this texting cell phone. And I think the cell 
phone thing is going to work itself out through technology, as 
people do this--what's it?--OnStar, as that becomes cheaper and 
more available, because that really solves the problem, except 
you only have 30 people you can call. And that's not really a 
lot. So, the temptation to have a phone there--and if you're 
driving, it's lethal.
    Then you take drinking. Drinking--I mean, you can always--
if you're telephoning and you're punching and you think you see 
something coming at you, you can always stop and start all over 
again after you continue to drive. Same with drinking. This is 
not a promotion for drinking, because I don't like drinking. 
But, there's a buzz, and then there's a stronger type of 
drinking, there's a stronger type of drinking, but it doesn't 
have an absolute, definitive all-of-a-sudden crash point. There 
can be avoidance.
    With texting, it doesn't work that easily. If you're 
texting, by definition, you're looking down in your lap and you 
have--I guess, if you're good, one hand working, or both hands 
working, and then the instance of the crash is just immediate. 
There's no second chance, there's no thought to back away and, 
``Whoops, stop that and I'll go ahead,'' because you just don't 
see anything, as with the others, you tend to, or at least see 
them, even if hazily.
    So, then it--I think I read some figure, either in 
yesterday's or today's paper, that something like 1 trillion or 
8 trillion e-mails or textings are done from cars. Could that 
be possible? You don't have to know. I mean, but it's a----
    Mr. Strickland. No, I mean, absolutely.
    The Chairman.--huge amount.
    Mr. Strickland. Absolutely. It is an enormous amount, just 
because the notion of texting and mobile telephony is just 
expanding.
    The Chairman. Yes.
    Mr. Strickland. The New York Times article, I think, a few 
weeks ago, talked about the evolution of the cell phone, when 
the originator thought that probably the best thing to happen 
at that point would actually have the phones lock out. And this 
was back in the early 1980s, when they first invented the 
technology within Motorola.
    The Chairman. Mr. Strickland, I want to finish my question.
    Mr. Strickland. Yes, sir.
    [Laughter.]
    The Chairman. I've had my history classes.
    [Laughter.]
    Mr. Strickland. Yes, sir.
    The Chairman. So, the question of teenagers is a really 
scary one. We see it in healthcare. They think they're never 
going to get sick, and so they don't have health insurance. And 
then, when they do get sick or hurt, they have to go to the 
emergency room, which is the most expensive form of healthcare.
    In this case, it's far more drastic. And a teenager is 
thinking that they are impregnable, that they can't make a 
mistake, that their reactions are so fine-tuned that they'll 
always be able to look up. It just isn't the case with texting 
and driving.
    So, the question is teenagers having that point of view 
about themselves, that they are invulnerable, that they'll 
always be able to make up for their lapses in time, they'll 
somehow come out all right, it doesn't work on texting. How do 
you get at that? You see--and I'll just say one more thing 
because my time is about to be up. But, anyway--Senator Thune's 
comment was very interesting, on the cell phone, I mean, we had 
this question of--you take away the State highway funds or you 
give State grants for doing well. I'm kind of in the middle on 
that, you know. I went along with what we're doing here, but I 
also see the advantage of the other, because through pressure, 
you break through. It's sort of like concussions. How could we 
have been so stupid to let our kids play football for so long, 
or these pros, and get these concussions, and then, at the age 
of 47, they've got Alzheimer's, and we're wondering why? I 
mean, you know, you've got this very advanced medical/
technological system, but we just totally miss some stuff. This 
one, we cannot miss.
    I'm not asking you for a biblical thing here, but give me a 
couple of ideas.
    Mr. Strickland. Nothing biblical, sir.
    Graduated driver's licenses, which is included in your 
legislation, which is having teens drive with parents longer in 
the training phase to make sure that good driving behaviors are 
learned on the road, directly from parents, who can observe and 
stop bad behaviors. The other opportunity is----
    The Chairman. Well, no, we've got to explain that, now. 
First of all, a lot of teenagers don't like to drive with their 
parents, and they don't like to be told that they're doing 
something wrong by their parents. All right? And so, there's 
that factor. Also, 2 weeks, in a world where texting is what 
you live by, doesn't seem to me like a lot. I don't want to be 
critical of our bill. I want to push the subject.
    Mr. Strickland. No, absolutely. And graduated driver's 
licenses, in terms of--it isn't a couple of weeks with a 
parent; it could be years with their parent behind the wheel 
before a teenager has an opportunity to drive independently, 
and that could be, you know, the type of training and teaching 
that is hands-on. Teenagers want to be cool, they want to drive 
by themselves. But, graduated driver's licenses, as 
incentivized by your bill and executed by States that have 
already put them into law, have been very effective in making 
sure that teens are learning better behaviors, not by reading a 
book, but driving with their parents.
    The other answer to your question, Mr. Chairman, is, just 
like drunk driving is seen to be incredibly--not only a not-
good thing, but actually a negative consequence that is seen by 
all, texting has to be the--seen the same way as drunk driving 
is to teenagers, in that opinion. And that is two of the cores 
to help get that number down.
    The Chairman. OK.
    Senator Begich, I'm finished. You had something you wanted 
to say. Please.
    Senator Begich. Absolutely not----
    The Chairman. No, no, you do.
    [Laughter.]
    Senator Begich. I actually have to get to the floor, Mr. 
Chairman, but I----
    The Chairman. All right.
    Senator Begich.--I will put my four questions--I'll submit 
them for the record.
    The Chairman. Very good, thank you.
    OK. This is huge. And I think it's one of those things 
which is going to have to sort of spread through deaths in the 
community. I mean, we don't seem to learn a lot about wars that 
way, because you sort of expect, when people go to war, that 
some are going to die. That's cruelly said, but it's factually 
true. But, you don't expect that in driving. And, again, 
teenagers, with their sense of invulnerability I think it's a 
vast problem for our future. And if there are, what 50-some-
thousand who die on the highways now?
    Mr. Strickland. It's about 37,000----
    The Chairman. Thirty-seven.
    Mr. Strickland.--but it has been averaging in the 40s for 
some time. But, it's way too many. It's literally almost losing 
a number of Vietnam deaths per year in the United States on the 
roads.
    The Chairman. I just really worry about that a lot, and I'm 
not going to preach on it or anything, but I want you to grab a 
hold of that. It's just very, very important.
    Mr. Khouri, the shipping industry is huge in our national 
economy. And one of the things we work a lot with here in the 
Commerce Committee, obviously, is ports and shipping and all 
the rest of it, so we see a lot of these facts. And we don't--
you know, you can't be sure about the economy, but right now 
there seems to be some sense that things are getting better. 
The number of jobs being lost is diminishing and the GDP is 
increasing, and it's kind of arithmetic, so it seems to have 
some promise for the future.
    Why would I mention that? Because I think there's going to 
be an enormous amount--you know, maybe a 50-percent increase in 
freighting on ships by the year 2020. Maybe that's possible, 
maybe that's not possible. That's good, if it is.
    That brings in all kinds of new problems. For example, I 
was just talking about Huntington. Whenever I mention 
Huntington is a port, first thing that always comes to my mind 
is that it's watched over by the Coast Guard, because--backed 
up against the Ohio River on both sides--the Ohio and the West 
Virginia side all the way from Louisville, all the way to 
Pittsburgh--there are scores and scores and scores of chemical 
plants and powerplants, all of them being extraordinarily 
vulnerable to terrorist attack. And the fact that nothing has 
happened is a matter of some amazement to me.
    So, you say, ``Well, but, the Coast Guard is watching 
that.'' Now, that's not your primary deal. But, the fact 
remains that, up until a year ago, there were only two Coast 
Guard speedboats that were armed, you know, with heavy machine 
guns on the front, that patrolled the 200 miles between--or 
300, or whatever--between Pittsburgh and Louisville. And 
obviously, you can't do that 24 hours, so they're 12-hour days. 
Now there are three, so there's really one boat on the Ohio at 
any given time, assuming an 8-hour day, which is probably what 
one should assume.
    So, that kind of thing is scary. How do you protect it? The 
whole question of, what do you scan? The House wants to scan 
everything in sight. I think that's impossible. I think it 
probably is unnecessary, because a lot of the freight will be 
predictable, like Home Depot buys, every Tuesday, shipments of 
wood from some country, and you sort of don't have to scan all 
of that, maybe. In any event, we're only scanning 5 percent 
now.
    So, as this amount increases, which I hope it will, what 
kind of complexities do you see that you'll have to face?
    Mr. Khouri. The traffic moving along your good State of 
West Virginia--I believe it's 982 miles from Pittsburgh to 
Cairo, in the Ohio River, and I've traveled it all.
    The Chairman. I wasn't very close.
    [Laughter.]
    Mr. Khouri. But, those are primarily bulk commodities. The 
container traffic, that you correctly say that is going to be 
coming into our country, is going to increase exponentially. I 
can speak just to the FMC's activities, as I understand them, 
and that, if confirmed, I will participate in.
    There is a group inside of the FMC that keeps track, very 
carefully, of all of the ocean transportation intermediaries 
and all of the companies that have licenses to bring containers 
in and out of the United States. That database is updated 
constantly, and then it is coordinated with Customs and with 
Homeland Security so that there is a constant updating, as best 
one can, to address the national security interests that we are 
all concerned with.
    Can there be more activity? Are we ever going to get to the 
point of 100 percent of boxes covered? I can't speak to that at 
this point. Obviously, it is something of great concern, 
something that, if confirmed, that will have the highest level 
of focus from the Chairman, from me and the other Commissioners 
at the FMC, and the staff. And I believe there is also a 
memorandum of understanding with those other agencies, 
currently in effect.
    So, I can assure you, it is something that is at the 
highest order of focus at the FMC, and will continue to have 
that high focus.
    The Chairman. Well, yours is a very important Commission--
well, all of you are doing that--and your problems are complex, 
and they will grow, and people will want instant answers, and 
you won't be able to supply them, because, again, the question 
of the balance, the thoughtfulness, and how do you do this, and 
then the funding. You know, the funding's going to be a problem 
for a long time, and Americans expect results and aren't 
interested in deficits or debt as it affects their lives. We 
have to be, and thus, some agencies don't get funded the way 
they should be. I think the entire Homeland Security operation 
is not funded the way it should be, because we are more 
interested in what's going on overseas, where there's a war, 
rather than, in some ways, defending our own country, which 
seems to me a rather obvious first. But, the money doesn't 
follow that line of thinking. And so, that will develop as time 
goes on.
    I want to thank all of you for what others have said; that 
is, submitting yourself for public service. I'm jealous of you, 
because, for some of you, it'll be relatively new, at this 
level, and others, not. But, it is a marvelous responsibility, 
you know, everybody talks about it, everybody wants to know 
what you're going to do about jobs, Ms. Lamb-Hale, and you'll 
have the pleasure of working that incredibly hard problem out.
    [Laughter.]
    Ms. Lamb-Hale. Yes.
    The Chairman. And you'll have some help. You don't have to 
do it all by yourself.
    But, I really thank you for making yourself available for 
this service. I love the fact that the room is filled with 
friends and supporters and families, and I think that's great. 
I think that's also symbolic of your pride in your work, and 
also their pride in your being picked by a President to do this 
work. And that is as it should be.
    To be more formal, members, there being none except myself 
at this moment--[Laughter.]
    The Chairman.--all their questions--and I say this because 
their staff are still here. Do you see, the staff is--it's 
always crucial, it's always the crucial point. The questions 
must be submitted by 6 o'clock this evening. They're due at 
that time this evening so that we can get those to the 
nominees.
    Having said that, this hearing is adjourned.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                              Safe Kids USA
                                   Washington, DC, December 9, 2009
Hon. John D. Rockefeller IV,
U.S. Senate,
Washington, DC.

Dear Chairman Rockefeller:

    On behalf of Safe Kids USA, I want to express our strong support 
for David Strickland to be the next Administrator for the National 
Highway Traffic Safety Administration. The Senate Commerce, Science, 
and Transportation Committee is scheduled to consider his nomination 
next week. Safe Kids believes that Mr. Strickland is undoubtedly 
qualified to tackle our country's most pressing transportation safety 
issues.
    With motor vehicle crashes being the leading cause of unintentional 
injury-related death for children ages 14 and under, Safe Kids has long 
worked with NHTSA to promote child passenger safety through our Safe 
Kids Buckle Up program. We consider NHTSA to be one of our key partners 
in protecting children both in and around cars. We are most certain, 
given Mr. Strickland's past professional experience as Senior Counsel 
on the Senate Commerce Committee, he will be an excellent leader at the 
agency and it will be well served by his consistent professional 
commitment to children and child safety. Safe Kids USA has worked with 
David many times over the past several years on both transportation 
safety and consumer product safety. We have always found him to be on 
the side of the consumer and, in particular, children. David has been a 
strong advocate for comprehensive child restraint laws, pool and spa 
safety and safe consumer products. These efforts, we believe, are 
illustrative of his philosophy and give us great confidence that, if 
confirmed, safety will be in good hands.
    I must say, by way of a personal note, that I have personally 
worked with David many times as I have prepared to testify before your 
Committee or assisted in the crafting of pending legislation. He has 
always been responsive, thoughtful and committed to the pursuit of 
sound public policy--characteristics that will serve him well as the 
next leader of NHTSA. I am very much looking forward to continuing our 
work together as we, in partnership, address motor vehicle death and 
injuries to children. Simply said, President Obama has made an 
excellent choice. One that Safe Kids can enthusiastically support.
    If Safe Kids can be of any assistance to you, please do not 
hesitate to contact me or Tanya Chin Ross, Senior Public Policy 
Associate.
            Sincerely,
                                                 Alan Korn,
                                                Executive Director.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Nicole Lamb-Hale
    Question 1. The U.S. has had huge trade deficits for years. In 
today's economic climate, American companies face many hurdles to 
selling their products overseas. Unfair trade practices and complex 
technical regulations in foreign countries can also make exporting a 
real challenge, especially for small businesses. How will the 
International Trade Administration's Manufacturing and Services unit 
help companies in New Mexico and across the Nation reach their full 
potential for exporting their goods and services?
    Answer. New Mexico's export shipments of merchandise in 2008 
totaled $2.8 billion. In the first half of 2008, the Albuquerque 
metropolitan area alone had export sales totaling $232 million. Exports 
are obviously vital to New Mexico and the entire nation. Manufacturing 
and Services (MAS) can help companies export by providing key support 
in competitive analysis to help shape their decisions, export 
promotion, and bringing their concerns to the attention of 
policymakers. If confirmed, I will work tirelessly to ensure that MAS 
further collaborates with its sister agencies such as U.S. and Foreign 
Commercial Service and Market Access and Compliance to help 
manufacturers with multiple facets of their business.

    Question 2. Small manufacturers and others complain that confusing 
technical regulations often pose significant barriers to selling their 
products abroad. This is an area where the International Trade 
Administration's Manufacturing and Services unit can truly help smaller 
firms that may be new to exporting or unfamiliar with government 
regulation and business practices in a new foreign market. How will the 
MAS under your leadership help American firms navigate technical 
regulations and other potential barriers to selling to foreign markets?
    Answer. One of the outstanding MAS products provided to American 
firms is its series of export guides. The current guides identify 
regulatory and other marketing requirements in key export markets for 
technologies such as renewable energy and other clean technologies. 
Under my leadership, if confirmed, MAS will enhance these guides and 
expand collaboration with sister ITA units, such as Market Access and 
Compliance and the U.S. and Foreign Commercial Service, to provide 
seamless advice to American exporters to help them export and compete 
in foreign markets with different regulatory environments.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Nicole Lamb-Hale
    Question 1. Ms. Lamb-Hale, in a meeting with my staff last week, 
you said that two of the most critical issues for manufacturers that 
warrant attention from the Federal Government are access to capital and 
export promotion. I am glad to hear that you recognize the importance 
of these issues to our Nation's manufacturers, as they fight to remain 
competitive in an increasingly global economy. Last week, I introduced 
bipartisan legislation to improve and expand the export assistance and 
export financing programs available to small businesses, including 
small manufacturers. My bill, S. 2862, the Small Business Export 
Enhancement and International Trade Act of 2009, would raise the 
maximum amount of the SBA's loans for exporters from $2 million to $5 
million; create a State Trade and Export Promotion grant program to 
help small businesses participate in trade shows and trade missions, 
among other things; and expand the technical assistance available on 
exporting. Can you please elaborate more on the challenges facing 
manufacturers with regard to foreign sales opportunities and foreign 
competition, and do you think an expansion of export assistance, as I 
have proposed in S. 2862, is warranted?
    Answer. While U.S. manufacturers do successfully compete globally, 
they are faced with increasing competition as foreign manufacturers 
improve their products and look to sell globally. This emphasizes the 
underlying need for the U.S. Government to continue to work to ensure 
that the global trading system is as free and fair as possible.
    The credit crunch has made it difficult for manufacturers and 
exporters to secure necessary financing. If confirmed, I will lead 
Manufacturing and Services (MAS) and work with other agencies to 
increase awareness of and access to export assistance programs and 
expertise available across the government. The Department of Commerce 
and its global network of trade specialists and officers have the 
expertise, the programs, and the institutional capacity to perform that 
task, but we can improve communication about available assistance with 
manufacturers, especially small and medium-sized firms. One of my top 
priorities is for MAS to take an active role in working with other 
Federal agencies, including SBA and the Export-Import Bank to provide 
better technical assistance to foster exports and by utilizing the 
newly launched CommerceConnect program to ensure that manufacturers are 
aware of all the Federal programs and resources that are available to 
them. If confirmed, I also look forward to working with you and your 
Congressional colleagues to ensure that small and medium-sized 
businesses have the tools they need to succeed in the global economy.

    Question 2. How would you work with these companies to ensure that 
the breadth of the Federal Government's assistance--including programs 
at the Department of Commerce, the SBA, the Export-Import Bank and 
others--are working together to support our Nation's manufacturers?
    Answer. I am committed to creating public-private partnerships 
which bring together government, industry, and academic stakeholders to 
strengthen the competitiveness of the manufacturing sector. If 
confirmed, I intend to make Manufacturing and Services a leader in 
working with sister agencies to develop and improve technical 
assistance, for example through the CommerceConnect program and 
Interagency Network of Enterprise Assistance Providers (INEAP). I will 
also continue and expand MAS' partnership with the Manufacturing 
Extension Partnership (MEP) and enhance MAS' work in promoting U.S. 
sustainable manufacturing in cooperation with the Department of Energy 
and Environmental Protection Agency. If confirmed, I intend to improve 
communication to U.S. manufacturers regarding assistance available to 
them throughout the Federal Government, using all available mechanisms. 
The International Trade Administration is fortunate to be the lead 
agency for the Trade Promotion Coordination Committee (TPCC), and if 
confirmed, I will actively engage my colleagues in this Committee to 
better coordinate MAS's resources with those of the TPCC members to 
help American manufacturers and increase U.S. exports.
    Underlying these efforts, I intend, if confirmed, to play a strong 
role in the Administration's efforts to revitalize U.S. businesses.

    Question 3. The manufacturing sector is a critical part of our 
economy. About one in six U.S. private sector jobs depends on the U.S. 
manufacturing base. Specifically, manufacturing supports an estimated 
18.6 million jobs in the United States in 2009; 11.8 million jobs 
directly within the sector and more than 6.8 million jobs outside 
manufacturing.
    Regrettably, American manufacturers face significant and unique 
challenges that have resulted in their shedding 5.6 million jobs since 
late 1999--a decrease of one-third of the sector's employment over the 
last decade. Additionally, over the same time period, manufacturers in 
my home state of Maine have lost 35 percent their sector's employment, 
or nearly 28,500 jobs. Clearly, American manufacturers are hurting. 
What is your vision for the future success of manufacturing in America? 
How can you best help the Administration implement a comprehensive and 
thorough plan to revive the manufacturing segment of our economy?
    Answer. The Department of Commerce is deeply engaged in listening 
to manufacturers, including the Manufacturing Council, to learn what is 
needed to revitalize U.S. manufacturing and to make it stronger for the 
future. If confirmed, Manufacturing and Services under my leadership 
would continue to engage U.S. manufacturers, make sure their views are 
considered, and contribute to the Administration's effort to revitalize 
the manufacturing sector and create jobs. If confirmed, I intend for 
Manufacturing and Services to play a key role in implementing the ideas 
that come from that event.
    My ultimate vision is that the U.S. will lead the way on innovative 
and sustainable manufacturing practices and processes which will 
maximize the global competitiveness of U.S. industry and result in 
good-paying family-supporting jobs.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Sam Brownback to 
                            Nicole Lamb-Hale
    Question 1. In your position as Assistant Secretary of Commerce for 
Manufacturing and Services for the Department of Commerce, will you 
commit to working alongside the interests of the General Aviation 
community, one of the most vital industries in my home state, in 
creating workable, balanced policies that will allow this manufacturing 
industry to thrive?
    Answer. As Assistant Secretary for Manufacturing and Services, it 
would be my job to support initiatives that improve the competitiveness 
of U.S. businesses in general, including the general aviation 
manufacturing community. If confirmed, I would welcome the opportunity 
to work with general aviation manufacturers.

    Question 2. Most importantly, in formulating ideas for financing 
our national aerospace system, I want to know if you will oppose the 
implementation of user fees for the general aviation sector.
    Answer. Although FAA funding does not fall under the jurisdiction 
of the Assistant Secretary for Manufacturing and Services, I appreciate 
knowing your views on this issue. If confirmed, I look forward to 
hearing more about issues of interest to the general aviation 
manufacturing industry, including funding for our national aerospace 
system.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Michael A. Khouri
    Question. During your years of experience in the maritime industry 
how would you describe the level of communication between industry and 
the Federal Maritime Commission? If confirmed, what steps will you take 
to improve the FMC's industry outreach?
    Answer. In my prior assignments in the maritime industry, my 
primary points of communication with Federal Maritime Commission 
matters concerned port and ancillary vessel issues. In those areas, 
communication access was good. More recently, I have keenly observed 
issues concerning short-sea shipping opportunities and container-on-
barge initiatives. The Commission has increased its outreach to the 
public with more frequent regional meetings for the purpose of 
gathering input from all sectors of the maritime industry.
    If confirmed, I promise to continue and to increase the 
opportunities for all interested parties in the maritime industry and 
all constituents that are served by the industry to have open and 
appropriate access to my office and to the staff of the Federal 
Maritime Commission. I will work to openly conduct the work of the 
Commission with a maximum of industry input. Such input ensures an 
outcome which can best meet the needs of both the maritime industry and 
the shipping public.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                           Michael A. Khouri
    Question. What types of maritime freight implications do you expect 
to see as a result of increased transportation of marine freight in an 
ice-diminishing Arctic?
    Answer. The navigational and operational decisions that any 
individual liner carrier may make in the future is primarily a matter 
for that carrier's management. To the extent that a group of liner 
carriers would approach the Federal Maritime Commission and request 
authority to form a discussion or other form of collective agreement, 
for example, to discuss mutual issues concerning service issues, vessel 
sharing or other commercial protocols in an Arctic environment, then 
the FMC should consider such application within the context of its 
statutory authority and within the mandate of the Shipping Act to 
encourage and foster U.S. maritime interests.
    If confirmed, I will work with my fellow Commissioners and members 
of the Senate and all Committee staff to further these efforts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Julie Brill
    Question 1. As you know, the Federal Trade Commission (FTC) 
currently has very restricted rulemaking authority. This, in turn, 
generally requires the agency to issue policy statements or ``safe 
harbor'' guidance documents in many new and emerging areas of the law--
rather than promulgating actual rules. Do you believe the Federal Trade 
Commission Act should be modified to ease the current restrictions on 
the Commission's rulemaking authority? Wouldn't this make it easier for 
the Commission to enforce its policies?
    Answer. Congress, consumers, business and the public at large 
appropriately have high expectations that the FTC is capable of 
addressing consumer problems as they arise, even if the problems are 
exigent and require swift response. The FTC should have adequate tools 
to rapidly address important, emergent consumer protection issues. 
Congress has occasionally granted the FTC rulemaking authority under 
the Administrative Procedures Act. In the absence of a special 
Congressional authorization, the FTC currently must revert to its 
underlying rulemaking authority under the Magnuson-Moss Act, which 
places several procedural obstacles in the rulemaking road. I 
understand that there have been legislative proposals in Congress to 
grant to the FTC general rulemaking authority under the APA, to remove 
these obstacles and allow the FTC to craft rules using the same process 
employed by other Federal agencies. I believe that the proposal to 
grant the FTC rulemaking authority under the APA merits close 
attention, to ensure that the FTC is well positioned to respond to 
consumer problems in a timely fashion. If confirmed, I plan to listen 
to all stakeholders to understand the benefits and problems associated 
with using this tool. If Congress provides the FTC with APA rulemaking 
authority, I would work with my fellow Commissioners to use that 
authority carefully and appropriately.

    Question 2. In Florida and a number of other states, we have 
recently seen a serious problem with drywall imported from China. This 
drywall causes severe metal corrosion in impacted houses and is also 
suspected of causing a number of negative health effects--including 
headaches, bloody noses and skin problems. Needless to say, many 
homeowners potentially impacted by this drywall have sought out testing 
or remediation advice. There are a number of well-intentioned 
businesses out there trying to provide assistance--but there are also a 
lot of scam artists just trying to take advantage of scared homeowners.
    Recently, I wrote a letter--with several other Senators--requesting 
that the FTC investigate these same [scam artists] pursuant to its 
Section 5 authority to prohibit ``unfair and deceptive trade 
practices[.] Can I have your assurance that if confirmed you will look 
into this issue?
    Answer. The problems relating to drywall produced in China 
(``Chinese Drywall'') are pernicious, and have deeply affected 
consumers in localized areas. Frequently the product was placed in 
homes after hurricanes or during other shortages of supply. Now 
homeowners and renters in affected homes must fix the problem, and they 
do not yet have guidance from government on how to do so. Currently 
both the Consumer Product Safety Commission and the Environmental 
Protection Agency are working to establish standards for remediating 
the problems caused by Chinese Drywall. I understand that the FTC can 
play an important role in this situation. First, the FTC can provide 
education to consumers who are seeking help for this problem. While the 
CPSC and the EPA are in the process of developing remediation 
standards, the FTC can work with other agencies to inform the public 
about the nature of the problem, and that remediation standards will be 
available in the near future. Once the standards are promulgated, the 
FTC can assist in disseminating information about the standards in 
affected communities to homeowners, renters and businesses in the home 
repair trades. Second, the FTC can pursue, through law enforcement 
actions, unfair and deceptive practices by scam artists preying upon 
homeowners and renters who have been victimized by the Chinese Drywall 
problem. If confirmed, I look forward to reviewing the FTC's activities 
in this area and, along with my fellow Commissioners, determining an 
appropriate course of action.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                              Julie Brill
    Question. Underage drinking is a serious public health problem and 
is responsible for approximately 5,000 deaths a year for people under 
age 21. There has been increasing evidence that exposure to alcohol 
advertising and marketing increases the likelihood of underage 
drinking.
    In 2003, the FTC recommended that the alcohol industry abide by a 
voluntary standard for alcohol advertisements to be placed only in 
media in which at least seventy percent of the audience for each 
advertisement consisted of adults 21 and over. The purpose of this 
standard was to limit exposure to alcohol advertising for underage 
youth. Since then, however, several reports have indicated that youth 
exposure to alcohol advertising is increasing.
    Despite a reported increase in youth exposure and numerous calls by 
the public health community, the FTC's 2008 report entitled ``Self-
Regulation in the Alcohol Industry,'' did not call for any increase in 
the advertising standard. I am concerned that the report based this 
conclusion on premises that are not supported by research or the public 
health community, or are contradictory to previous statements by the 
Commission.
    Will you commit to review the FTC's 2008 report, the process by 
which it was created, and any contradictions between the premises upon 
which the Commission relied and its earlier statements and those of the 
public health community? Will you commit to ensuring that the FTC's 
review of alcohol industry advertising is based on information that is 
current, accurate, and scientifically-based? How do you intend to 
evaluate whether the industry should increase its advertising standards 
to reduce alcohol advertising exposure to those who are not legally 
permitted to purchase alcohol?
    Answer. Underage alcohol use is a serious problem. The role that 
advertising plays in promoting underage usage merits close attention. 
It is important that the methodology and premises of all FTC reports, 
including the 2008 alcohol advertising report, are sound. Information 
in all of the FTC's reports should be current, accurate, well-
documented and soundly analyzed. If I am confirmed I look forward, 
along with my fellow Commissioners, to working with this Committee to 
understand its concerns with respect to the 2008 alcohol advertising 
report and to addressing any substantive deficiencies. Self-regulatory 
regimes in areas as important as alcohol advertising should be 
monitored to ensure they are adequately protecting consumers from harm. 
In this instance, a review of all well-documented and soundly analyzed 
information about the effectiveness of the industry's self-regulatory 
advertising standards would be helpful to assess what if any action the 
FTC should recommend or take with respect to the current standards.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Julie Brill
    Question 1. Fraud and consumer abuse seems to only get worse in a 
recession. With the Internet and new ways of reaching customers, we are 
seeing new ways for bad actors to sell unsafe products and take 
advantage of vulnerable consumers.
    This committee has already examined a variety of consumer issues so 
far this year related to false claims, deceptive advertizing, and 
aggressive online sales. What do you expect the greatest challenges to 
consumer protection will be? How will you approach these challenges as 
FTC commissioner?
    Answer. In the past year, consumers purchased about $300 billion of 
goods and services online, making the web-based marketplace a robust 
and critically important sector of the Nation's economy. While the vast 
bulk of transactions on the Internet are not problematic, there is a 
subset of transactions that are infected with unfair and deceptive 
practices. Some of these scams have been long present in the ``bricks 
and mortar'' world, and have simply migrated, albeit in sophisticated 
form, to the Internet. Some of the practices surrounding certain web-
based negative option billing programs represent one group, among 
several examples, of old scams that have been transformed and re-
energized on the Internet. As outlined in a recent report issued by the 
majority staff of the Senate Commerce Committee, these problematic 
negative option billing programs fail to adequately disclose to 
consumers the nature of the add-on services being offered, the fact 
that the seller has the consumer's credit card information, and the 
fact that the consumer will be billed if she fails to cancel after a 
free trial period. Many of these programs are offered by outfits that 
operate overseas.
    Among the greatest challenges to policing unfair and deceptive 
practices on the Internet will be keeping up with the ever-inventive 
community of scam artists that have migrated to the Internet, and 
obtaining sufficient jurisdiction over those that operate in other 
countries. To meet these challenges, if I am confirmed as Commissioner, 
I will work with Congress as well as state and local partners in law 
enforcement, particularly State Attorneys General and groups that work 
with seniors and other vulnerable populations, as well as all other 
stakeholders, to ensure that my fellow Commissioners and I are apprised 
of the most recent unfair and deceptive practices infecting the 
Internet. Equally important, if I am confirmed I will support the FTC's 
continued efforts, through U.S. SAFEWEB and other appropriate tools, to 
root out scam artists that operate overseas.

    Question 2. As a former state attorney general, I would appreciate 
your thoughts on how the FTC should be working with state attorneys and 
U.S. attorneys to pursue those who are deceiving consumers and 
committing fraud. As FTC commissioner, how do you plan to work with and 
reach out to state attorneys general and U.S. attorneys?
    Answer. Through my twenty years working with State Attorneys 
General, first as an Assistant Attorney General in Vermont and more 
recently as a Senior Deputy and Chief of Consumer Protection for North 
Carolina, I have extensive and deep ties to the State Attorney General 
community. The State Attorneys General are the FTC's most important 
partners in consumer protection and antitrust law enforcement. If I am 
confirmed, I plan to build upon these ties so that I can help the FTC 
strengthen its already strong bonds to State Attorneys General. 
Specifically, if confirmed I will continue to work with the National 
Association of Attorneys General, the NAAG Antitrust Multistate Task 
Force, various NAAG Consumer Protection working groups, as well as 
individual State Attorneys General, Chief Deputies, and Consumer 
Protection and Antitrust chiefs throughout the Nation discuss cases and 
matters of mutual interest.
    Similarly, I have experience working with U.S. Attorney's offices 
in various areas around the Nation on consumer protection matters that 
required criminal referrals. Criminal prosecution of scam artists is a 
very effective tool to combat fraud. The U.S. Attorney's offices are 
important partners of the FTC and State Attorneys General in consumer 
protection law enforcement. If confirmed I will work with my fellow 
Commissioners to ensure that the FTC works with U.S. Attorney's offices 
to refer and assist in the criminal prosecution of scam artists in 
appropriate cases.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              Julie Brill
    Question 1. The European Commission's rulings against and 
investigations into technology companies, such as Intel, Microsoft, 
Qualcomm, Google, and IBM, are evidence of a trend in Europe toward 
managed competition. With so many of the world's successful technology 
companies based in the United States and very few located in the 
European Union or elsewhere, how do you plan to address this?
    Answer. An important part of the mission of the Federal Trade 
Commission is to work with its counterparts in other countries 
regarding cooperation in and coordination of antitrust enforcement. The 
FTC has developed a robust international antitrust program, working 
closely with its international counterparts on cases and other matters 
of mutual interest to promote sound and consistent analyses and 
outcomes. To this end, the FTC has developed strong bilateral 
relationships with many competition agencies in other countries, and 
also has played a lead role in multilateral organizations such as the 
International Competition Network and the Competition Committee of the 
OECD. If confirmed, I will work to continue to strengthen the FTC's 
bilateral and multilateral communications with competition agencies in 
other countries, so that all agencies strive toward convergence of 
analyses and outcomes in cases involving companies that operate across 
international borders.

    Question 2. Multinational companies are now facing greater 
interaction with the more than 100 competition agencies in existence 
today. Due process plays an important role in ensuring that foreign 
companies are treated the same as domestic companies, and as Assistant 
Attorney General Christine Varney remarked ensures agencies have 
sufficient evidence before concluding that certain behavior results in 
harm to competition. What is your view about the role of due process in 
competition investigations and how would you advocate for increased due 
process protections?
    Answer. Due process is an important element of all antitrust 
investigations, whether conducted in this country or another country. 
The FTC is currently working with the U.S. Department of Justice and 
AAG Christine Varney on increasing the level of attention to due 
process, as well as transparency, within competition agencies in other 
countries. Neither the Federal Trade Commission nor the Department of 
Justice can direct that another country's competition agency conform to 
due process requirements, as defined in the courts of the United 
States. However, the FTC can and should continue to work closely with 
the DOJ to promote transparency and due process in other countries' 
competition agencies.

    Question 3. Historically, the FTC and DOJ have relied on uneven and 
extremely limited funding for antitrust technical assistance. Well-
funded technical assistance is critical to U.S. competitiveness, as it 
can help curb the potential for misuse of competition enforcement 
against leading U.S. companies. Would you support an authorization and 
appropriate funding for the FTC so it can provide meaningful technical 
assistance to the world's major competition authorities?
    Answer. Antitrust technical assistance is a key part of the FTC's 
international competition mission. Through its technical assistance 
programs, the FTC provides guidance on how to conduct antitrust reviews 
to countries with emergent antitrust programs. If confirmed, I would 
welcome continued Congressional support for the FTC's antitrust 
technical assistance mission.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            David Strickland
    Question 1. If confirmed, what would be your priorities for the 
agency?
    Answer. If confirmed, I will work closely with Secretary LaHood, 
the Congress, and stakeholders to redouble the agency's efforts to 
improve transportation safety.
    NHTSA's mission includes both the safety of the vehicle and 
behavioral safety. The agency's efforts are data-driven, addressing 
safety problems that pose result in the greatest risk. On the vehicle 
side, the focus is on technologies that can help prevent crashes from 
occurring and on protection of crash victims during a crash. On the 
behavioral side, the focus is on critical risks and precautions, 
including impaired driving, speeding, and failure to use seat belts. I 
will also lead efforts to address driver distraction and emerging 
demographic issues, including focus on young drivers, the elderly, and 
minority populations.

    Question 2. Do you believe that the agency has the necessary 
resources to accomplish its mission? If not, what additional resources 
will the agency need?
    Answer. Yes, based on the Conference Report FY 2010, NHTSA has 
adequate resources to fulfill our missions based on the Conference 
Report FY 2010. If confirmed, I intend to conduct a thorough review to 
ensure our resources are allocated to achieve maximum results, as 
outlined by the President--missions in support of vehicle and highway 
safety.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            David Strickland
    Question 1. Last month a study was released that ranked the 
country's most dangerous cities for pedestrians, and the top four were 
all in Florida. I am a cosponsor of two bills that would help cut down 
on pedestrian deaths--the Complete Streets Act would require planners 
to design cities with pedestrians and cyclists in mind, and the Safe 
Routes to School Act would expand programs that make it safer for kids 
to walk to school. What is NHTSA doing to reduce pedestrian deaths?
    Answer. Pedestrian safety is a major highway safety problem with 
approximately 5,000 pedestrians lost each year to traffic crashes. If 
confirmed, I will work with the NHTSA team and our colleagues at the 
Federal Highway Administration, which leads the Department's Safe 
Routes to School efforts, to develop and implement a comprehensive 
strategy to address pedestrian safety. It is my understanding that 
current efforts focus on older and younger pedestrians as the most 
vulnerable, and also on people who speak English as a second language. 
We will look at the data and research all potential means to gain 
traction in reducing pedestrian fatalities.

    Question 2. Two years ago Senator Clinton and I wrote a bill called 
the Cameron Gulbransen Kids and Cars Safety Act, and in it NHTSA was 
directed to initiate rulemaking requiring that all power windows 
automatically reverse when something gets in their path as they rise. 
In August NHTSA proposed NOT to require these systems, citing that 
these incidents only cause 6 deaths and 2000 injuries per year. This 
fall, however, a new poll indicated that the number of injuries is 
actually much higher, numbering in the millions. Does NHTSA plan on 
reevaluating their rulemaking proposal?
    Answer. Safety is the highest priority of the Department. I agree 
that we can and should do more to prevent injuries to children that are 
caused by the inadvertent actuation of a power window. As I understand 
it, while the NHTSA proposal did not propose a broad requirement for 
all power windows to automatically reverse, it did seek comment on such 
a requirement, and stated that the agency could include such a 
requirement in the final rule. If confirmed, I will ensure that all 
public comments, including the poll/survey released this fall, are 
carefully considered before NHTSA issues a final rule.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            David Strickland
    Question 1. What effect would mandating ignition interlocks for all 
drunk driving offenders have on reducing repeat drunk driving incidents 
and improving safety on our roads?
    Answer. Ignition interlocks have proven effective in reducing 
repeat drunk driving offenses by at least half, when installed on an 
offender's vehicle. Since NHTSA estimates that about one-third of drunk 
driving arrests are repeat offenders, ignition interlocks hold great 
promise in preventing impaired driving and resulting crashes. If 
confirmed, I will seek to work in partnership with states, judges and 
prosecutors, the probation community, and law enforcement to promote 
effective implementation and use of ignition interlocks as part of a 
comprehensive drunk driving enforcement program.

    Question 2. When it comes to combating distracted driving, some 
have proposed using technology to block wireless signals in cars, but 
concerns have been raised that legitimate communications and even 911 
calls could be blocked inadvertently. What role should technology play 
in helping to minimize distracted driving?
    Answer. I agree with the Secretary that the most effective way to 
reduce the potential distraction caused by a cell phone in a motor 
vehicle is to have the phone turned off. If confirmed, I am very 
interested in examining technological solutions such as ``blockers'' or 
``filters'' to assess their ability and effectiveness at blocking 
unnecessary calls while still allowing legitimate calls, such as by 
passengers or in 911 emergencies. These technological solutions are 
worthy of continued research, but must be considered in combination 
with behavioral solutions, for ultimately it is the driver's 
responsibility to operate the vehicle in a safe manner.

    Question 3. The number of people killed in crashes with large 
trucks already averages five thousand each year. Yet some have proposed 
relaxing the ban on large trucks that weigh more than eighty thousand 
pounds or are longer than fifty-three feet on our Interstate Highway 
System. Wouldn't relaxing this ban and allowing bigger, heavier trucks 
pose a significant safety risk to the driving public?
    Answer. Two vehicle issues that warrant further study involve the 
braking and stability of the truck under normal and panic situations. A 
heavier truck would have longer stopping distances under normal and 
panic braking situations. A heavier truck might also be less stable and 
thus be more susceptible to being involved in a rollover crash. If 
confirmed, I will consult with my colleagues in the Department on this 
very important issue.

    Question 4. A recent study conducted at Rutgers University found 
that cell phone use may pose a danger for pedestrians. In addition to 
examining the dangers of distracted driving, how can we educate the 
public about the dangers of cell phone use for pedestrians?
    Answer. Under Secretary LaHood's strong leadership, the Department 
has launched an aggressive national effort to address and reduce 
distracted driving. If confirmed, I will work with the Secretary and 
stakeholders on this issue and will be sure to look at the risks of 
distraction for pedestrians, as well as vehicle operators.

    Question 5. A former National Transportation Safety Board Chairman, 
Jim Hall, once called Age 21 drinking laws, ``one of the most effective 
public policies ever implemented in the Nation.'' Some have suggested 
that the problem of binge drinking on some college campuses justifies 
throwing this law out the window. Where do you stand on this issue?
    Answer. I strongly support Age 21 minimum drinking laws. The data 
and evaluations on the implementation of the 21 minimum drinking age 
show it has been very effective in reducing fatalities among young 
people under age 21.
                                 ______
                                 
    Response to Written Question Submitted by Hon. David Vitter to 
                            David Strickland
    Question. Do you have any thoughts on how NHTSA can work with state 
governments to improve efforts to stop drunk driving?
    Answer. During this reauthorization period, NHTSA and the States 
have worked to institutionalize the very effective High Visibility 
Enforcement model, with significant financial and program support from 
this Committee and the Congress. If confirmed, I will work with the 
States and other partners to develop and expand the High Visibility 
Enforcement strategy and seek new ways, including the use of 
technology, to reduce this critical public health problem.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Edith Ramirez
    Question 1. As you know, the Federal Trade Commission (FTC) 
currently has very restricted rulemaking authority. This, in turn, 
generally requires the agency to issue policy statements or ``safe 
harbor'' guidance documents in many new and emerging areas of the law--
rather than promulgating actual rules. Do you believe the Federal Trade 
Commission Act should be modified to ease the current restrictions on 
the Commission's rulemaking authority? Wouldn't this make it easier for 
the Commission to enforce its policies?
    Answer. Typically, the FTC cannot adopt rules under the notice and 
comment procedures of the Administrative Procedure Act that are 
generally available to Federal agencies, and must instead employ the 
more rigorous rulemaking procedures of Section 18 of the FTC Act. This 
limits the FTC's ability to use rulemaking to respond quickly to new 
business practices or emerging forms of consumer harm. Particularly in 
these difficult economic times, the Commission should have adequate 
tools to protect consumers. At the same time, given the breadth of the 
FTC's substantive authority, it is incumbent on the FTC--whether 
issuing a rule or initiating a law enforcement action--to exercise its 
power judiciously and to carefully assess the costs and burdens that 
its actions will impose. If confirmed, I look forward to closely 
evaluating the appropriate rulemaking procedures that should apply to 
the FTC.

    Question 2. In Florida and a number of other states, we have 
recently seen a serious problem with drywall imported from China. This 
drywall causes severe metal corrosion in impacted houses and is also 
suspected of causing a number of negative health effects--including 
headaches, bloody noses and skin problems. Needless to say, many 
homeowners potentially impacted by this drywall have sought out testing 
or remediation advice. There are a number of well-intentioned 
businesses out there trying to provide assistance--but there are also a 
lot of scam artists just trying to take advantage of scared homeowners.
    Recently, I wrote a letter--with several other Senators--requesting 
that the FTC investigate these same pursuant to its Section 5 authority 
to prohibit ``unfair and deceptive trade practices''? Can I have your 
assurance that if confirmed you will look into this issue?
    Answer. Yes. I understand that the FTC is currently participating 
in Federal interagency efforts, led by the Consumer Product Safety 
Commission, to investigate and address the problems faced by homeowners 
potentially affected by defective imported drywall. The FTC has also 
issued a consumer alert warning homeowners to beware of possible 
fraudulent conduct in connection with testing and remediation offers. 
If confirmed, I will work to ensure that the FTC continues to monitor 
this situation very closely and that it take all action that is 
appropriate.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                             Edith Ramirez
    Question. Underage drinking is a serious public health problem and 
is responsible for approximately 5,000 deaths a year for people under 
age 21. There has been increasing evidence that exposure to alcohol 
advertising and marketing increases the likelihood of underage 
drinking. In 2003, the FTC recommended that the alcohol industry abide 
by a voluntary standard for alcohol advertisements to be placed only in 
media in which at least seventy percent of the audience for each 
advertisement consisted of adults 21 and over. The purpose of this 
standard was to limit exposure to alcohol advertising for underage 
youth. Since then, however, several reports have indicated that youth 
exposure to alcohol advertising is increasing.
    Despite a reported increase in youth exposure and numerous calls by 
the public health community, the FTC's 2008 report entitled ``Self-
Regulation in the Alcohol Industry,'' did not call for any increase in 
the advertising standard. I am concerned that the report based this 
conclusion on premises that are not supported by research or the public 
health community, or are contradictory to previous statements by the 
Commission.
    Will you commit to review the FTC's 2008 report, the process by 
which it was created, and any contradictions between the premises upon 
which the Commission relied and its earlier statements and those of the 
public health community? Will you commit to ensuring that the FTC's 
review of alcohol industry advertising is based on information that is 
current, accurate, and scientifically-based? How do you intend to 
evaluate whether the industry should increase its advertising standards 
to reduce alcohol advertising exposure to those who are not legally 
permitted to purchase alcohol?
    Answer. Advertising issues are at their most important when the 
health and safety of consumers are at stake. This is all the more so 
when minors are involved. Underage alcohol drinking is a serious and 
persistent problem in the U.S. If confirmed, I will carefully review 
the FTC's 2008 report on self-regulation in the alcohol industry, its 
analysis and conclusions, and the positions of those in the public 
health community. I will also work to ensure that the FTC's work in 
this area is based on comprehensive and sound information and analysis. 
If confirmed, I look forward to learning more about this issue and 
working with you to help the agency address and try to minimize the 
exposure of minors to alcohol advertising.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Edith Ramirez
    Question 1. Fraud and consumer abuse seems to only get worse in a 
recession. With the Internet and new ways of reaching customers, we are 
seeing new ways for bad actors to sell unsafe products and take 
advantage of vulnerable consumers. This committee has already examined 
a variety of consumer issues so far this year related to false claims, 
deceptive advertizing, and aggressive online sales. What do you expect 
the greatest challenges to consumer protection will be? How will you 
approach these challenges as FTC commissioner?
    Answer. I believe the principal challenge faced by the FTC is 
determining how best to allocate its limited resources to combat 
existing and new forms of consumer fraud. The challenge is particularly 
daunting in the current economic climate. The economic downturn has 
left a significant segment of American consumers in financial distress 
and vulnerable to all manner of fraud, including mortgage foreclosure 
rescue, credit repair, and debt settlement assistance scams. If 
confirmed, I will be dedicated to ensuring that the FTC carefully 
considers and chooses who to investigate and which cases to bring so 
that its actions have the greatest possible impact in deterring unfair 
and deceptive business practices and protecting consumers. I will also 
work to ensure that the agency effectively leverages its limited 
resources by enhancing its partnerships with state and local law 
enforcement authorities and expanding its education and outreach 
efforts through closer work with community-based organizations.

    Question 2. As a former state attorney general, I would appreciate 
your thoughts on how the FTC should be working with state attorneys and 
U.S. attorneys to pursue those who are deceiving consumers and 
committing fraud. As FTC commissioner, how do you plan to work with and 
reach out to state attorneys general and U.S. attorneys?
    Answer. The state attorneys general play a critical role in 
protecting consumers and are invaluable partners of the FTC. The FTC 
has a long history of cooperation with its law enforcement partners at 
both the Federal and state levels. This cooperation takes a variety of 
forms such as bringing joint law enforcement actions with the states, 
joint participation in a variety of task forces, and information 
sharing. In addition, through its Criminal Liaison Unit, the FTC 
coordinates with both Federal and state criminal law enforcement 
agencies across the country to facilitate criminal prosecution of 
consumer fraud. If confirmed, I will work to strengthen these ties 
between the FTC, the state attorneys general, and U.S. attorneys and 
ensure that these partnerships are utilized to maximum effect to 
protect and advance the interests of American consumers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                             Edith Ramirez
    Question 1. The European Commission's rulings against and 
investigations into technology companies, such as Intel, Microsoft, 
Qualcomm, Google, and IBM, are evidence of a trend in Europe toward 
managed competition. With so many of the world's successful technology 
companies based in the United States and very few located in the 
European Union or elsewhere, how do you plan to address this?
    Answer. Competition is an increasingly global issue, and there are 
significant challenges for those multinational corporations that deal 
with antitrust enforcers around the world. In light of this, 
multilateral cooperation and coordination among antitrust authorities 
is increasingly important. The FTC has built strong bilateral 
relationships with its counterparts abroad and has played a leading 
role in multilateral competition bodies such as the International 
Competition Network and the competition body of the Organization for 
Economic Cooperation and Development to promote convergence toward 
sound competition policies and practices. If confirmed, I will work 
with my fellow Commissioners to continue to engage the FTC's foreign 
counterparts in a respectful dialogue to advance these efforts further.
    Question 2. Multinational companies are now facing greater 
interaction with the more than 100 competition agencies in existence 
today. Due process plays an important role in ensuring that foreign 
companies are treated the same as domestic companies, and as Assistant 
Attorney General Christine Varney remarked ensures agencies have 
sufficient evidence before concluding that certain behavior results in 
harm to competition. What is your view about the role of due process in 
competition investigations and how would you advocate for increased due 
process protections?
    Answer. I agree that due process plays an integral role in ensuring 
that decisions about competition questions by international competition 
enforcers rest on sound and fair principles that are consistently 
applied. Fair and transparent procedures are critical to antitrust 
enforcement. If confirmed, I will work with my fellow Commissioners to 
encourage our foreign counterparts to utilize procedures that, while 
tailored to their unique legal traditions, will provide full and fair 
process.

    Question 3. Historically, the FTC and DOJ have relied on uneven and 
extremely limited funding for antitrust technical assistance. Well-
funded technical assistance is critical to U.S. competitiveness, as it 
can help curb the potential for misuse of competition enforcement 
against leading U.S. companies. Would you support an authorization and 
appropriate funding for the FTC so it can provide meaningful technical 
assistance to the world's major competition authorities?
    Answer. The FTC has a long history of providing technical 
assistance to antitrust authorities in emerging economies. Well-funded 
international engagement and assistance is critical to U.S. 
competitiveness. If confirmed, I would actively support appropriate 
funding for the FTC to continue its efforts to provide meaningful 
technical assistance to young competition and consumer protection 
agencies.

                                  <all>

</pre></body></html>
